<html>
<title> - NATIONAL AQUATIC INVASIVE SPECIES ACT OF 2003</title>
<body><pre>[Senate Hearing 108-354]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-354

                   NATIONAL AQUATIC INVASIVE SPECIES
                              ACT OF 2003

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON FISHERIES, 
                          WILDLIFE, AND WATER

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                                 S. 525

   A BILL TO AMEND THE NONINDIGENOUS AQUATIC NUISANCE PREVENTION AND 
        CONTROL ACT OF 1990 TO REAUTHORIZE AND IMPROVE THAT ACT


                               __________

                             JUNE 17, 2003


                               __________


  Printed for the use of the Committee on Environment and Public Works


                    U.S. GOVERNMENT PRINTING OFFICE
92-376                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                                 ------                                

             Subcommittee on Fisheries, Wildlife, and Water

                   MICHAEL D. CRAPO, Idaho, Chairman
JOHN W. WARNER, Virginia             BOB GRAHAM, Florida
LISA MURKOWSKI, Alaska               MAX BAUCUS, Montana
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 17, 2003
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     2
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    49
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..    49
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......    19
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     7
Warner, Hon. John W., U.S. Senator from the State of Virginia....    18

                               WITNESSES

Angelo, Joseph J., Director of Standards, U.S. Coast Guard.......    23
    Prepared statement...........................................    75
Beers, Jim, Science Advisor, The American Land Rights Association    37
    Prepared statement...........................................    87
    Responses to additional questions from Senator Murkowski.....    89
Hargrove, Sebastian, Government Relations Associate, The Nature 
  Conservancy of Idaho...........................................    40
    Prepared statement...........................................    91
Hauser, Michael, Aquatic Nuisance Species Specialist, Vermont 
  Department of Environmental Conservation.......................    41
    Prepared statement...........................................    93
    Responses to additional questions from Senator Allard........    95
Hill, Barry, Director, Interior Issues, Office of Environment and 
  Natural Resources, U.S. General Accounting Office; Accompanied 
  by: Trish McClure, Assistant Director, Office of Environment 
  and Natural Resources, U.S. General Accounting Office..........    13
    Prepared statement...........................................    53
    Responses to additional questions from:
        Senator Allard...........................................    61
        Senator Murkowski........................................    63
        Senator Voinovich........................................    61
Hogan, Matthew, Deputy Director, U.S. Fish and Wildlife Service..    24
    Prepared statement...........................................    76
Keeney, Timothy R.E., Deputy Assistant Secretary for Oceans and 
  Atmosphere, U.S. National Ocean and Atmospheric Administration.    25
    Prepared statement...........................................    80
    Responses to additional questions from:
        Senator Allard...........................................    84
        Senator Murkowski........................................    84
Levin, Hon. Carl, U.S. Senator from the State of Michigan........     5
    Prepared statement...........................................    50
Mehan, G. Tracy,III, Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................    27
    Prepared statement...........................................    85
Weakley, James, President, Lake Carriers' Association............    43
    Prepared statement...........................................    95
    Responses to additional questions from:
        Senator Allard...........................................    97
        Senator Voinovich........................................    97
Williams, Lori, Executive Director, National Invasive Species 
  Council........................................................    21
    Management Plan, National Invasive Species Council...........    67
    Prepared statement...........................................    64

                          Additional Material

Statements:
    Collins, Hon. Susan M., U.S. Senator from the State of Maine.    51
    Metcalf, Kathy J., Chamber Shipping of America...............   100
    Sherman, Thomas, W., Aquacide................................    98
    U.S. Geological Survey.......................................   104
Text of S. 525, National Aquatic Invasive Species Act of 2003....   106

 
                   NATIONAL AQUATIC INVASIVE SPECIES
                              ACT OF 2003

                              ----------                              


                         TUESDAY, JUNE 17, 2003

                                       U.S. Senate,
               Committee on Environment and Public Works,  
            Subcommittee on Fisheries, Wildlife, and Water,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:34 a.m. in 
room 406, Senate Dirksen Building, Hon. Michael D. Crapo 
[chairman of the subcommittee] presiding.
    Present: Senators Crapo, Warner, Murkowski, Allard, and 
Jeffords [ex officio].
    Also present: Senator Voinovich.

 OPENING STATEMENT OF HON. MICHAEL D. CRAPO, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Crapo. Good morning. The Subcommittee on Fisheries, 
Wildlife and Water will come to order.
    Today, the subcommittee will be receiving testimony on S. 
525, the National Aquatic Invasive Species Act. This bill would 
reauthorize the Nonindigenous Aquatic Nuisance Prevention and 
Control Act of 1990, as amended by the National Invasive 
Species Act of 1996.
    Aquatic nuisance species have cost our Nation billions of 
dollars in lost revenue and costs of action to control aquatic 
nuisance to protect commerce and our environment. In many 
instances, aquatic nuisance species enter our Nation's 
waterways through ship ballast water. Many of us are familiar 
with the challenges that the sea lamprey and the zebra mussel 
infestations have presented to citizens of the Great Lakes area 
and elsewhere. We have learned that once an aquatic nuisance 
species gains a presence in our waterways, control costs are 
often high and effectiveness is often limited. It is clearly 
much more cost-effective and less damaging to prevent the 
introduction of new aquatic nuisance species than to deal with 
them after they have arrived.
    Aquatic nuisance species also enter our waters through 
other means such as by introduction of species from the pet 
trade. Just last year, we saw a dramatic example of the effects 
of these kinds of introductions when officials discovered and 
were forced to try to eradicate the snakehead fish in Eastern 
United States waterways. In Idaho, we may have experienced the 
first known occurrence of New Zealand mud snail in the country 
in the Hagerman reach of the Snake River. Also, the State of 
Idaho will increase its spending to $250,000 this year trying 
to control the Eurasian water milfoil, an aquatic nuisance 
plant species that threatens to choke off waterways, affecting 
agriculture and recreation.
    If Zebra mussels ever gain a foothold in the Snake River in 
Idaho, it could threaten a large portion of our irrigated 
agriculture community, as well as hydropower systems and the 
Snake River salmon recovery efforts. We are already familiar 
with the impacts that other long-present invasive or nuisance 
species can have. For example, in significant portions of the 
Western United States, cheat grass is taking over native range 
vegetation, reducing forage and habitat value for livestock and 
wildlife, and causing more frequent and severe wildfires. These 
effects cause Americans millions of dollars a year. Cheat grass 
control actions have just begun. They are expensive and are not 
yet broadly effective. Addressing aquatic nuisance species may 
be even more difficult when moving waters can connect habitats 
without any human assistance, and detection of species may be 
more difficult underwater than on land.
    I know that our witnesses will be recommending numerous 
changes to this large and complex bill. However, this bill is a 
good starting point for addressing some critical needs. I 
appreciate the work of Senator Levin and the cosponsors of this 
bill and the work that they have done. It is my hope that this 
subcommittee can begin working to resolve some of the issues 
that have been brought to our attention so that we can move 
swiftly to protect our economy and our environment.
    Since there are no other members of the committee here yet, 
we will go immediately to our first panel. Excuse me, I did not 
look to my right. Senator Allard, excuse me.
    [Laughter.]
    Senator Crapo. If I didn't have Senator Levin here to keep 
me on course, I would have just gone right ahead.
    Senator Allard, if you have an opening statement, please go 
ahead.

 OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard. I do, Mr. Chairman. I want to thank you for 
holding this hearing and thank Senator Levin for bringing this 
bill forward.
    I think this is a very important issue. The prominence of 
invasive species and its surrounding issues have grown 
tremendously over the past several years. Each of us point to 
instances in our State that highlight the critical importance 
of responsible control and eradication of plant species that 
harm natural ecosystems and crowd out native plants.
    For example, in my State of Colorado, invasive species such 
as the myrtle spurge have grown in great popularity as an 
ornamental plant for xeriscaping. However, the plant is rapidly 
expanding into sensitive ecosystems, displacing native 
vegetation and reducing forage for wildlife. It also exudes a 
toxic milky latex which causes skin irritation upon contact. 
Hardly a beneficial addition, I would say, to the native plant 
mix.
    While this bill deals with aquatics, it is important to 
keep in mind that the difference between invasive types can be 
blurry. Take tamarisk as an example. The tamarisk, also known 
as salt cedar, is an invasive species that has crowded our 
natural stands of cottonwoods and willows along Colorado River 
banks. The tamarisk is an aggressive plant that grows to 20 or 
30 feet high and sends its roots hundreds of feet into the 
earth below. Two things make this plant a particular concern. 
First, the plant can consume up to 250 gallons of water a day. 
Second, the plant leaves are highly saline, creating a problem 
for both plant life and riparian systems.
    Now, 250 gallons of water a day per plant in a drought-
stricken State of Colorado, you can see why the eradication of 
this plant becomes so very important. It is a non-native 
species. Not only does the tamarisk steal water from the river 
and drop salt and leaves on the ground, it straightens out 
river channels and displaces habitat for the endangered willow 
flycatcher.
    I have joined my colleague from Colorado, Senator Ben 
Nighthorse Campbell, in an effort to end the tamarisk problem. 
Together, we have introduced legislation that will create a 
series of grants to Western States suffering from the invasion. 
The grants will provide an infusion of Federal aid toward 
eradication efforts, saving water, protecting stream banks, 
ending salinity problems, returning land to its natural state, 
and promoting the propagation of the willow flycatcher.
    You can see from the tamarisk and the other bills 
introduced on this subject that invasive species create 
overlapping dilemmas. This is one thing that we must be careful 
of when considering the bill. Any legislation must focus 
directly on the needs of our States and their water. 
Legislation must address these needs and provide end-game 
solutions so that continued Federal involvement does not 
infringe upon local and private rights.
    In Colorado, golden algae or paramecium parvum is 
responsible for fish kills at places like Prewitt Reservoir in 
Northeastern Colorado. The finding of golden algae results in 
an immediate ban on boating, fishing, wading and swimming. Long 
associate with fish die-offs in aquariums, golden algae has 
been a fish culture problem in Texas since the 1980's. They 
have also been associated with fish kills in Denmark, Great 
Britain, South Africa and Israel. In 2001, the algae was 
responsible for killing the entire hatchery production of 
striped bass and wipper in Texas, and they are suspected in a 
fish kill in New Mexico.
    Finding solutions that responsibly address such invasive 
species as golden algae and tamarisk is a difficult task. But 
again, I would ask my colleagues on the committee to be mindful 
of existing agency efforts and private projects. Federal 
legislation should not overstep its bounds, becoming a burden 
without solving the problem. Nor should the Federal Government 
impose additional unfunded mandates on States. If we are going 
to require new compliance with Federal regulations, we must 
provide a means for States to avoid such new responsibilities.
    The bill is 134 pages long, and the stated purpose of the 
bill is to protect the Nation's waterways from non-native, 
nuisance aquatic invasive species. This purpose is a worthy 
cause, but other causes of a similar nature that have been 
brought before this committee resulted in legislation without 
corresponding benefits. Anytime a 134-page bill surfaces, a 
bill that deals with water, Coloradans rightfully get a little 
nervous. They have endured a broken endangered species system 
that places a high priority on listing species and recovering 
them. The private property infractions resulting from this law 
have turned many conservationists into skeptical landowners.
    The Colorado system of water law is a product of 100 years 
worth of constitutional dictates, case law, statute and 
practice. I want to make sure that any bill dealing with water, 
whether in a National Forest matter or a new Invasive Species 
Act, does not intrude upon private property rights. I insist 
that it not burden the existing doctrine of prior 
appropriation. Water rights are properly a matter before the 
States' courts. Federal legislation must not interfere with 
State water rights and the rights of those people who hold 
them.
    Mr. Chairman, again I thank you for allowing me to share my 
thoughts with the committee and for working to ensure that this 
bill promotes a healthier ecosystem, but also protects private 
property rights and rights properly belong to the States.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Allard follows:]

Statement of Hon. Wayne Allard, U.S. Senator from the State of Colorado

    Thank you, Mr. Chairman. The prominence of invasive species and its 
surrounding issues has grown tremendously over the past several years. 
Each of us can point to instances in our State that highlight the 
critical importance of responsible control and eradication of plant 
species that harm natural ecosystems and crowd out native plants.
    For example, in my State of Colorado, invasive species such as 
myrtle spurge have grown in great popularity as an ornamental plant for 
xeriscaping. However, the plant is rapidly expanding into sensitive 
ecosystems, displacing native vegetation and reducing forage for 
wildlife. It also exudes a toxic, milky latex which causes skin 
irritation upon contact. Hardly an added addition to the native plant 
mix.
    While this bill deals with aquatics, it is important to keep in 
mind that the difference between invasive types can be blurry. Take 
tamarisk as an example. The tamarisk, also known as the salt cedar, is 
an invasive shrub that has crowded out natural stands of cottonwoods 
and willows along Colorado river banks. The tamarisk is an aggressive 
plant that grows to 20 or thirty feet high and sends its roots hundreds 
of feet into the earth below.
    Two things make this plant of particular concern: First, the plant 
can consume up to 250 gallons of water a day; and second, the plant's 
leaves are highly saline, creating a problem for both plant life and 
riparian systems. At 250 gallons a day in the arid, drought stricken, 
State of Colorado, you can see why the eradication of this plant is so 
important. Not only does the tamarisk steal water from the river and 
drop salty leaves on the ground, it straightens out river channels and 
replaces habitat for the endangered willow flycatcher.
    I have joined my colleague from Colorado, Senator Ben Nighthorse 
Campbell, in an effort to end the tamarisk problem. Together, we have 
introduced legislation that will create a series of grants to western 
States suffering from the invasion. The grants will provide an infusion 
of Federal aid toward eradication efforts, saving water, protecting 
streambanks, ending salinity problems, returning land to its natural 
state and promoting the propagation of the willow flycatcher.
    You can see from the tamarisk, and the other bills introduced on 
this subject, that invasive species create overlapping dilemmas--this 
is one thing that we must be careful of when considering the bill. Any 
legislation must focus directly on the needs of our State's and their 
water; legislation must address these needs, and provide end-game 
solutions so that continued Federal involvement will not infringe upon 
local and private rights.
    In Colorado, golden algae, or Prymnesium parvum, is responsible for 
fish kills at places like Prewitt Reservoir in northeastern Colorado. 
The finding of golden algae resulted in an immediate ban on boating, 
fishing, wading and swimming. Long associated with fish die-offs in 
aquariums, golden algae have been a fish culture problem in Texas since 
the 1980's. They have also been associated with fish kills in Denmark, 
Great Britain, South Africa and Israel. In 2001, the algae were 
responsible for killing the entire hatchery production of striped bass 
and wiper in Texas, and they are suspected in a fish kill in New 
Mexico.
    Finding solutions that responsibly address such invasive species as 
golden algae and tamarisk is a difficult task, but again, I would ask 
my colleagues on the committee to be mindful of existing agency efforts 
and private projects. Federal legislation should not over step its 
bounds, becoming a burden without solving the problem. Nor should the 
Federal Government impose additional unfunded mandates on States--if we 
are going to require new compliance with Federal regulations, we must 
provide a means for States to afford such new responsibilities.
    This bill is 134 pages long. The stated purpose of the bill is to 
protect the nations' waters from non-native, nuisance aquatic invasive 
species. This purpose is a worthy cause, but other causes of a similar 
nature that have been brought before this committee have resulted in 
legislation without corresponding benefits.
    Anytime a 134 page bill surfaces--a bill that deals with water--
Coloradans rightfully get a little nervous. They have endured a broken 
endangered species system that places a higher priority on listing 
species than recovering them.
    The private property infractions resulting from this law have 
turned many conservationists into the most skeptical of private 
property owners. Colorado's system of water law is the product of a 
hundred years worth of constitutional dictates, case law, statute, and 
practice. I want to make sure that any bill dealing with water, whether 
it is a national forest matter or a new invasive species act, does not 
intrude upon private property rights, and I insist that it not burden 
the existing doctrine of prior appropriation. Water rights are properly 
a matter before the State's courts--Federal legislation must not 
interfere with State water rights and the rights of those people who 
hold them.
    Mr. Chairman, again, I thank you for allowing me to share my 
thoughts with the committee, and for working to ensure that this bill 
promotes a healthier ecosystem, but also protects private property 
rights and rights properly belonging to the States.
    Senator Crapo. Thank you very much, Senator Allard. I 
strongly agree with your concerns about the protection of 
private property rights and making certain that we recognize 
the sovereignty of States over the jurisdiction of water. The 
allocation, use and management of water is a State issue in my 
opinion, and I appreciate your raising that important point.
    Now I see that there are no other Senators on the panel 
present, and I will then turn to our first panel, who is the 
chief sponsor of this proposed legislation.
    Senator Levin, we welcome you here and we encourage you to 
take the time that you need to present your legislation to us.

 STATEMENT OF HON. CARL LEVIN, U.S. SENATOR FROM THE STATE OF 
                            MICHIGAN

    Senator Levin. Thank you very much, Mr. Chairman, for 
holding this hearing. Senator Allard, thank you as always for 
your participation in involvement in these critical issues.
    As both of you have stated, the hearing today is to 
consider the authorization of the Levin-Collins National 
Aquatic Invasive Species Act. It has 16 senators sponsoring it, 
in addition to Senator Collins and myself. A companion bill has 
been cosponsored in the House by Congressmen Gilchrest and 
Ehlers. Its purposes are essential, which is to reauthorize the 
Nonindigenous Aquatic Nuisance Prevention and Control Act, and 
to take a more comprehensive approach toward addressing aquatic 
nuisance species to protect our waters.
    This problem is a real one in all of our States. As you 
both have mentioned, the invasion of foreign species, non-
domestic species has hit all of our States, and hit many of our 
States very, very hard. These species, micro-organisms, 
pathogens, plants, fish and animals, because they are foreign, 
typically do not run into any natural enemies in their new 
environments. The result is that they are often ecologically 
and economically disastrous.
    I think you may remember what happened in the late 1980's 
when the zebra mussel was released into the Great Lakes through 
ballast water. The Great Lakes still have those zebra mussels, 
but now 20 other States have them as well. Just in less than a 
decade, or perhaps a decade and a half, 20-plus States are now 
fighting to control these mussels which have changed the 
dynamics of our waters. They have decimated native mussels. 
They have allowed toxins to reenter the food chain, and they 
may be responsible for creating oxygen-deficient conditions or 
a dead zone in Lake Erie. Many of our beaches are now littered 
by zebra mussel shells, and it is estimated that electrical 
generation, water treatment and industrial facilities spend 
tens of millions of dollars every year combating the zebra 
mussel.
    The legislation is needed now for a number of reasons. One 
is just to reauthorize existing law. However, we also need to 
provide some direction to our negotiators at the International 
Maritime Organization to create an international ballast water 
standard, and to provide a national ballast water standard, 
rather than the patchwork of State efforts that we now have, in 
order to move a Ballast Water Management Program forward.
    As the Chairman mentioned, the best effort that we have 
against invasive species is prevention. While the Coast Guard 
has authority under existing law to significantly increase the 
Nation's efforts to prevent the introduction of aquatic 
invasive species through the largest pathway of introduction, 
which is ballast water, there has been very little progress to 
move toward technology that is as effective as ballast water 
exchange. By requiring the Coast Guard and the EPA to set 
interim and final ballast water management standards, the 
legislation allows and would promote ballast water technology 
to develop to a known standard.
    The bill requires the Coast Guard to set an interim 
standard that would require ships entering a U.S. port from 
outside the economic zone to either use ballast water exchange 
or use technology that reduces the number of living organisms 
in ballast tanks by 95 percent. This interim standard is not 
intended to be implemented for the long run and it is not 
perfect. However, a final standard is difficult to set today or 
in the near future because of the limited research that has 
been conducted on how clean or sterile ballast water discharge 
should be, and what is the best expression of a standard. But 
rather than wait many more years before taking action to stop 
new introductions, an imperfect but clear and achievable 
interim standard for treatment technology is the right 
approach. It will take at least another step forward.
    The interim standard would lead to the use of ballast water 
treatments that are more protective of our waters than the 
default method of ballast water exchange, and it can be 
implemented in the very near future. The bill provides the 
Coast Guard with flexibility to promulgate the interim standard 
using either a size-based standard or by whatever parameters 
the Coast Guard determines are appropriate.
    There are a number of other important provisions of the 
bill designed to prevent and respond to invasive species. The 
bill would authorize $160 million to $170 million each year. It 
is a lot of money. It is a critical investment, however, 
compared to the cost of invasive species, which are estimated 
at $137 billion per year. All of us face the havoc caused by 
invasive species and we know the ecological and economic damage 
that invasive species can cause.
    So Mr. Chairman and other members of the committee, again I 
want to thank you for tackling this subject. It is an issue 
which affects all of our States. We in the Great Lakes feel 
very strongly about our waters. I think all of us do, as 
Senator Allard has mentioned. Water is a very, very important 
issue in every State in the Union, and we in the Great Lakes 
have the same kind of special pride that all our other States 
do in their own waters and protecting those waters, and in 
controlling those waters at a State level. We need to get the 
Coast Guard more active in terms of foreign ballast coming into 
our lakes and our waters, and that is one of the purposes of 
this bill as well, which is to reauthorize the entire program.
    Again, I thank you all for your attendance here and for 
your interest in this subject.
    Senator Crapo. Thank you very much, Senator Levin.
    I will withhold my questions until the end, and we will go 
to the two members of the panel who have just arrived. Senator 
Jeffords, would you like to either make a statement or ask a 
question of Senator Levin?
    Senator Jeffords. No. I would just thank him for his 
statement. I know the terrible problems that are created by the 
zebra mussel in particular, so I appreciate your excellent 
statement.
    Senator Levin. Thank you, Senator Jeffords.
    Senator Crapo. Senator Voinovich?

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman. I want to thank 
you for calling today's hearing on the National Invasive 
Species Act of 2003.
    Although you do not represent a Great Lakes or coastal 
State, you have recognized, Mr. Chairman, that the issue of 
invasive species is a problem that plagues our entire Nation. 
As a Senator from Ohio whose northern boundary is Lake Erie and 
a cosponsor of the bill before this committee, I am glad to 
join Senator Levin in the cosponsorship of this legislation. I 
truly appreciate your attention to this issue.
    As you know, I have a scheduling conflict this morning in 
Governmental Affairs. We are marking up several bills, and I 
will try to keep my statement brief and try and get back for 
the rest of the witnesses.
    The issue of invasive species is very important to 
restoring and protecting one of our Nation's greatest natural 
resources, the Great Lakes. I am pleased to welcome James 
Weakley who is here to testify. He is the President of the Lake 
Erie Carriers' Association and is from my hometown of 
Cleveland, Ohio, right on America's north coast.
    During 37 years of public service, I have committed myself 
to stopping the deterioration of the lake and have waged what I 
refer to as the Second Battle of Lake Erie to reclaim and 
restore Ohio's Great Lake. I consider my efforts to preserve 
and protect Lake Erie of all the Great Lakes to be among the 
most significant that I have done during my entire career in 
public service.
    Through the years, we have seen great progress in the 
restoration of the lakes, but they remain threatened by a grave 
enemy, aquatic invasive species. These species threaten the 
health and viability of the Great Lakes fishery and ecosystem. 
I am worried about these aquatic terrorists from the ballast 
water of boats from all over the world. These species are 
already wreaking havoc in the lakes and our coastal waters and 
will continue to do so until they are stopped.
    As Mayor of Cleveland in the 1980's, I was alarmed about 
the introduction of zebra mussels into the Great Lakes and 
conducted the first national meeting to investigate the 
problem. It is a complicated situation, and we still are 
learning how invasive species like the zebra mussel affect the 
ecosystem. Since the 1800's, over 145 invasive species have 
colonized the Great Lakes. Since 1990 when legislation to 
address aquatic nuisance species was first enacted, we have 
averaged about one new invader every year. Hard to believe.
    Clearly, we have not closed the door to invasive species. I 
know first-hand the damage that these species can cause as I 
have seen the lakes become infiltrated with zebra and quagga 
mussels, gobies, sea lampreys and a variety of other species. 
This past August, I held a hearing in Cleveland on what might 
seem to be an unrelated problem, the annual formation of dead 
zones in the lake. If anyone is unfamiliar with this term, 
these are areas in our waterways that are without oxygen. While 
I have introduced the Harmful Algal Bloom and Hypoxia Research 
and Control Act of 2003 to better understand the cause and 
possible solutions to this phenomenon, some experts believe 
that invasive species are behind it. The scientists that I have 
talked to think that the dead zones are created by the invasive 
species.
    The possible link between Lake Erie's dead zone problem and 
invasive species underscores the seriousness of the problem. 
Aquatic invasive species readily spread through interconnected 
waterways and are very difficult to treat. The National Aquatic 
Invasive Species Act attempts to address the introduction, 
screening, response, research and hopefully eradication of 
these aquatic terrorists. We cannot afford to wait any longer 
in taking real and measurable steps to address the invasion of 
our waters. We must act quickly to strengthen our Nation's 
efforts to prevent invasive species from wreaking havoc on the 
Great Lakes' aquatic habitat and throughout the United States.
    I just want to make one other comment, Mr. Chairman. It is 
my understanding now that the zebra mussels have been seen in 
the Columbia River basin. It is just amazing. We did everything 
we could to try and limit it to Lake Erie and the Great Lakes. 
All of our lakes in Ohio now are infested with zebra mussels. 
This thing is just spreading all over the United States of 
America. We have another thing called quagga mussels that are 
even worse. They are going to be around. This is a very, very 
serious problem that I think that we need to tackle 
forthrightly if we are going to preserve the great resources 
that we have, not only the Great Lakes, but throughout the 
United States.
    Thank you very much.
    [The prepared statement of Senator Voinovich follows:]

 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio

    Mr. Chairman, thank you for calling today's hearing on the National 
Aquatic Invasive Species Act of 2003. Although you do not represent a 
Great Lakes or coastal State, you have recognized that the issue of 
invasive species is a problem that plagues our entire nation. As a 
Senator from Ohio whose northern boundary is Lake Erie, and as 
cosponsor of the bill before this Subcommittee today, I truly 
appreciate you turning your attention to this important issue.
    The issue of invasive species is very important to restoring and 
protecting one of our nation's greatest natural resources the Great 
Lakes. I am pleased to welcome James Weakley, who is here to testify. 
He is the President of the Lake Carriers' Association and is from my 
home town of Cleveland, Ohio, right on the coast of Lake Erie.
    Lake Erie's ecology has come a long way since I was elected to the 
State legislature in 1966. During that time, Lake Erie formed the 
northern border of my district and it was known worldwide as a dying 
lake. Lake Erie's decline was covered extensively by the media and 
became an international symbol of pollution and environmental 
degradation. Its problems were so well-known that the British 
Broadcasting Company sent a film crew to make a documentary about it.
    Thirty-seven years ago, when I saw firsthand the effects of 
pollution on Lake Erie and the surrounding region, I knew we had to do 
more to protect the environment for our children and grandchildren. As 
a State legislator, I made a commitment to stop the deterioration of 
the Lake and to wage the ``Second Battle of Lake Erie'' to reclaim and 
restore Ohio's Great Lake. I have continued this fight throughout my 
career as County Commissioner, State Legislator, Lieutenant Governor, 
Mayor of Cleveland, Governor of Ohio, and now United States Senator. I 
consider my efforts to preserve and protect Lake Erie and all of the 
Great Lakes to be among the most significant of my career and of my 
life.
    It is comforting to me that in the 37 years since I started my 
career in public service, I am still involved, as a member of the U.S. 
Senate and our Committee on Environment and Public Works, in the battle 
to save Lake Erie and all the Great Lakes.
    Today in Ohio, we celebrate Lake Erie's improved water quality. It 
is a habitat to countless species of wildlife, a vital resource to the 
area's tourism, transportation, and recreation industries, and the main 
source of drinking water for many Ohioans. Unfortunately, however, 
there is still a great deal that needs to be done to improve and 
protect Ohio's greatest natural asset.
    I have taken several specific steps in the 108TH Congress to ensure 
that the Great Lakes are protected and receive the attention they 
deserve. I proposed an amendment that was included in the fiscal year 
2003 Omnibus Appropriations bill to extend the current moratorium on 
oil and gas drilling in the Great Lakes until the end of fiscal year 
2005.
    Additionally, we must protect the area and specifically the 
wetlands around the Great Lakes. With almost 98 percent of the costal 
wetland system that existed in western Lake Erie lost over the past two 
centuries, I was pleased that Congress passed earlier this year my bill 
to expand the Ottawa National Wildlife Refuge and Detroit River 
International Wildlife Refuge.
    Recently, the General Accounting Office reported that while there 
are many Federal, State, and local programs, restoration of the Great 
Lakes is being hindered because there is no coordination or unified 
strategy for these activities. Furthermore, the GAO found that although 
more than a billion dollars has been spent since 1992, it is not 
possible to comprehensively assess restoration progress in the Great 
Lakes because overall indicators do not exist.
    The conclusions of this GAO report confirm concerns I have had that 
the Great Lakes are not receiving the attention they deserve. As 
Chairman of the Subcommittee on Oversight of Government Management, I 
plan to hold an oversight hearing on management of Great Lakes 
environmental programs. In addition, I cosponsored legislation (S. 
1116) to direct the Great Lakes National Program Office to develop, 
implement, monitor, and report on a series of indicators of water 
quality and related environmental factors in the Great Lakes. This bill 
would expand the Lake Erie Water Quality Index that I created as 
Governor to cover all of the Great Lakes.
    Through the years, we have seen great progress in the restoration 
of the Great Lakes, but they remain threatened by a grave enemy aquatic 
invasive species. These species threaten the health and viability of 
the Great Lakes fishery and ecosystem. I am worried about these aquatic 
terrorists in the ballast water of boats from all over the world. These 
invasive species are already wreaking havoc in the Lakes and our 
coastal waters and will continue to do so until they are stopped.
    Since the 1800's, over 145 invasive species have colonized in the 
Great Lakes. Since 1990, when legislation to address aquatic nuisance 
species was first enacted, we have averaged about one new invader each 
year. Clearly, we have not closed the door to invasive species. I am 
deeply troubled by the surge in new invasive species in Lake Erie, 
because once a species establishes itself, there is virtually no way to 
eliminate it.
    Because I know firsthand the damage these species can cause as I 
have seen the Lakes become infiltrated with Zebra and quagga mussels, 
gobies, sea lampreys, and a variety of other species I am involved in a 
fight to keep another invasive species out of the Great Lakes the Asian 
Carp. I cosponsored an amendment that was included in the fiscal year 
2003 Omnibus Appropriations bill to provide funds to continue operation 
of the Chicago Ship and Sanitary Canal Dispersal Barrier, which is the 
last line of defense to a very big and destructive fish. Fortunately, 
the bill before the Subcommittee today expands on the existing program 
by improving the Barrier project.
    As Mayor of Cleveland in the 1980's, I was alarmed about the 
introduction of zebra mussels into the Great Lakes and conducted the 
first national meeting to investigate the problem. It is a complicated 
situation, and we are still learning how invasive species like the 
zebra mussel affect the ecosystem.
    This past August, for example, I conducted a field hearing of the 
Environment and Public Works Committee to examine the increasingly 
extensive oxygen depletion or hypoxia in the central basin of Lake 
Erie. This phenomenon has been referred to as a ``dead zone'' and has 
been associated with massive fish kills, toxic algae blooms, and bad-
tasting or bad-smelling water.
    Hypoxia is usually the result of decaying algae blooms which 
consume oxygen at the bottom of the lake. In the past, excessive 
phosphorus loading from point sources such as municipal sewage 
treatment plants were greatly responsible for algae blooms. Since 1965, 
the level of phosphorus entering the Lake has been reduced by about 50 
percent. These reductions have resulted in smaller quantities of algae 
and more oxygen going into the system.
    In recent years, overall phosphorus levels in the Lake have been 
increasing, but the amount of phosphorus entering it has not. 
Scientists are unable to account for the increased levels of phosphorus 
in the Lake. One hypothesis is the influence of two aquatic nuisance 
species the zebra and quagga mussels. Although their influence is not 
well understood, they may be altering the way phosphorus cycles through 
the system.
    Another way zebra mussels could be responsible for oxygen depletion 
in Lake Erie is due to their ability to filter and clear vast 
quantities of lake water. Clearer water allows light to penetrate 
deeper into the Lake, encouraging additional organic growth on the 
bottom. When this organic material decays, it consumes oxygen.
    This year, I introduced the Harmful Algal Bloom and Hypoxia 
Research Amendments Act of 2003 (S. 937) to reauthorize and expand the 
Harmful Algal Bloom and Hypoxia Research and Control Act of 1998 to 
include the Great Lakes. The research authorized by the original Act 
focused only on coastal marine waters, although these problems exist 
throughout the Great Lakes. We need to focus our research and dollars 
not only on coastal marine waters, but also on these troubling 
situations in the Great Lakes.
    It is my understanding that Senators Olympia Snowe (R-ME) and John 
Breaux (D-LA) have also introduced a bill (S. 247) to reauthorize the 
Act and that the Commerce Committee will be marking up this legislation 
on Thursday. I also understand that they will be including the 
provisions in my bill that deal with the Great Lakes. I thank them for 
their leadership on this issue and for recognizing the importance of 
expanding this program to include the Great Lakes.
    However, more needs to be done. The possible link between Lake 
Erie's dead zone problem and invasive species underscores the 
seriousness of this problem. Aquatic invasive species readily spread 
through interconnected waterways and are extremely difficult to treat 
safely. Over the last 30 years, we have made remarkable progress in 
improving water quality and restoring the natural resources of our 
nation's aquatic areas, and we need to prevent any backsliding on this 
progress.
    While these species are a particular problem, I recognize that both 
terrestrial and aquatic invasive species cause significant economic and 
ecological damage throughout North America. Recent estimates state that 
invasive species cost the U.S. at least $138 billion per year and that 
42 percent of the species on the Threatened and Endangered Lists are at 
risk primarily due to invasive species.
    In 1999, President Clinton issued an Executive Order creating the 
National Invasive Species Council to develop a national management plan 
for invasive species and to bring together the Federal agencies 
responsible for managing them. This was a promising plan that has never 
been fully implemented. The National Invasive Species Management Plan 
was issued in 2001, but agencies with responsibilities under the plan 
have been slow to complete activities by the established due dates. 
Moreover, the agencies do not always act in a coordinated manner.
    The General Accounting Office released a report in October 2002 
that showed that implementing the Management Plan was possibly being 
hampered by the lack of a congressional mandate for the Council. It is 
disturbing to me that this Council exists but is not making substantial 
progress. Make no mistake about it; these species are not waiting for 
the Federal Government to get all of its ducks in a row. Instead, they 
are continuing to invade the waters and lands of the U.S.
    To correct this problem by legislatively establishing the Council, 
I am pleased to be an original cosponsor of the National Invasive 
Species Council Act (S. 536). I am interested to hear from the 
witnesses their thoughts on this legislation as well as any other 
recommendations they may have.
    The National Aquatic Invasive Species Act attempts to address the 
introduction, screening, response, research, and hopefully eradication 
of these aquatic terrorists. We cannot afford to wait any longer in 
taking real and measurable steps to address the invasion of our waters. 
We must act quickly to strengthen our nation's efforts to prevent 
invasive species from wreaking havoc on the Great Lakes' aquatic 
habitat and throughout the U.S.
    Again, Mr. Chairman, thank you for holding this hearing. This 
lineup of witnesses is extraordinary and I thank all of the expert 
witnesses who are here today. I look forward to their input on this 
very important legislation.
    Thank you.
    Senator Voinovich. Senator Levin, thank you for giving me 
an opportunity to make this statement. I know that you are a 
very busy person.
    Senator Levin. See you at Governmental Affairs.
    [Laughter.]
    Senator Crapo. Thank you very much, Senator Voinovich.
    I just have one quick question, Senator Levin, then we will 
see if Senator Allard has one and we will let you get off to 
your meetings.
    As you know, federalism is a big issue that has been raised 
with regard to the management of invasive species. I note that 
in the GAO report that we will have discussion of following 
you, there was sort of a mix between the States as to whether 
they thought that we should have Federal legislation that 
integrated all of the Federal authorities on invasive species, 
or whether to approach it from another perspective. I was just 
curious as to how your proposed legislation addresses this 
issue.
    Senator Levin. Mr. Chairman, I think we are all sensitive 
to the need for us to have the States basically be in the 
driver's seat relative to the waters. We feel very keenly about 
that in the Great Lakes. As a matter of fact, nationally we 
have insisted that our Great Lakes Governors have veto 
authority over diversion of water from the Great Lakes. So it 
is a very sensitive issue, I think, for all of our States.
    The non-Federal portions of the program are voluntary. It 
is intended to be a voluntary program, so no State has to 
accept any of the funding or any of the programs that are in 
here. We do however, when it comes to water coming into this 
country in ballast water in foreign ships or in U.S. ships that 
might bring in an invasive species, require that that ballast 
water be exchanged, but ballast water exchange has not worked 
well enough.
    So the fundamental issue that we address here is whether or 
not we have an interim standard which would promote technology 
as the alternative to ballast water exchange, and that would be 
something the Coast Guard would have to implement. But I don't 
see how that would be in any way a detriment to the power of 
States to control their own waters. I think that could only be 
seen as a plus.
    Beyond that, I am not sure I can address the specific 
question of the Chairman, and I don't know on this specific 
issue whether there is anything, frankly, in our bill which 
would be detrimental to the power of the States over their own 
waters. I think it would be viewed by most States as a plus, as 
something which would have the Federal Government be offering 
something to the States, but not be demanding that the States 
accept the offer in any way, or that there be any unfunded 
mandates or anything like that in here.
    I hope that is an accurate answer. It is the best I can 
give you without getting back into that 135-page bill, which I 
did not do last night, I am afraid.
    Senator Crapo. Well, we are all going to get into it very 
carefully. I do appreciate your answer and your attitude on 
those issues. It is a critical issue that we will need to 
address as we move forward.
    Senator Allard?
    Senator Allard. I just have one simple question for the 
Senator. We in Colorado frequently see, particularly on 
invasive species, the State willing to do the work and the 
property owner willing to do the work and people affected doing 
it, but the Federal Government has a stake there and they do 
not do it. Do we in any way reduce the responsibility of the 
Federal Government, that you are aware of, in your bill? Do we 
expect them to be treated like everybody else?
    Senator Levin. Right. Quite the opposite. I think we 
finally would put in enough funding on the funding side of that 
issue so that the Federal Government could carry out its 
responsibility. Because on that one particular issue alone, it 
is a major growing issue, and the Federal role should be a real 
one. It ought to be a partnership role. It should not be 
imposed, but it surely ought to be carried out so that we carry 
out our side of the commitments.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much.
    Any other questions?
    Senator Voinovich. Mr. Chairman, Mr. Hill is going to be 
testifying here from the Office of Environment and Natural 
Resources at the U.S. General Accounting Office. He is going to 
be getting involved in his testimony in the fact that State 
officials have identified the lack of legal requirements for 
control of invasive species as a legislative gap in dealing 
with them. He is going to try and explain to us how you fill 
the gap without imposing an unfunded mandate on the States. So 
I am anxious to hear his testimony.
    Senator Crapo. Yes, we are very much.
    Senator Levin. That is our goal.
    Senator Crapo. Without any further questions, if there are 
none, we will excuse you, Senator Levin, and we will move to 
the next panel.
    Senator Levin. Thank you very much.
    Senator Crapo. Before we do so, I wanted to note that Mr. 
Hill, you may be coming up while I make this announcement. 
Senator Murkowski was very interested in making an opening 
statement and I believe she is presiding on the floor of the 
Senate right now. When she arrives, we will at an appropriate 
breaking point, allow her to make her opening statement.
    I note that we have been joined by Senator Warner. Senator 
Warner, before we start this next panel, would you like to make 
any opening statement?
    Senator Warner. Mr. Chairman, I eventually will, but I need 
a few minutes to talk to staff.
    Senator Crapo. All right. I understand that entirely.
    With that, we will go to our second panel then, Mr. Barry 
Hill, who is the Director of Interior Issues with the Office of 
Environment and Natural Resources at the U.S. General 
Accounting Office. Mr. Hill, I will tell you and all of the 
other witnesses on the panels for the rest of this hearing, we 
have given you instructions that we would like you to keep your 
oral testimony to 5 minutes.
    We do have your written testimony and your reports, and for 
other witnesses we have your written testimony and we will 
review it and in most cases have already reviewed it, but we 
like to keep as much time as we can for questions and answers. 
So we encourage you to watch that clock and try to keep your 
remarks to 5 minutes.
    With that, Mr. Hill, please proceed.

 STATEMENT OF BARRY HILL, DIRECTOR, INTERIOR ISSUES, OFFICE OF 
  ENVIRONMENT AND NATURAL RESOURCES, U.S. GENERAL ACCOUNTING 
   OFFICE; ACCOMPANIED BY TRISH McCLURE, ASSISTANT DIRECTOR, 
          OFFICE OF ENVIRONMENT AND NATURAL RESOURCES

    Mr. Hill. Thank you, Mr. Chairman and members of the 
subcommittee. Before I do begin, let me introduce my colleague. 
With me today is Trish McClure, who led the work we will be 
presenting today on the Invasive Species Program.
    We are pleased to be here today to discuss the issue of 
managing invasive species. My testimony today is based on our 
October 2002 report on the Federal Government's national 
management plan for invasive species, as well as new work that 
you requested on State perspectives regarding invasive species 
management.
    As you know, States and over 20 different Federal agencies 
operate a variety of invasive species-related programs and 
activities. In 1999, Executive Order 1312 established the 
National Invasive Species Council to provide national 
leadership in this area and to develop a national management 
plan to serve as a blueprint for Federal invasive species 
actions. Our evaluation of that plan found that it lacks a 
clear, long-term desired outcome and quantifiable measures of 
performance. While the actions called for in the plan are 
likely to contribute to controlling invasive species, it is 
unclear how implementing them will move the United States 
toward a specific outcome such as reducing the number of new 
invasive species or the spread of established species by a 
certain amount.
    Moreover, we reported that implementation of the plan has 
been slow. As of September 2002, Federal agencies had completed 
less than 20 percent of the 65 actions that the plan had called 
for by that date. We recommended that the Council clarify the 
goals and objectives in the national management plan and 
improve reporting on the progress of its implementation.
    We also reported in October 2002 that Federal efforts are 
not adequate to prevent the introduction of invasive species 
into the Great Lakes via the ballast water of ships. Despite 
Federal regulations requiring ships that enter the Great Lakes 
to exchange their ballast water in the open ocean, aquatic 
invasive species are still establishing themselves in that 
ecosystem.
    We found two factors that contribute to this problem. 
First, the Coast Guard classifies about 70 percent of the ships 
that enter the Great Lakes as having no ballast on board and 
are therefore exempt from open ocean exchange requirements. 
However, these ships may in fact carry thousands of gallons of 
residual ballast water that may contain invasive organisms and 
that may be discharged into the Great Lakes.
    Second, the open ocean exchange conducted by ships that 
have ballast does not effectively remove or kill all organisms 
in the tanks. Federal officials believe it could be a decade or 
more before standards and technologies are developed to 
effectively treat ballast water. In the meantime, the 
introduction of aquatic invasive species into the Great Lakes 
will continue to be a problem.
    Now let me turn to our most recent work gathering State 
perspectives on the invasive species problem. According to the 
State officials we surveyed, a key gap noted in both aquatic 
and terrestrial legislation is the lack of legal requirements 
for controlling invasives that are already established or 
widespread. In addition, many State officials frequently cited 
as ineffective the current Federal standards for ballast water, 
which only impose requirements for ships entering the Great 
Lakes and not other U.S. waters.
    Regarding barriers to addressing invasive species, most 
State officials were concerned with the lack of Federal funding 
for State efforts and the lack of public awareness, outreach 
and education activities. A majority of the States also said 
that there are less control techniques available to combat 
aquatic species than there are for terrestrial species and that 
there is a need for more species-specific research to identify 
effective measures.
    S. 525 appears to address many of the issues we have 
discussed today. For example, among other things, the bill sets 
forth a much more aggressive program for ballast water and 
related pathways by requiring ballast water standards for ships 
in all U.S. waters, and authorizing substantially more funding 
for research on pathways of likely aquatic invaders and the 
development of treatment technologies.
    Second, the bill provides better outreach and education to 
various industries that can serve as pathways for invasives, 
such as the pet trade, recreational boaters and marina 
operators. Finally, S. 525 would authorize a grant program for 
research, development, demonstration and verification of 
environmentally sound, cost-effective technologies and methods 
to control and eradicate aquatic invasive species.
    Mr. Chairman, this concludes my statement. We would be more 
than pleased to respond to any questions that you or other 
members may have.
    Senator Crapo. Thank you very much, Mr. Hill.
    Your testimony states at the outset that the data we need 
to set long-term goals and performance measures is not 
available currently. If I understand correctly, it is going to 
be a number of years before we are at a point where we can do 
that. What sorts of research data and collection need to be 
completed before we would have a comprehensive picture to 
enable us to do this well?
    Mr. Hill. This is almost like a chicken and an egg 
argument. You almost have to decide what your performance goals 
and measures are going to be. How are you going to measure 
success or performance in this program? And then based on those 
measurements, you have to determine what data is currently 
available and what data gaps exist. I think that is something 
that the Council is currently wrestling with.
    Senator Crapo. The question I am getting at is, are we in a 
position right now where we, through legislation, can make 
progress in this arena? Or are we simply getting the cart 
before the horse? Do we need to get more data collection before 
we can proceed?
    Mr. Hill. I am going to let Ms. McClure comment on this as 
well. I think the bill does provide for many nice things, one 
of the things being conducting of more additional research to 
hopefully study the situation and identify what the problem is 
so that you can determine what kind of data you are going to 
need to collect.
    Ms. McClure. I think the big concern is that you do not 
want to set a goal, for example, reducing or eliminating the 
invasions of invasive species to our environment, because many 
people recognize that that is an incredibly difficult thing to 
do. So I think the concern is setting an appropriate goal, and 
therefore identifying performance measures that are actually 
achievable, and the concern of gathering that data is to be 
sure you are reporting on the appropriate things.
    Senator Crapo. So establishment of the goal is going to 
drive the kind of data collection and research that we will 
need to conduct?
    Ms. McClure. Yes, definitely.
    Senator Crapo. Thank you very much.
    Mr. Hill, currently there are, if I understand it 
correctly, 11 Federal agencies on the Invasive Species Council. 
The obvious question that that brings to my mind from the 
outset is whether we have too many cooks in the invasive 
species kitchen. Do we have too broad an issue here? Or is it 
the kind of situation where we have such a broad impact from 
this problem that we have to bring that many agencies to bear 
in the Council to address the issue?
    Mr. Hill. It is certainly a situation that affects not only 
a lot of agency programs and missions, as well as many States, 
obviously as well. So it is difficult to single out one or two 
agencies that you could consolidate this thing into. I think 
the concept of a council is a good one, where you basically 
have all the responsible Federal agencies conceptually working 
together and coordinating their activities to assist States and 
the Federal agencies to address the problem.
    Senator Crapo. I noted in your report that there was some 
discussion with the States about whether integration was a good 
idea or not. The States seem to be in a slight margin in favor 
of that. What are we talking about by ``integration''?
    Ms. McClure. That would be providing a single legislative 
authority that would be very broad and provide quite a bit of 
flexibility in terms of how to address invasives or pathways, 
what type of data to collect, and what types of controls would 
be implemented.
    Senator Crapo. As opposed to a number of different 
statutory authorities? And what was the concern of the States 
that did not support integration?
    Ms. McClure. There was concern that there would be reduced 
State flexibility. As my colleague was saying, some of the 
concerns that we have many existing programs in place that have 
been working well, and that if you start to integrate and force 
agencies to change what they have historically been doing, you 
may be losing some of that expertise and some of the goals or 
the achievements that have already been made.
    Senator Crapo. My last question, then, and I will go on to 
Senator Allard, but did any of the States raise federalism 
issues or State sovereignty issues with regard to this issue?
    Ms. McClure. That is an interesting point. The State 
results actually indicate some degree of conflict on that. 
While they say there is a need for some legal requirements in 
many areas, and really need that to be able to address things, 
they also recognize the lack of Federal funding in many areas. 
So it does seem to be a mixed point.
    Senator Crapo. Thank you.
    Senator Allard?
    Senator Allard. It seems to me that if we are going to meet 
all these varied types of species and everything, there is so 
much difference in how you might attack reducing those invasive 
species' populations. You almost have to rely on the States to 
come up with a program. Would it possible, do you think, to 
make this a successful program if we just provided the dollars 
and set some general guidelines that say that you have got to 
show within the first 3 years of funding that you reduced 
whichever species it is by 5 percent within the State?
    Could we be as effective doing that as we could with any 
kind of a mandate that we currently have in law? This report is 
probably one of the weakest reports as far as administering a 
program as I have probably seen since I have been in the 
Congress. It just doesn't seem to be able, like you say, 
measure results. I think you were right in pointing that out. 
Can we do that through the appropriation process and make it 
voluntary on the States?
    Mr. Hill. That would be challenging for them in that in 
many cases the invasive species are not contained within one 
State. It is becoming a national issue. It certainly affects 
multiple States. In order to effectively control or prevent 
these species from entering, it is going to take some 
coordination on the part of States working together to address 
the problem. If they could do that, yes, it would be effective. 
But if the States have different priorities or they are 
focusing on different species, and one State is focusing on one 
species and the adjacent State is not, it is going to be very 
difficult to control that species and certainly to do it cost-
effectively.
    Senator Allard. For example, the mussel problem that we 
have in the Great Lakes or the problems we have there, those 
species would not be a problem to other States, but perhaps 
regionally we could put a program in place where those States 
that are all impacted by that mussel, for example, could set up 
a program.
    We could provide the money, but again direct them to do 
specific things in order to qualify for the funding and manage 
the program. Maybe we would not do it strictly by a State 
basis, but say if the States have a common problem, then part 
of the responsibility of getting this money in this program is 
to form a coalition of States that are willing to be a part of 
that coalition to get the job done.
    Mr. Hill. That could be done, and certainly for the zebra 
mussel where it is becoming widespread and States are 
recognizing if we do not work together to do something, it is 
going to be even a bigger problem. There is a common interest 
there perhaps in addressing that particular issue. But there 
are so many species out there, and there are so many that still 
could enter the United States. I think what you are talking 
about here, and I think Senator Levin used the correct term, 
what you need to be looking for is basically a partnership here 
between Federal agencies, the States themselves, working 
together cooperatively where it makes sense to address common 
problems that they have.
    Senator Allard. If you are going to work cooperatively, it 
seems like you have to make it voluntary. They have to feel 
they are part of the team, but you have to have responsibility 
to the taxpayers to make sure the money that it gets is spent 
responsibly. It seems to me that the proper role for the 
Federal Government here is to provide the money, make sure, 
like you said, that the program they come up with has 
measurable results, and that that money is well spent.
    I know that, for example, a lot of foreign species that 
come into the United States are restricted at certain ports of 
entry. Is that program working or not? Did you cover that in 
your GAO evaluation?
    Ms. McClure. No, we did not.
    Senator Allard. OK. Thank you.
    Senator Crapo. Thank you.
    Senator Jeffords?
    Senator Jeffords. Mr. Hill, regarding the agency's work 
implementing the management plan, does it appear that the 
agencies are coordinating their efforts to address actions 
called for by the plan?
    Mr. Hill. When we did our work back in October of 2002, we 
did find instances where there was not effective coordination 
going on, where there were particular actions that were 
designated that needed to be done. It seemed as though the 
agencies were doing things that were related to that particular 
action, but they really weren't coordinated or integrated, and 
did not seem to be directed in a way that would have a 
successful outcome.
    Since we have done that report, on a positive note, one 
thing that we are aware of is that the agencies now have a 
cross-cutting budget which should help in coordinating future 
efforts, since they are basically identifying budgetary things 
that can be done and pooling money in a way where they can 
coordinate some activities in the future.
    Senator Jeffords. What is a cross-cutting budget?
    Ms. McClure. The cross-cutting budget that they put 
together for fiscal year 2004 deals with activities related to 
prevention, detection and control for Agriculture, Commerce and 
Interior. Basically, it is the starting point of something that 
would help them integrate, as Mr. Hill said, their programs, 
identify where they have actions that are related, and ensure 
that those activities are coordinated and they are working 
toward more efficient outcomes.
    Senator Jeffords. What does GAO believe should be done in 
regard to ballast water management?
    Mr. Hill. Clearly, there is a need for more research and 
technology development there. Right now, I think it was 
mentioned earlier by Senator Levin, that there is a need for a 
standard to be developed. Until that standard is developed, the 
companies that develop the technology are kind of reluctant, I 
think, to go ahead and develop those technologies because they 
do not know what standard or what level that those technologies 
need to be developed to. So you need a standard that will 
hopefully spur on some technology development. Once the 
technologies are available, you can incorporate them into 
ships.
    Now, the other thing that is important to consider here is 
the longer this goes on, the longer that this standard is not 
developed, the longer that the technology is not put in place, 
ships that are currently being built will have to be 
retrofitted in the future to upgrade them to that standard.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Crapo. Thank you.
    Senator Warner, and you may make an opening statement if 
you choose, and then follow with questions.

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. [holds up a marine mollusk shell about six 
inches long.] The reason I did want to speak is that I want to 
introduce everybody to this. I collected this yesterday when I 
traveled to the Chesapeake Bay with our former colleague and 
dear friend, Senator Mathias, who spent much of his career here 
in the Senate working to clean up the Chesapeake Bay.
    I am going to read what this is. I really did not know much 
about it. Here it is. It is called a Rapa welk. Whoever heard 
of that before? It apparently came in through the ballast tanks 
and into the Chesapeake Bay some years ago. Today, it eats 
everything in its path, including oysters which we are 
appropriating significant sums of money trying to restore. So 
with one hand, the taxpayer is putting in money to develop 
oysters in my State, and this joker is running around eating 
them up as fast as we can get them started. In between, he 
devours the clams and the mussels and everything else.
    Now, when I first saw it, I thought it was one of those 
fancy things called a conch, and all of us have been down to 
the islands in the middle of winter and we get conch stew and 
everything is quite nice. No human can eat it. It is 
practically poisonous.
    So what has Virginia done? It has put a $5 bounty on this 
rascal. Even the kids can go along the seashore and pick up the 
shells, which they are doing, and get some bounty, but if you 
can get one live, it is $5 and the fishermen are almost making 
more money scooping these fellow up then they are the products 
of the sea.
    So we have got to do something about it. There are a number 
of firms in Virginia that have developed technologies to help 
solve it, but precisely what you said, they are not going to 
move with their capital and take the risks until we decide on 
these interim standards. That is why I joined the Levin bill in 
hopes that Congress can impress upon the Federal Government 
that all of the various players in this, and we have a full 
list of all the various government agencies and so forth that 
have been enumerated this morning, can get together and at 
least hold a quiet election somewhere in a room and elect one 
agency to go ahead. I think the Coast Guard is eminently 
qualified to spearhead the effort.
    So I am going to go down and put this on my shelf and watch 
as we work on this legislative process as a reminder to me that 
we have got to do something because my State is suffering 
greatly from this. I thank our witnesses this morning. I thank 
the Chairman and our distinguished Ranking Member. Now let's go 
get something done. This beast has got to be stopped.
    Thank you very much.
    Senator Crapo. Thank you very much, Senator Warner. When 
you brought that in here, I thought you were bringing us 
something from the islands. So we appreciate that lesson.
    Senator Murkowski, you may make an opening statement. Then 
if you choose when you are finished, you can follow up with 
questions.

OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM THE 
                        STATE OF ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I appreciate the opportunity again to participate in the 
hearing that has substantial impact on my State of Alaska. We 
have been relatively fortunate in Alaska due to the distance, 
climate and a little bit of foresight, to be protected from 
some of these invasive species. We do not have this monster 
that apparently has invaded the great Chesapeake Bay. We have 
some pretty strong laws regarding the importation of exotic 
species, and have had them for many years.
    Despite that, we have had a number of invasive aquatic 
species and non-aquatic species that have hitchhiked to Alaska. 
We have others that are near our border and appear to be 
working toward our direction. In the port of Valdez in Prince 
William Sound, we receive the third-largest volume of ballast 
water of any U.S. port due to the regular arrival of very large 
oil tankers, many of which arrive to the port of Valdez already 
infested with invasive species. This is a significant and a 
continuing threat, although to date only a small number of 
problems have been detected.
    We are working on technologies and practices to meet this. 
Among the most promising is this new method of introducing 
ozone into the ballast water, both when it is pumped aboard and 
when it is discharged. So far, we understand that there have 
been excellent results in removing these biological 
hitchhikers. I want to note that this research has been funded 
actually by the oil and gas industry, British Petroleum, and 
the industry's willingness to step forward on this issue should 
be recognized. But the government's obligation to address this 
issue should not be overlooked. I hope this committee will 
agree that this research is very worthy and we need to give it 
our strong support.
    There has been a variety of both animal and plant organisms 
that have shown up in Alaskan waters. The Northern Pike, which 
has been introduced illegally into areas where it is not 
native, and is a very serious threat to our native Pacific 
salmon and other fish. We have Atlantic salmon escaping from 
salmon farms in other areas, which we have also seen from 
Southeastern Alaska up to Prince William Sound, and in ocean 
waters as far away as the Bering Sea. Natural reproduction of 
escaped Atlantic salmon has been observed in British Columbia, 
and it is possible that this species could find a foothold in 
Alaska, again, posing serious threat to our native stocks.
    Plants such as Japanese knotweed, Reed Canary grass and 
Foxtail barley are also colonizing, posing a threat to our 
naturally occurring species. There are several other species 
which have not yet been observed in Alaska, but are considered 
to be a danger and we are watching carefully in the hopes of 
intercepting them before they do become a problem.
    The European green crab is an example. It became 
established in California and has already moved as far north as 
Vancouver Island. Although small, it is highly aggressive, 
preys on juveniles of other crab species, as well as on clams, 
mussels, urchins and other fish and plants. So in Alaska, all 
the major crab species, king, Dungeness and Tanner, could be at 
risk from this European green crab.
    Another small crab, again, of concern is the Chinese mitten 
crab, which has become established in San Francisco and may be 
moving northward. One specimen has been found near the mouth of 
the Columbia River, but because this little creature comes to 
the freshwater to spawn, potentially moving hundreds of miles 
upriver, we view it as a serious threat.
    This is by no means an exhaustive list, and it is not meant 
to be. It is just an example of those things that we are 
keeping an eye on very attentively.
    I also need to make mention of another creature that has 
become a serious problem. It is not an aquatic animal. It is 
the Norway rat. It shares one of the common characteristics 
with many aquatic nuisance species, and that is the mode of 
travel. Rats arriving via shipwrecks and in transferred cargo 
are now considered a significant threat to sea bird colonies in 
the Aleutian Islands Maritime Wildlife Refuge. I am hoping that 
when we begin to work on specific changes to the Act, it is 
possible to address this matter, perhaps in the same way that 
the Brown Tree snake, which was another terrestrial species, 
that will be addressed again in the original Act.
    Mr. Chairman, I look forward to continuing discussion on 
this issue.
    At this time, just a very quick question of you, Mr. Hill. 
I mentioned the ozone treatment into the ballast waters. We 
seem to think that it has shown some success. Your thoughts on 
this as a possible treatment?
    Mr. Hill. We did not do an analysis of the various 
treatments being attempted. In the work we have done, we have 
identified that there is a need for new treatment technology 
and new treatments to be developed, but I am not aware of any 
work that we have done specifically on any treatment 
developments.
    Senator Murkowski. Perhaps we can share ours with you.
    Mr. Chairman, thank you.
    Senator Crapo. Thank you very much.
    Any further questions? If not, Mr. Hill and Ms. McClure, we 
appreciate your being with us. Thank you.
    We will now move to our third panel. The panelists may come 
up. This panel includes Ms. Lori Williams, the Executive 
Director of the National Invasive Species Council; Mr. Joseph 
Angelo, Director of Standards at the U.S. Coast Guard; Mr. 
Matthew Hogan, Deputy Director of the U.S. Fish and Wildlife 
Service; Mr. Timothy Keeney, Deputy Assistant Secretary for 
Oceans and Atmosphere at the U.S. National Oceanic and 
Atmospheric Administration; and Mr. Tracy Mehan, Assistant 
Administrator for Water at the U.S. Environmental Protection 
Agency.
    We welcome you all with us. Ms. Williams, we will start 
with you. Please proceed.

   STATEMENT OF LORI WILLIAMS, EXECUTIVE DIRECTOR, NATIONAL 
                    INVASIVE SPECIES COUNCIL

    Ms. Williams. Thank you.
    Thank you for the opportunity to discuss the National 
Invasive Species Council's efforts to deal with the problem of 
invasive species and comment on S. 525, the National Aquatic 
Invasive Species Act of 2003.
    Last summer, efforts to eradicate the snakehead fish in 
Maryland put the problem of aquatic invasive species on the 
front page. The threat that this voracious predator, discovered 
in a small pond, could easily have spread to the entire 
Chesapeake Bay if quick action was not taken by the State of 
Maryland and local officials, graphically demonstrates the risk 
of invasive species and their potential destructive capacity.
    The apparent success of Maryland officials in eradicating 
the snakehead fish and quick action by the U.S. Fish and 
Wildlife Service, moving swiftly to regulate the fish under 
Federal law, has unfortunately been the exception, rather than 
the rule in the past. Too often, invasive species have become 
well established and difficult, if not impossible, to eradicate 
or contain by the time action is taken. When these species to 
become established, as you have heard in graphic detail, they 
cause environmental economic harm and some harm to animal and 
human health as well.
    The Council is charged with coordinating Federal activities 
relating to all invasive species, including aquatic and 
terrestrial species. Although our focus today is on aquatic 
invasive species, many of the issues and proposed solutions are 
common to all types of invasive species.
    As you heard from the GAO, the Council was created by 
Executive Order 13112, not only to address the growing problem 
of invasive species, but the need for coordination. There are 
over 20 Federal agencies in 11 different departments and 
agencies that have important invasive species programs, and it 
is vital that they be coordinated. The Council is co-chaired 
and provided leadership by the Secretaries of Interior, 
Agriculture and Commerce, and many of the other departments 
that are members of the Council are represented here today.
    The Executive Order provides for an Invasive Species 
Advisory Committee. This committee is composed of non-Federal 
experts and stakeholders. They advise the Council and provide 
vital non-Federal perspective and input. The key tasks and some 
of the accomplishments of the Council are listed in my full 
statement, but one of the most important activities of the 
Council is to draft and implement the National Invasive Species 
Management Plan. The executive summary is attached for your 
information, to this testimony.
    I would like to now turn to comment on S. 525. The 
subcommittee requested that I provide a general overview of the 
Federal agencies' comments and concerns regarding the 
reauthorization bill. At that point, following my testimony, 
the other departments and officials will provide more detail on 
their specific concerns.
    First, we support the reauthorization of the Aquatic 
Invasive Species legislation. It is a vital and important step 
in addressing this problem. There is broad support among 
councilmembers for the bill's comprehensive approach to dealing 
with aquatic invasive species problems. This approach is very 
similar to that taken in the National Invasive Management Plan.
    Regarding concerns, first, in terms of ballast water, it is 
critical that any treatment standard adopted for ballast water 
be biologically meaningful, based on science, and enforceable. 
It has not been demonstrated that the standard based on a kill 
rate meets these criteria as currently proposed in S. 525. The 
Coast Guard and other agencies will elaborate on the specifics 
in terms of ballast water.
    In general, there is concern that some of the provisions of 
S. 525 are administratively burdensome and inflexible. The 
Department of Commerce notes in their testimony that 31 
separate deadlines for administrative actions all fall within a 
relatively short timeframe. Some of the bill's provisions, 
including the areas of rapid response and screening, are overly 
prescriptive and do not allow the agencies and the Council the 
flexibility needed to develop and test new methods and provide 
for adequate stakeholder input, recognizing the complexity and 
difficulty in dealing with some of these issues and policies 
involved. Some of these issues involve international trade and 
need to be dealt with very, very carefully.
    Along the lines we noted, new spending authorized by S. 525 
is currently not in the President's 2004 budget, and thus the 
proposal must be considered within the existing resources and 
priorities. New requirements included in the bill, such as 
those for education, should be integrated into existing 
efforts.
    As with any comprehensive and complex legislation, there 
are areas that need improvement. The other Federal 
representatives on the panel will provide additional detail and 
the Council is ready to assist the committee in addressing 
these general concerns and providing additional technical 
comments.
    Thank you and I would be glad to address questions at the 
end of the panel.
    Senator Crapo. Thank you very much, Ms. Williams.
    Mr. Angelo?

  STATEMENT OF JOSEPH J. ANGELO, DIRECTOR OF STANDARDS, U.S. 
                          COAST GUARD

    Mr. Angelo. Good morning, Mr. Chairman and distinguished 
members of the subcommittee. I am Joe Angelo, the Director of 
Standards for the Coast Guard. I also serve as the head of the 
United States delegation to the International Maritime 
Organization which is negotiating an international treaty on 
ballast water management.
    It is a pleasure to appear before you today to provide our 
views on S. 525. The Commandant of the Coast Guard, Admiral 
Collins, has stated that ballast water management is the No. 1 
environmental protection issue for the U.S. Coast Guard. 
Working under existing legislation, the Coast Guard's ongoing 
regulatory efforts are addressing many of the ballast water 
management provisions contained in S. 525. These include 
establishing a mandatory national ballast water management 
program, which would include ballast management plans and 
records of ballast operations; setting a ballast water 
treatment standard; and establishing a process for the 
development, testing, and evaluation of experimental treatment 
systems.
    Nevertheless, we believe that reauthorization and amendment 
of the aquatic nuisance species legislation is necessary to 
effectively address this growing environmental problem. 
However, we do have some concerns regarding S. 525 which we 
believe should be considered. In developing a ballast water 
standard, we have established three major criteria that we 
believe are essential in protecting U.S. waters. The standard 
must be biologically meaningful, scientifically sound, and 
enforceable. We are particularly concerned with the inclusion 
of an interim ballast water treatment standard in this bill. 
The interim standard in the bill that requires at least 95 
percent removal or kill of organisms in the ballast water does 
not meet any of the above criteria, and from our perspective, 
especially the enforceability aspect.
    Another concern is that the bill has the Coast Guard 
issuing regulations for an interim standard and EPA issuing the 
final standard. We believe that the responsibility to develop 
and promulgate a single ballast water discharge standard should 
remain with one agency. The Coast Guard stands ready, willing 
and able to do so in full consultation with those sitting at 
this table.
    Our third concern is the proposed timelines for 
implementing many aspects of the ballast water management 
regulatory regime. We fully recognize the need to issue 
regulations on this important issue quickly, but in view of the 
fact that the current state of ballast water management 
technology is very much in its infancy, we firmly believe that 
stakeholder input and participation throughout the regulatory 
process is absolutely essential. The timelines contained in the 
bill may inhibit full and complete stakeholder participation.
    The final concern I will mention is that we believe that 
the prescriptive nature of the bill has the potential for 
delaying the implementation of an effective Federal ballast 
water management regime.
    In closing, I would like to thank you for the opportunity 
to present some of our views on this bill. The Coast Guard 
looks forward to working with Congress on the reauthorization 
of aquatic nuisance species legislation as we continue our 
ongoing efforts to implement an effective ballast water 
management regime for the United States.
    I would be happy to answer any questions that you have when 
we are done. You asked for 5 minutes, and I kept it to three. I 
have always wanted to say this, sir, I yield my 2 minutes to 
the remaining panel members.
    [Laughter.]
    Senator Crapo. We appreciate your keeping it to three, but 
we are not going to let you yield those minutes to anybody 
else.
    [Laughter.]
    Senator Crapo. Thank you very much, Mr. Angelo.
    Mr. Hogan?

  STATEMENT OF MATTHEW HOGAN, DEPUTY DIRECTOR, U.S. FISH AND 
                        WILDLIFE SERVICE

    Mr. Hogan. Good morning, Mr. Chairman, and members of the 
subcommittee. I am Matt Hogan, Deputy Director of the U.S. Fish 
and Wildlife Service. I thank you for inviting the Department 
of Interior to give you our comments on S. 525.
    There is no question that the introduction and 
establishment of aquatic invasive species have significantly 
impacted our natural areas. The United States continues to see 
an increase in the number of aquatic species crossing our 
borders, and we expect these trends to continue if preventive 
action is not taken. The Department supports the overall 
direction of this bill and is encouraged by the leadership and 
foresight shown by Congress in introducing legislation that is 
so comprehensive.
    One of the purposes of the original legislation was to 
encourage Federal and State agencies to work with partners to 
enhance our collective efforts. We believe that the 
partnerships and cooperative entities established through the 
ANS Task Force and the National Invasive Species Council have 
been instrumental in making significant progress to prevent and 
control aquatic invasive species. While aquatic invasive 
species continue to be a significant threat to our natural 
resources, we believe our efforts to prevent and control them 
has resulted in fewer species introduced and reduced impacts 
for those that have become established.
    I would like to take a moment to briefly address some of 
our concerns with S. 525. Let me begin by saying that we 
support reauthorization and look forward to working with you, 
Mr. Chairman, to address the Department's concerns. One 
specific concern we have is the proposed deadlines required by 
S. 525. We hope to have the opportunity to work with you and 
your staff to ensure that the deadlines are manageable, while 
still ensuring that we continue to deal aggressively with these 
issues.
    We are encouraged to see that additional emphasis is being 
placed on aquatic pathways other than ballast water. This 
additional emphasis will encourage the development of 
management actions which may minimize the threats from new 
aquatic invasive species that have the potential to impact our 
fish and wildlife populations and associated habitats.
    The Department supports the development of a screening 
process for planned importations of live aquatic organisms. 
Having the opportunity to evaluate new non-native species that 
are proposed to be imported into the United States will be a 
valuable tool to ensure that we are proactive in preventing the 
introduction of new aquatic invasive species into U.S. waters.
    However, we are concerned about the provisions that 
delegate authority to screen species imported for use in 
aquaculture to the U.S. Department of Agriculture. Because of 
the risk to fish and wildlife, we believe that the Service 
should also have a role in this type of screening.
    We are also concerned that the deadlines are 
nondiscretionary and that we will not have adequate resources 
to develop and implement the screening process to accomplish 
these tasks within the stated deadlines. We have a few 
technical corrections and would like to work with you to 
address these issues.
    Education and outreach continue to be critical elements to 
the success of invasive species prevention and control. Within 
the Department, the Fish and Wildlife Service has been actively 
working for many years on the 100th Meridian Initiative to stop 
the westward spread of zebra mussels and other aquatic invasive 
species. We support the proposed enhancement of these efforts 
through increased and targeted outreach and education efforts.
    In closing, Mr. Chairman, I want to thank you for providing 
the Department with an opportunity to comment on this important 
legislation. As I stated earlier, we would be happy to work 
with you and your staff to address issues related to deadlines 
and implementation. We believe that the comprehensive approach 
outlined in this legislation will result in a more balanced, 
holistic effort to address the problems caused by aquatic 
invasive species.
    Mr. Chairman, that concludes my statement. I would be happy 
to respond to any questions at the appropriate time.
    Senator Crapo. Thank you very much, Mr. Hogan. You did it 
in three-and-a-half minutes. That is good.
    Mr. Keeney?

 STATEMENT OF TIMOTHY R.E. KEENEY, DEPUTY ASSISTANT SECRETARY 
FOR OCEANS AND ATMOSPHERE, U.S. NATIONAL OCEAN AND ATMOSPHERIC 
                         ADMINISTRATION

    Mr. Keeney. Good morning, Chairman Crapo and distinguished 
members of the subcommittee. I am Tim Keeney, Deputy Assistant 
Secretary of Commerce for Oceans and Atmosphere and the 
National Oceanic and Atmospheric Administration, and co-chair 
of the Aquatic Nuisance Species Task Force. I certainly 
appreciate the opportunity to present NOAA's views on S. 525.
    Senator Levin's bill, Mr. Chairman, addresses some gaps in 
our existing programs. NOAA strongly supports existing program 
and reauthorization of the program. Nevertheless, we have 
significant concerns with some provisions of the pending 
legislation and I am happy to have my staff work with the 
committee staff to address these concerns.
    NOAA believes that some of the elements dealing with 
ballast water need to be revised. Ultimately, there needs to be 
a ballast water discharge standard based on sound science that 
is biologically meaningful and enforceable. We do not believe 
that the 95 percent kill or removal rate meets these criteria. 
NOAA fully supports the provision which would allow approval of 
experimental technologies for ballast water treatment, but 
wonders if the intent of Congress was really for such authority 
to expire after 18 months. NOAA believes that a provision for 
on-board testing of promising technologies should remain in 
place until final standards become effective.
    We do not believe that having a rapid response contingency 
plan as one of the components of State management plans should 
be a prerequisite for receiving matching funds for rapid 
response to serious invaders. If an invader presents a serious 
enough threat to warrant a rapid response action, the response 
should be made whether a State has developed a contingency plan 
or not. Similarly, while any activities to improve early 
detection should be encouraged, NOAA does not believe that an 
early detection strategy should be a prerequisite for a rapid 
response plan.
    Recently, considerable attention has been given to the 
economic difficulties facing State governments. The monitoring 
necessary for an effective early detection strategy can be 
quite costly. Such a provision actually may discourage States 
from developing rapid response plans. The result could be a 
situation of being unable to respond to a serious invasion 
because a State does not have a monitoring program set up. NOAA 
is providing funding during the current fiscal year to help 
regional panels develop contingency plans for rapid response. 
NOAA suggests that the Task Force, which includes the Coast 
Guard, is the appropriate entity for approval of such plans.
    It is important that management agencies are included in 
this process, which would be accomplished by giving the Task 
Force responsibility for formal approval. NOAA supports the 
increasing emphasis on research in the bill, as virtually every 
activity from prevention to control to restoration needs, to 
have a scientific underpinning.
    Despite significant advances, there are still areas in 
which our knowledge is seriously deficient. I would like to 
discuss two areas as an illustration of our current 
limitations. First, there is inadequate monitoring in aquatic 
systems. In many instances, we do not even have baselines so 
that we know when a serious new invader has been introduced. 
Both the Task Force and NOAA have taken first steps to correct 
the deficiencies in monitoring. We are pleased that the bill 
would take further steps by requiring the development of 
protocols in setting up a monitoring standard.
    Second, our scientific knowledge of control methods in 
aquatic environments is still in its infancy and control in 
aquatic ecosystems presents unique problems. It is much more 
difficult to localize biocide applications in the aquatic 
environment because water transports chemicals so readily. We 
have just begun to look at bio-control agents and some 
promising early results with a pathogen that could be used for 
zebra mussel control and may be species-specific.
    Thank you for allowing me the opportunity to testify on 
behalf of NOAA and the Department of Commerce. That concludes 
my testimony and I would be happy to answer any questions you 
may have.
    Senator Crapo. Thank you very much, Mr. Keeney.
    Mr. Mehan?

STATEMENT OF G. TRACY MEHAN, ASSISTANT ADMINISTRATOR FOR WATER, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Mehan. Good morning, Mr. Chairman, members of the 
committee. I am Tracy Mehan, Assistant Administrator for Water 
at EPA. I appreciate the opportunity to comment on S. 525.
    This is a great day, as somebody who has been laboring as a 
State official on this issue for a decade or so. It is really 
wonderful to have this hearing and put the spotlight on an 
issue which most biologists and ecologists would say is second 
only to habitat loss. I would go so far as to say that at least 
in the Great Lakes ecosystem, one I am very familiar with, that 
it is probably the paramount threat to the integrity of the 
ecosystem.
    I will make some brief remarks, pretty much echoing a lot 
of the technical comments of my colleagues today. I would ask 
that my full written statement be entered into the record.
    Senator Crapo. Without objection. The testimony of all 
witnesses today will be put into the record.
    Mr. Mehan. Section 101(a) of the Clean Water Act states 
that the objective of this chapter is to restore and maintain 
the chemical, physical and biological integrity of the Nation's 
waters. The fact is, 31 years after the passage of the Clean 
Water Act, most of our focus, at least at EPA, has been on the 
chemical impacts on the aquatic ecosystems. That is still 
important and will continue to be, but we are clearly now in 
the 21st century at a point where biology has to come forward, 
and certainly as a priority as it relates to aquatic nuisance 
species.
    Again, as Senator Voinovich noted, in the Great Lakes 
ecosystem we have somewhere between 135 and probably close to 
160 exotics that were not in the system last century, primarily 
due to ballast water discharges. It is not uncommon in that 
region to hear academic scholars use the phrase ``invasional 
meltdown'' to describe what has been going on there with all 
the introductions.
    EPA has been working in a number of areas to try and 
address invasive species, from research and monitoring to 
assisting in the development of the ballast water standards. 
These kinds of regulatory actions are things we obviously have 
a lot of experience in, whether it is on benefit-cost analysis 
or just the intricacies of the Administrative Procedures Act. 
We appreciate that the bill recognizes EPA's role in addressing 
invasive species. We recognize the hard work that has gone into 
the bill, commend the authors, and look forward to working on a 
technical level to deal with some of the concerns we have that 
are identical to those that my colleagues have outlined today.
    Again, we share the concerns about the 95 percent interim 
standard. I personally have spoken to the Chairman of the 
International Joint Commission, who of course is interested in 
the Great Lakes as he works to implement the Boundary Waters 
Treaty of 1909. He shares our concerns that we are really going 
to need something much more geared to the science that is going 
to actually deal with specific organisms. The broad-brush 
approach to a standard is not going to really solve the 
problem. Again, we are more than willing to put our technical 
expertise into the mix of other expertise here today to try and 
work through these issues.
    We also echo the concerns regarding the sheer number of 
activities required by the bill over the next 3 years. While it 
is not quite the Clean Air Act Amendments of 1990, they are 
pretty daunting, at least from the perspective of our program 
which has experienced a 32 percent reduction in funding for 
core programs over the last 5 years.
    The bill provides for sediment management in trans-oceanic 
vessels, which is very important as it relates to the NOBOB 
issue, which was brought up by Mr. Hill. Again, we think this 
is necessary, but it is not sufficient to deal with NOBOB. Just 
so I can emphasize that point again with respect to the great 
closed system of the Great Lakes, I have heard figures as high 
as 85 percent from various Coast Guard spokespersons as to the 
number of vessels coming into the Great Lakes that are not 
carrying ballast water.
    They are essentially NOBOB, which means there is this layer 
of sediment in which aquatic nuisance species are in-dwelling 
and as water is taken on within the Great Lakes and then it is 
re-discharged, we have got an introduction. The rate of 
introduction today into the Great Lakes is the same as it was 
before the Ballast Water Exchange Program was put in place. So 
clearly NOBOB is a serious question as it relates to the Great 
Lakes, and for that matter, all ecosystems which are exposed to 
these discharges. So again, we look forward to working on that 
crucial issue.
    Last, we are concerned that the research required in the 
bill is too prescriptive, and we would love to bring in our 
colleagues at EPA from the Office of Research and Development 
to work on that.
    I am going to conclude with just a quote from a towering 
figure in Great Lakes policy and Michigan conservation, Dr. 
William Cooper, a former member of EPA's Science Advisory 
Board, Professor Emeritus of Zoology at Michigan State 
University, who made this provocative statement not too long 
ago: ``If one wished to allocate scarce monetary and human 
resources so as to maximize the reduction in ecological risk 
per unit resource expended, one would do more good by 
regulating and/or limiting the introductions of exotics than by 
obtaining marginal reductions in trace levels of existing 
toxicants.''
    I do not offer that statement to prove the truth of the 
matter asserted, but I think he does present a challenging 
statement as to how biology is coming up on the agenda of 
issues pertaining to protecting our ecosystems.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much, Mr. Mehan.
    I commend the entire panel, all of you, for keeping your 
testimony within the limits and saving us a few minutes along 
the way.
    Mr. Mehan, I would like to begin my questioning with you. 
You indicated something that I had not thought of in that 
context, and I am not going to quote you directly here, I would 
like you to flesh out your thought. You indicated that you 
thought this issue of invasive species was second only to 
habitat loss as a threat to our ecosystems in the country. 
Could you explain that?
    Mr. Mehan. Again, I consider myself a layperson in terms of 
the science of this, having degrees in law and history. But 
every scientist, every ecologist, every biologist that I have 
talked to for at least the last decade or more continually 
comes back to the destabilizing impact that these 
introductions, these exotics, if you will, aquatic nuisance 
species, terrestrial species, have, whether it is destroying 
native populations, out-competing native populations, 
disrupting natural flow regimes in a more arid climate if you 
are talking terrestrial species.
    There is just no good that comes of these things. And these 
ecosystems have evolved over millennium, if not millions of 
years, and the whole system becomes disrupted at a foundational 
level. Therefore, a lot of things stem from this. Senator 
Voinovich talked about the possible tie-in to zebra mussels in 
the hypoxia areas in Lake Erie. In Grand Traverse Bay in 
Michigan, we are creating a biological desert there because of 
this substratum of zebra mussels.
    We would not have a Great Lakes fishery today without the 
millions if not billions of dollars that have been spent by the 
U.S. and Canada just controlling sea lampreys, which did not 
come in through ballast water, but through the Welland Canal. 
Again, without that foundation program, a huge investment 
annually run through the State Department's budget and the 
Canadian counterpart budget, we just would not have any fishery 
system at all.
    So whether it is the zebra mussel or the sea lamprey, what 
we are seeing now, say, with the melaleuca in the Everglades, 
the tamarisk in Colorado; one threat after another is just 
presenting colossal challenges to the integrity of our 
ecosystems.
    Senator Crapo. Thank you.
    Do the other members of the panel agree with that 
perspective?
    Ms. Williams. Yes, I would agree with that. I just wanted 
to add one variation on it, that invasive species have been 
documented as the second-leading cause of species being listed 
as endangered or threatened under the Endangered Species Act, 
after habitat loss. So that would support what he is saying. 
Also, when we talked about tamarisk, the water regime, it takes 
a lot of water out of the system. That also changes the whole 
ecology of the area. So there are quite a few examples of these 
species having broad impact across the ecosystems.
    Senator Crapo. I think that perspective is a very important 
perspective and one that we need to make certain is understood 
by the public as we address this issue. It is one that I do not 
think is being focused on that closely in the United States 
right now, at least in terms of the public perception of the 
kinds of issues that we are dealing with in terms of our 
ecosystems, our environment, and the protection of species.
    An issue that I suspect will be raised by at least some of 
the next panel is how do we determine what is a good or a bad 
invasive species? I mean, there are some species that are being 
introduced on purpose in certain circumstances, or in the past 
have been. In fact, a question has been raised in some of the 
papers that I have read about the rainbow trout, which we love 
to fish for out in the West where I come from. In certain 
places, that could be considered an introduced or an invasive 
species.
    How do we approach this question of defining what it is 
that we are seeking to eradicate or to prevent?
    Ms. Williams?
    Ms. Williams. I will tackle that in terms of the definition 
in the Executive Order. One of the things I always talk about 
is you need to give your definition of ``invasive species'' 
when you start talking about it, because there is a variation 
in how people talk about invasive species. The way that the 
Federal Government defines ``invasive species'' in the 
Executive Order is to say the species has to be both alien to 
the ecosystem or region under consideration, and harmful to the 
economy, the environment, or to animal or human health.
    There is some subjectivity in that definition. Invasive 
species are not necessarily regulated just because they are 
called or determined to be harmful and invasive species. They 
also have to be regulated under specific statutes in the 
Federal Government. So there is no master list of invasive 
species that we have compiled, nor do I think that would be 
wise or appropriate because it does change and it does vary. An 
invasive species in Florida may not be invasive in another 
region of the country or Alaska or whatever. So you do have to 
look at the particular area involved to determine if it is a 
problem.
    Senator Crapo. Thank you.
    My time has expired, so if you had a comment that you 
wanted to make on this, hold it, because we are going to come 
back and do another round here and I will come back to this.
    Senator Allard, would you like to go ahead?
    Senator Allard. Thank you, Mr. Chairman.
    It seems like the general concern for many members on this 
panel at least is the requirement in the bill that there are 31 
separate actions, each with deadlines that must be completed by 
members of the Aquatic Nuisance Species Task Force within 18 
months of passage. Do you feel like you could prioritize these 
actions for the committee, and determine which ones are the 
best and which ones are least important in your mind? And if 
you could share those now, or if you can't, perhaps make those 
available to the committee?
    Mr. Keeney. Certainly. We at Commerce would be more than 
willing to work with your committee and committee staff to 
provide that priority.
    Senator Allard. Yes, but I am not asking that you work with 
us. I want to know what your priorities are for the members of 
this panel. So I don't think our committee staff should be a 
part of that. They are not part of the Council. What I want to 
know is what your priorities are, and the Council needs to come 
up and provide those priorities to this committee.
    Mr. Keeney. I will provide that for the record.
    Senator Allard. Yes.
    Mr. Hogan. Senator, we would be glad to do the same thing. 
Just a couple of comments, I think those activities associated 
with screening and prevention would be right at the top of the 
list, and then certainly early detection and rapid response. 
But we would be happy to provide a more detailed list to the 
committee and to you.
    Senator Allard. What we struggle with in this committee is 
then what, and again, your comments tend to be kind of general. 
We need to have some specifics on GPRA, you know, the 
Government Procedures and Results Act where we get measurable 
ways to quantify things so that we can measure them so we can 
measure results. I am of the view, and I think maybe other 
members of this committee, we do not necessarily want to get 
into the day-to-day operations, but we want to see results.
    If you can reduce the mussel population in the Great Lakes 
by 10 percent in 5 years, that is a measurable quantity, maybe, 
if you can figure out how to measure the number of mussels in 
the lake. Those kind of things are helpful. I know what the 
bill sponsor is trying to do. He is trying to fix up some 
measurable goals there, and if you think these are too tight, 
maybe some of them need to be dropped, and if we know where the 
priorities are and where they are not, then that helps us 
determine where to focus your attention to get the best 
results.
    Ms. Williams. Senator, the Council would be willing to help 
coordinate the priorities of the different agencies and work 
with everyone here and provide to the committee.
    Senator Allard. Let me bring up another concern if I have 
time here. Some people are concerned about an apparent 
multiplicity of reporting requirements. These people allege 
that each report will require a significant commitment of 
resources that could actually inhibit implementation of 
activities. NOAA recommends that there be a single reporting 
requirement and the committee identified elements to be 
included in the report. I am wondering if I can have a comment 
from each of you. I don't know if we need a comment from Mr. 
Keeney, but from the rest of you on the panel here. Do you have 
any thoughts on this suggestion?
    Mr. Hogan. Senator, I will take the first crack at that. I 
think that makes eminent sense and we would be glad to fall in 
line with that if other folks were agreeable as well.
    Ms. Williams. I would agree.
    Senator Allard. Everybody? All right.
    Third question, this legislation requires that each State 
have a rapid response contingency plan. If the Federal 
Government requires such a plan, how can we ensure that all 
ships that discharge ballast waters are aware of each State's 
plan?
    Mr. Keeney. Senator, I might say first of all that each 
State is working on a management plan, and NOAA is working 
closely with them to assist them in putting those plans 
together. We also have regional panels. I think we have a total 
of five of them, all of which have State leadership that run 
those panels. The States have embraced a Federal coordinating 
role to assist them to come up with adequate and appropriate 
response plans.
    Senator Allard. So how do you inform these ships that are 
coming in? As a veterinarian, we write health certificates. We 
get a booklet with all the States' requirements on health 
certificates and whatnot. So are you planning on making these 
available to the shipping companies so that they know what 
these requirements are? How do you make that available? They 
are foreign as well as native?
    Mr. Mehan. If I might just take a shot at that. Obviously, 
the details of that need to be worked out collaboratively, but 
I think certainly again, speaking about an ecosystem I have 
some familiarity with, every ship that comes into the Great 
Lakes comes through Messina, New York and the Coast Guard jumps 
on that ship and checks out its salinity levels and does all 
sorts of things. So at least for that region, that eight-State 
region, I think it is pretty clear you can control it. I think 
posting things on a Web site, providing things in a manual. I 
think with the information technologies available, that is 
doable.
    The question will be more what is the content of the rapid 
response plans and what is their role. A lot of this will get 
down to site-specific areas, what ports are you talking about, 
and where and under what circumstances do the protocols allow a 
discharge or not.
    So I think it is a solvable problem, but it will take some 
puzzling out of the details to make it efficient and not a 
burdensome requirement.
    Senator Allard. Yes?
    Mr. Angelo. If I might just add one comment here, Senator. 
You focused on the States' response plans. Where we see the 
bigger emphasis with the international shipping community would 
be through the prevention side. We believe that by making sure 
that the shipping that comes to the United States is complying 
from a prevention standpoint, that would significantly diminish 
the need for anything in the response area. Once it is in the 
water, there is little the ship can do itself. It then turns 
into a response between the Federal Government and the States. 
But if we focus on the prevention side, we think we can have a 
bigger bang for our buck there.
    Mr. Keeney. Just to follow up what was just stated by the 
Coast Guard, NOAA opposed the rapid response plans for ships in 
our testimony.
    Senator Crapo. Thank you very much.
    Senator Murkowski?
    Senator Murkowski. Thank you.
    I would like to go back to the discussion we were having 
about the definition of ``invasive species.'' I think it was 
you, Ms. Williams, that mentioned that as part of the 
definition you looked to whether or not the species was alien 
to the region, and I think you said harmful to the economy or 
the environment. We have been focusing on a lot of those 
species that are coming in through ballast waters, but as I 
mentioned in my statement, one of the concerns that we have in 
Alaska right now is the farm salmon that are coming out of 
British Columbia or coming out of the State of Washington, and 
are essentially being found as far north as the Bering Sea.
    We view this as increased competition, then, with our wild 
salmon for prey, for habitat, for predation. We view this as a 
significant threat to our wild stocks. Certainly our fishermen 
are feeling the economic pinch, if you will, as a consequence 
of these farmed fish.
    Is it your opinion that if we are talking about a plan of 
attack for invasive species, that farmed salmon versus the wild 
stocks, that that would be part of your plan?
    Ms. Williams. You would certainly want to address that one 
of the possible pathways for invasive species is farmed fish or 
aquaculture. It does have to be looked at in terms of not only 
the economic value of that industry. Aquaculture also is a very 
important industry, but what affects if these fish are escaping 
is it having on other regions?
    One of the things we have looked at, actually GAO made this 
recommendation as well, is getting better economic impact data. 
Besides one very large study from Cornell, which everyone 
quotes, there is not a lot of good data on what the impact of 
some of these species are on the economy broadly, especially in 
certain regions. So we are looking to enhance that throughout 
the Council, getting better economic impact data.
    Senator Murkowski. Mr. Keeney or Mr. Hogan, do you have any 
additional comments?
    Mr. Keeney. Senator Murkowski, NOAA's Northwest Fisheries 
Science Center and our Fisheries Science Lab in Manchester, 
Washington have been analyzing the impacts with regards to 
aquaculture and bringing foreign salmon into an ecosystem, and 
also the potential of introducing diseases along with those 
salmon. With NOAA moneys, the Pacific States Marine Fisheries 
Commission is sponsoring a workshop this fall of 2003 to bring 
together commercial fishermen and those in the aquaculture 
industry together to assess the extent of problems and 
potential solutions for those problems.
    Senator Murkowski. Thank you.
    Mr. Hogan?
    Mr. Hogan. Senator, I guess I would just add that I agree 
with what Lori Williams said, that definitely there is a need 
to get more economic data and find out exactly what impact 
these species are having. I think you raise an excellent point, 
and it relates to your point, Senator Crapo. Some of these 
species were introduced with the best of intentions, in some 
cases mistakenly and in some cases on purpose, and it is not 
until later that we have found that they have a detrimental 
impact. One of the provisions in the bill actually moves us 
toward a more proactive approach where we would do some initial 
screening before the species was imported, rather than having 
to deal with it once it has already been introduced and 
established, and oftentimes when it is too late to completely 
control or eradicate it.
    Senator Murkowski. Thank you. I appreciate your responses. 
Thank you.
    Senator Crapo. Thank you.
    Senator Jeffords, do you have any questions?
    Senator Jeffords. Mr. Hogan, you say in your testimony that 
the nature of the Lacey Act makes your actions more reactive 
than proactive. While the screening process proposed in S. 525 
is proactive, would you give us some suggestions and other 
ideas that we might want to apply to the Lacey Act to make it 
more proactive?
    Mr. Hogan. Senator, when you talk about opening the Lacey 
Act, it comes with a potential host of problems. We would 
rather suggest to you for your consideration some additional 
legislative remedies outside of the Lacey Act that could be 
used to make our screening more proactive, while not 
necessarily approaching it through the Lacey Act. I would be 
happy to provide those details to you for the record following 
this meeting, with some specific ideas.
    Senator Jeffords. S. 525 shifts the Federal agencies' focus 
from reacting to new invasions to a more preventive strategy 
where our policy will be to stop invasions before they happen. 
Could the witnesses comment generally on that strategy? Is it 
wise to focus our resources on more preventive efforts?
    Mr. Mehan. Senator, I would be happy to take a shot at 
that.
    Senator Jeffords. Go ahead, Mr. Mehan.
    Mr. Mehan. Let's take the zebra mussel as a case in point. 
Millions of dollars have been spent by researchers examining 
its impacts, but the fact is we really do not have any way to 
deal with it. We are coping with it. I wanted to engage with 
Senator Allard a bit, we are not going to reduce that biomass. 
It is here to stay and the system is adapting and coping with 
it. So it seems to me, again using the Great Lakes as an 
example, there are predictions of 16 or 17 more introductions 
coming from places like the Caspian Sea by way of ballast 
water. I think our energies are much more prudently directed 
toward preventing new introductions.
    Coping is always something we have to do, but it is exactly 
that, coping. Whether we really can put the genie back in the 
bottle, I think is doubtful in many cases. Maybe on a smaller 
watershed basis you might be able to control terrestrial 
species or maybe use biocides to beat back something to allow 
native species to come back, but in terms of a large system 
like the Great Lakes, prevention is the only way to go.
    Mr. Angelo. From the Coast Guard's perspective, we fully 
support the emphasis on prevention. We think that is the proper 
action to be taking and that is the program that we are trying 
to put in place right now.
    Ms. Williams. Under the plan, we talk about prevention as 
the first line of defense. Obviously, some things get through, 
and having some capability for early detection and rapid 
response is really a responsible way to go. Also, prevention is 
the largest responsibility for the Federal Government. Often 
when these species become established, it does tend to fall to 
the States and these tremendous control costs tend to fall to 
the States to deal with these species. So it really makes the 
Federal responsibility under prevention all that more 
important. But I would not want to ignore early detection rapid 
response where it is possible. In the aquatic area, it is very, 
very difficult.
    Mr. Keeney. I would just like to say in response again to 
the principle that was originally asked about the importance of 
these invasive species, the fact of the matter is that once 
non-indigenous species are established in an ecosystem, that 
ecosystem changes forever. You can never get back to where you 
were before the species was introduced. That is an important 
concept, because if you are talking about investing dollars, 
the best return on the investment is from prevention to begin 
with. Early detection rapid response and other control 
mechanisms are important parts of the equation, but prevention 
is where you get your most bang for the buck.
    Senator Jeffords. Mr. Angelo, the International Maritime 
Organization, IMO, is currently debating many of the same 
issues that are before us here in S. 525. Can you please 
describe the United States' position on ballast water standards 
during these negotiations? Are we pursuing a strategy that will 
lead to a strong domestic program?
    Mr. Angelo. Senator, I would say that the United States is 
taking the leadership role in the International Maritime 
Organization in developing a worldwide international treaty on 
ballast water management. From our perspective, there are four 
key elements to this treaty. We believe that the treaty must 
have a ballast water treatment standard. We believe that there 
must be mandatory ballast water exchange. And to bridge the 
two, we believe the treaty must also have provisions for 
allowing experimental technologies to develop so we can 
progress from ballast water exchange to a very rigorous 
treatment.
    The fourth element, Senator, is perhaps the most important 
from the United States' perspective. That is that we believe 
the treaty should also have the provision that allows any 
country, including the United States, to take any additional 
measures it needs to take above and beyond the treaty to 
protect its waters. As of right now, the latest draft of this 
instrument contains provisions, all four of those provisions 
that I have just mentioned.
    It will be our approach as we go through the negotiations, 
which will be at the upcoming Marine Environmental Protection 
Committee meeting in July, to make sure that those provisions 
are retained in the convention. And then when we go forward 
hopefully to an international conference sometime early next 
year, to make sure that they are retained in the outcome of the 
conference. If they are not, then we would have serious 
reservations about whether we want to have the United States 
even become party to that instrument, sir.
    Senator Jeffords. Thank you. I hope you will keep us 
apprised as you go along to make sure that we are aware of any 
problems that you can alert us to.
    Mr. Angelo. Yes, we will, sir.
    Senator Crapo. Thank you very much, Senator.
    Before we go to the next panel, I just wanted to come back 
and see if anybody had any further comments on the line of 
questioning I was pursuing, which was this notion of how do we 
define what is an invasive species and what is not in the 
context of the nature of this threat to our ecosystem. Anybody 
want to elaborate on that, or shall we go on?
    Mr. Keeney?
    Mr. Keeney. Thank you. Some of the points have already been 
made with regards to the need for initial screening. I think 
that research is another important element here with regards to 
the potential impact of the species. The alewife, for instance, 
is a species introduced into the Great Lakes, which actually 
seems to have a positive effect because, again, the ecosystem 
has changed. The alewife has now become a valuable part of the 
ecosystem.
    But I think we also need to focus on the prevention 
element; the fact that we need to look at vectors that are 
bringing these species in. That is about it.
    Senator Crapo. Thank you.
    Mr. Mehan?
    Mr. Mehan. It is interesting talking about the alewife. 
Then the salmon were brought in to control the alewife. So the 
problem is that we are doomed to play God; that the systems 
have been so altered in many cases that we even when we don't 
want to allow these introductions, we have to deal with them. 
For instance, I know in the upper Midwest, they are looking at 
an exotic beetle to control purple loosestrife, so there are 
some bio-control efforts.
    So the question comes down to, is it an intended or 
unintended introduction? A lot of these problems, as we have 
noted earlier, are due to unintended introductions. So I think 
you start with some presumptions, and the presumption is 
against introducing an exotic or non-native species. But based 
on where the science is and how it progresses, we are looking 
at a non-native oyster in Chesapeake Bay and waiting for an NAS 
report on that. We may make prudential judgments that an 
introduction is worth the risk. But again, I think you have to 
start with a presumption that it is a very dicey proposition 
whenever you are introducing or allowing to be introduced a 
non-native species.
    Senator Crapo. Thank you.
    As I wrap up, I just had one other question to ask, and it 
kind of springs from the point made by Ms. Williams. I want to 
be sure I understood you correctly. Did you say that the 
second-leading cause of threatening species and leading to 
endangered species is invasive species?
    Ms. Williams. Under the Endangered Species Act, what they 
found is the second-leading threat; they list species and then 
they say these are the threats to these species. To endangered 
species, after habitat loss, causing them to be listed as 
endangered or threatened, are invasive species. So they are 
getting preyed on or crowded out or they are having some effect 
that is leading them to be leading them to be listed as 
endangered or threatened.
    Senator Crapo. OK. I think that is a very remarkable piece 
of information. It tells us a lot about what we are dealing 
with here.
    The last question I had is, and this is just for 
clarification in terms of the relationship between the invasive 
species statutes and the Endangered Species Act, is I am 
assuming that a non-indigenous invasive species cannot become 
threatened or endangered under the Endangered Species Act. Am I 
correct?
    Ms. Williams. I know of no case. I think they kind of are 
opposite ends of the spectrum. What you have is an invasive 
species is partly invasive because its populations are either 
exploding or way beyond what would be normally expected. So 
that would be counter to the fact that that would usually cause 
an endangered species to be listed, but I will let the Fish and 
Wildlife Service respond.
    Mr. Hogan. That is correct, Senator. It does not have to be 
a native species in order to be listed.
    Senator Crapo. How far back do we go to define ``native''?
    [Laughter.]
    Mr. Hogan. Now you are getting into a little bit more 
difficult area. That is a good question and I don't know that I 
am really equipped to answer it right now, but I would be glad 
to provide that.
    [The information referred to follows:]

    Question. Would the Fish and Wildlife Service ever list a 
non-indigenous invasive species under the Endangered Species 
Act (ESA)?
    Response. Although the ESA provides for the protection of 
any species, both foreign and domestic, except for insect pests 
that pose a significant threat to humans, it is unlikely that 
the Service would ever list a non-indigenous invasive species. 
Invasive species by their very nature are not likely to become 
threatened or endangered, and therefore to require protection 
under the ESA. Invasive species generally are successful 
competitors for resources and adaptable to a variety of 
habitats, including those that have been significantly modified 
by humans for agriculture or other purposes. Typically, species 
that qualify for listing under the ESA have restricted habitat 
requirements, are intolerant of human presence and activities, 
or may be out-competed by other species, although other factors 
may contribute to a listing

    Senator Crapo. Any help you can give on that would be 
appreciated. I think that it is an intuitive answer, but I 
would like to be sure that it is correct.
    I would like to thank this panel for your participation and 
the information you have provided. You are excused and we will 
move on to our fourth panel. We invite our fourth panel to come 
forward.
    Our fourth panel is composed of Mr. Jim Beers, the Science 
Advisor to the American Land Rights Association; Mr. Sebastian 
Hargrove, the Government Relations Associate from the Nature 
Conservancy of Idaho; Mr. Michael Hauser, the Aquatic Nuisance 
Species Specialist from the Vermont Department of Environmental 
Conservation; and Mr. James Weakley, the President of Lake 
Carriers' Association.
    Gentlemen, as you are taking your seats, I would like to 
remind you also to try to pay attention to that clock and the 
5-minute rule so we will have time for some interaction. I 
appreciate your appearance today to present your testimony on 
this issue.
    Mr. Beers, as soon as you are ready, we will start with 
you.

  STATEMENT OF JIM BEERS, SCIENCE ADVISOR, THE AMERICAN LAND 
                       RIGHTS ASSOCIATION

    Mr. Beers. Thank you, Mr. Chairman, for inviting me to 
testify at your hearing today. I represent the American Land 
Rights Association, an organization of small property owners in 
all 50 States. I worked for the U.S. Fish and Wildlife Service 
for 30 years in four States and Washington, DC. I was a 
wildlife biologist, special agent, and refuge manager.
    I have enforced injurious wildlife regulations, 
investigated endangered species cases both here and in Europe. 
I worked on invasive species control programs for nutria and 
purple loosestrife, attended U.N. wildlife conferences, and 
represented State wildlife agencies fighting a threatened 
European fur embargo. I currently write and speak extensively 
about both endangered and invasive species.
    The National Aquatic Invasive Species Act of 2003 is based 
on erroneous assumptions. Briefly, it is wrong to characterize 
all recently arrived plants and animals as having only 
exaggerated bad effects and reducing biodiversity. This striped 
bass right here is an invasive species in numerous lakes, 
rivers and reservoirs across the Nation, as well as in West 
Coast estuaries. This rainbow trout is another invasive species 
in lakes, rivers and reservoirs throughout the United States.
    Fishing license money, State fishery management staffs, 
charter boat revenues, and boating equipment sales, fishing 
tackle sales, tourist revenues, annual sport fish restoration 
dollars in the millions, taxidermy business, as well as 
millions of hours of family recreation and many fine meals will 
all be reduced under this legislation.
    These fish are typical of many desirable invasive plants 
and animals that increase biodiversity while benefiting us all. 
It is wrong to infer a Federal concern for plants and animals 
outside the historic range of the species of which the organism 
is a member. This applies directly to these two fish that have 
been widely and purposely introduced for the many direct and 
indirect benefits to citizens and aquatic habitats that they 
create.
    What does historic range mean? When Asians arrived 10,000 
years ago, when Columbus arrived, when the Constitution was 
signed? Camels, horses and elephants once thrived here. Are 
they native or invasive species? It is wrong to define Federal 
aquatic authority as including estuarine and inland waters and 
wetlands. These waters are nearly all under State jurisdiction. 
Given the current court case involving a decade-long dumping of 
toxic sludge by the United States Army Corps of Engineers 
through a national park under an EPA permit reviewed by the 
National Marine Fisheries Service and the U.S. Fish and 
Wildlife Service on a spawning grounds of endangered shortnose 
sturgeon in the Potomac River as it passes Washington, DC, it 
does not appear prudent to expand Federal authority in this 
manner.
    It is wrong to infer Federal jurisdiction over invasive 
species and non-indigenous species that may cause harm, so 
broadly defined as to permit any biological competition or 
increase in biodiversity to be declared harmful. These two 
fish, for instance, eat other fish and compete with yet others 
for space and good.
    It is wrong to claim authority over any fundamental 
category of taxonomic classification below a genus or subgenus. 
This enshrines the unwritten Endangered Species Act principle 
that authorizes all manner of Federal intervention to the 
smallest flock, school or stand of any species. This has caused 
increasing friction with property owners and many others as the 
level of Federal concern descended below that of species to 
races, varieties, distinct populations and even beyond.
    Using the need for the Federal Government to regulate 
ballast water, a penumbra of Federal authorities and tasks are 
being created to mimic the Endangered Species Act. That Act has 
caused havoc with much more than property rights, and has gone 
unauthorized for 15 years while its reach and annual 
appropriations continue to grow. The authority to manage, 
control and eradicate plants and animals is one of those powers 
reserved to the States in the 10th Amendment.
    The Federal Government is responsible for the management of 
the import, export, interstate and foreign aspects of these 
matters. It is proper that the Federal Government ensures clean 
ballast water discharges, manages imports and exports, and 
cooperates with State governments in the management, control, 
and eradication of harmful plants and animals regardless of 
their origins or arrival dates.
    The American Land Rights Association joins with all 
citizens concerned about the loss of not only land property 
rights, but also the rights of fish owners, aquarium hobbyists, 
florists, gardeners, landscapers, boaters, horseback riders, 
pet owners, hikers, trappers, duck hunters, fishermen and 
scores of others whose property rights, outdoor activities, 
property rights held in trust by State governments, and public 
land access are directly threatened by this proposed expansion 
of Federal authority and diminishment of State authority over 
aquatic habitats.
    The task being proposed, encouragement of native species, 
is not desirable, not beneficial, not achievable, not 
measurable, never-ending, and a public expense beyond 
comprehension.
    Please consider a revised bill that controls ballast water 
discharge, controls harmful aquatic plants and animals on the 
Federal estate, and cooperates with the States to fulfill the 
fish, wildlife and plant responsibilities assigned them in the 
Constitution. Otherwise, S. 525 will, like the Endangered 
Species Act, radically modify our basic freedoms, while 
enriching only Federal bureaucracies, universities, and the 
agendas of environmental and animal rights organizations.
    One last observation. The bill's proposed whitelist 
approach in Section 1105 for controlling imports is fraught 
with pitfalls. It is causing problems in Australia and had it 
been in effect here 200 years ago, we would not now have brown 
trout, tulips, Holsteins, or even house cats here today. 
Definitions like ``organism'' and ``trade'' in Section 1003, 
which does not even mention ``aquatic,'' appear designed to 
stop all trade in plants and animals. Including, quote, 
``aesthetic degradations'' in Section 1003 has an undesirable 
impact and likewise seems designed to maximize serious 
mischief.
    The authority given an agency director in Section 
1105(d)(2) exceeds authorities formerly reserved only for 
secretaries. Assigning penalties of a class C felony, 10 to 25 
years, as in Section 1105, especially for violating, quote, 
``regulation'' in Section 1101 that have not even been drafted, 
suggests agendas one could only speculate about.
    Five minutes is not enough time for me to explain this, but 
I would offer to point out there is a better approach that does 
not impair the trade and freedoms we cherish, while minimizing 
future harmful U.N. controls which are likely with invasive 
species, as they have been with endangered species under CITES.
    Thank you. I am ready to answer any questions.
    Senator Crapo. Thank you very much, Mr. Beers.
    Mr. Hargrove? We welcome you here from Idaho.

     STATEMENT OF SEBASTIAN HARGROVE, GOVERNMENT RELATIONS 
           ASSOCIATE, THE NATURE CONSERVANCY OF IDAHO

    Mr. Hargrove. Thank you, Chairman Crapo and Senator 
Jeffords, for the opportunity to be here today and speak in 
support of S. 525. I am appearing here today on behalf of the 
Nature Conservancy and as a concerned citizen of Idaho.
    I will cover two major points in my comments today. First, 
aquatic invasive species are a major threat to the Nation's 
economy and environment, including the inland West; and second, 
S. 525 is an effective tool for addressing the threat.
    To illustrate the immediacy of the danger of non-native 
aquatic invasive species, I would like to recount what happened 
in Spokane, Washington 2 years ago yesterday, on June 16, 2001. 
On that mild June day, a trailered 40-foot sailboat en route 
from the Great Lakes to Seattle pulled into the Washington 
port-of-entry on Interstate 90 a few miles west of the Idaho 
border. State inspectors, alerted to the danger of aquatic 
invaders, examined the boat closely. What they found were live 
zebra mussels encrusted on the rudder flaps and the screens and 
the cooling system of that boat.
    We have heard many people talk about what a scourge zebra 
mussels are in the Great Lakes and Eastern watersheds. So far 
as we know, they have not arrived in the West yet. Officials 
quarantined and cleaned the boat before allowing it to enter 
Washington waters.
    I think this story really illustrates two key points. 
First, aquatic invaders are not only a problem for the coastal 
and Great Lakes States. The waters in the inland West are at 
risk from zebra mussels and a host of other aquatic invaders. 
Second, the modest investment that Washington State made in 
training its employees to prevent aquatic invaders paid big 
dividends in that one find that they had there. But 
Washington's prevention program is really the exception, rather 
than the rule. We can only assume that no inspectors in other 
States found these zebra mussels as that boat traveled west 
across the northern tier of the U.S. In fact, if the boat had 
put into Lake Coeur d'Alene or Payette Lake in Idaho, we could 
have zebra mussels established in the Upper Columbia River 
basin, with potentially devastating impacts to irrigation, 
hydropower and recreation.
    This story is not an isolated example of the risks these 
invaders pose. Idaho communities already spend $250,000 a year 
controlling Eurasian water milfoil in some of Idaho's most 
important recreational waters, as you alluded to earlier, 
Senator Crapo, including Payette and Hayden Lakes. This fast-
growing weed is really choking our shorelines and it is 
spreading fast.
    You might also be surprised to learn, although Senator 
Crapo also talked about this, that the first known infestation 
of New Zealand mudsnails occurred not at one of our major port 
cities, but in the Snake River, hundreds of miles from the 
coast, near Hagerman, Idaho. These invasive mollusks grow in 
dense colonies. They have now spread up the Snake River into 
the Madison in Yellowstone Park, with unknown consequences for 
our native fish populations.
    The danger is clear. We need to get prepared, and NAISA is 
an essential step in that direction. It will provide critical 
tools for States like Idaho and their partners in the battle to 
manage aquatic invasives. It is particularly noteworthy that S. 
525 adopts the most cost-effective approach by focusing on 
prevention, early detection and rapid response, areas where we 
all need to improve. The bill will cover all waters of the 
U.S., including inland lakes and streams. Critical elements 
from our perspective include grants for State management plans, 
prevention of introduction by vessels and other pathways, early 
detection and rapid response funding, and education and 
outreach. Those are some of the keys.
    Passage of NAISA will provide important financial and 
technical help to States such as Idaho that are just beginning 
to address aquatic invaders. Like many States, we have 
established an invasive species council that will address or 
deal with all the whole spectrum of invasive species, but we 
need more help. We need strengthened leadership. We need better 
coordination and we need more resources.
    This bill goes a long way to providing the tools that 
States need, but the Conservancy would be pleased to work with 
the committee to strengthen the provisions dealing with inland 
States even more.
    Thank you for the opportunity to comment. I have provided 
additional comments in my written testimony, and would be happy 
to take any questions.
    Senator Crapo. Thank you very much, Mr. Hargrove.
    Mr. Hauser?

     STATEMENT OF MICHAEL HAUSER, AQUATIC NUISANCE SPECIES 
  SPECIALIST, VERMONT DEPARTMENT OF ENVIRONMENTAL CONSERVATION

    Mr. Hauser. Thank you, Mr. Chairman and Senator Jeffords, 
for the opportunity to provide this testimony. I am here on 
behalf of the State of Vermont in support of this bill.
    I consider myself fortunate to live and work in Vermont, a 
small State, but with a tremendous reputation for its natural 
beauty, environmental integrity and recreational opportunities. 
Unfortunately, these qualities are threatened by a large and 
very real problem, the introduction and spread of aquatic 
invasive species. The zebra mussel, water chestnut, Eurasian 
water milfoil, shown here on my left, and purple loosestrife, 
among others, have significant negative economic and ecological 
impacts.
    More than $2 million of local, State and Federal funds are 
spent annually in Vermont to manage and prevent the spread of 
these species. More than one-quarter of this goes to the water 
chestnut management program on southern Lake Champlain. There 
is another photo here that you will see shortly that shows 
that. These totals do not include the costs associated with the 
degradation of the environment, reduction of lakeshore property 
values, or the protection of boats, water intake systems, or 
other infrastructure.
    There are currently four staff positions within the 
Department of Environment and Conservation dedicated to the 
management of aquatic invasive species. It is fair to say we 
cannot keep up. Aquatic invaders continue to displace native 
species, impede boating, fishing and swimming, and strain State 
and local budgets.
    Despite these problems, Vermont and the other Northeastern 
States are relatively fortunate to have had only a fraction of 
the non-native species introductions experienced in other parts 
of the country. We must seize this opportunity to prevent more 
invasive aquatic species from coming our way, and they are 
coming. The round goby, the Asian carp, Eurasian ruffe, quagga 
mussel, spiny water flea are all non-native species that have 
proven to be extremely invasive in other regions of this 
country, and are poised to enter water systems of the 
Northeast. It is imperative that we prevent this from 
happening, and the National Aquatic Invasive Species Act can 
help.
    As you well know, invasive species do not recognize 
political boundaries. We in Vermont cannot expect an invasive 
species to stop at our border, and experience tells us we 
cannot wait for it to cross the border before we take action. 
By then it is too late. We must work with other States 
throughout the region to build a unified defense.
    The National Invasive Species Act is helping us do this 
through its authorization and funding of the Northeast Aquatic 
Nuisance Species Panel. This panel, which includes 
representatives from all the New England States, New York and 
Canada, meets regularly to coordinate aquatic nuisance species 
spread prevention and management efforts throughout the region. 
S. 525 would ensure the continuation of the critical work of 
this panel, as well as that of the other panels representing 
regions throughout this country.
    Provisions of this bill that prevent new introductions of 
potentially invasive species to this country will have perhaps 
the greatest long-term benefit for Vermont. For example, 
although Vermont does not have significant issues directly 
related to ballast water dumping, it is vulnerable to non-
native species introduced to the Great Lakes via ballast water. 
Lake Champlain along Vermont's western border is directly 
connected to the Great Lakes by several canal systems. The 
zebra mussel used these routes to enter Lake Champlain from the 
Great Lakes in 1993.
    Other provisions of this bill would facilitate the transfer 
of knowledge gained from the dispersal barrier deployed on the 
Chicago River ship and sanitary canal to other canal systems 
throughout the country, including those mentioned before. We 
welcome this. Authorized and funded under the National Invasive 
Species Act, the Lake Champlain Basin Aquatic Nuisance Species 
Management Plan has enabled many significant accomplishments in 
the fight against aquatic invaders in the Lake Champlain basin 
of Vermont and New York, accomplishments too numerous to list 
at this time.
    While the continued development and approval of State and 
interstate management plans is a positive contribution to the 
nationwide effort to address invasive species, funding levels 
for such plans have not grown for the last several years. This 
has resulted in a smaller share for each State with an approved 
plan. To be effective, the funding for State and interstate 
plans must grow proportionate to the number of approved plans, 
not get sliced into smaller and smaller portions. This bill 
provides the funding authorization to enable this to happen, 
provided of course the actual appropriations are equivalent.
    In conclusion, I would like to say that the passage of S. 
525 will greatly assist Vermont and I believe the Nation as a 
whole in continuing to build on the substantial gains made 
under the Non-indigenous Aquatic Nuisance Species Prevention 
and Control Act of 1990 and that of the reauthorization of the 
National Invasive Species Act of 1996.
    Thank you again for the opportunity to speak with you this 
morning.
    Senator Crapo. Thank you, Mr. Hauser.
    Mr. Weakley?

     STATEMENT OF JAMES WEAKLEY, PRESIDENT, LAKE CARRIERS' 
                          ASSOCIATION

    Mr. Weakley. Thank you for the opportunity to testify on 
this legislation so crucial to both the maritime industry and 
to the marine environment. We are generally supportive of S. 
525.
    The Lake Carriers' Association is a member of the Ballast 
Water Coalition, although I do not testify on behalf of that 
coalition today. I will focus on concerns of the shipping 
industry.
    The Lake Carriers' Association represents 11 American 
corporations operating 57 vessels exclusively on the Great 
Lakes. Foreign-flag operators move cargo into the region from 
across the oceans. We do not. Our vessels typically move more 
than 100 million tons of cargo each year. Those commodities 
include iron ore for the steel industry, coal for power 
generation, and limestone for the construction industry. As you 
can see, tens of thousands of family sustaining jobs depend on 
the efficient movement of cargo on the Great Lakes. We not only 
earn our wages here, we relax along the shores and we drink 
from the world's largest supply of fresh water. It is a place 
we call home.
    The Lake Carriers' Association has been leading efforts to 
find an invasive species solution for more than a decade. In 
partnership with government agencies, nongovernment agencies 
and shippers, we have invested more than $4 million researching 
this complex problem. The Lake Carriers' Association is 
committed to finding a solution to the worldwide problem of 
ballast water transport of non-indigenous species.
    Upon learning of the discovery of the ruffe in the Duluth-
Superior harbor in the late 1980's, LCA produced the voluntary 
ballast water management program. Deemed, quote, ``the cutting 
edge of technology'' by the Fish and Wildlife Service, our 
voluntary efforts have largely contained the ruffe. In 
addition, we have installed other voluntary practices. These 
practices represent our industry's commitment to slowing what 
is inevitable, the migration of newly arrived exotic species. 
For example, the ruffe has migrated along the southern shore of 
Lake Superior of its own volition.
    Therefore, we must focus our energies on prevention of new 
exotics into the Lakes and all of the U.S. waterways. The 
Lakes, like many waterways, are naturally connected, so absent 
a natural predator any fish, insect or plant introduced into 
one of the Great Lakes can and will migrate to the others. Like 
it or not, the ruffe, zebra mussels and sea lamprey, to mention 
a few, are here to stay.
    I must emphasize that this issue is not limited to the 
Great Lakes basin. The West Coast of the United States, Alaska 
and the Chesapeake Bay have been significantly threatened and 
remain vulnerable to new invasions. Vessels engaged in 
international voyages and foreign-flag vessels sailing between 
U.S. ports pose a risk to our ecosystems. Internationally, the 
topic is being debated at the International Maritime 
Organization. Much of that debate in the international 
community seems to be focused on what the standard will be and 
how it will be implemented.
    In addition to prevention, there are several other themes 
for addressing this issue: a clearly defined practical 
treatment standard, a Federal solution with worldwide 
application, a robust data collection and technological 
research system, and the grandfathering of treatment systems 
and vessels. I believe that the above approach will lead to a 
variety of solutions. From a shipboard perspective, the 
critical variables include the volume of ballast water, the 
pumping rate, the length of the voyage, the time in port, trade 
pattern, and vessel design. The complexity of these variables 
make a single solution difficult, if not impossible.
    Although we respect the role of the State governments, an 
appropriate Federal solution would not only adequately address 
this problem, it would save the States enforcement dollars. 
This is exactly the type of problem that requires a regional 
and therefore a Federal solution. Can you imagine the 
complexities of trying to comply with different regulations 
promulgated by the eight different States that share the Lakes?
    I want to thank the committee for your commitment to 
finding a solution to this problem, and conclude by saying that 
we must recognize that those exotics that have established 
themselves in the Great Lakes basin are now citizens in all but 
name. Even the very sophisticated and very successful efforts 
of the Great Lakes Fisheries Commission have resulted in the 
control, but not the elimination of the sea lamprey. Therefore, 
our goal must be prevention. It must be prevention of 
additional invasions via ballast water from ocean-going 
vessels.
    I thank you for your time.
    Senator Crapo. Thank you very much, Mr. Weakley.
    Mr. Beers, I want to start with you. I think you raised 
some very important issues relating to federalism, States' 
rights, private property, sovereignty over water and questions 
of the like. You indicated toward the end of your testimony 
that a revised bill would be more preferable, one which focuses 
specifically on ballast water discharge which controls harmful 
aquatic plants and animals on the Federal property and 
cooperates with States in their responsibilities over fish and 
wildlife and plants.
    Could you elaborate a little bit on that third part there, 
the cooperating with the States? What types of activities there 
do you think would be appropriate and helpful?
    Mr. Beers. Recognizing that the States have constitutional 
authority over the fish, wildlife and plants, and looking at 
what is considered harmful or problematic in the environment 
that a State has jurisdiction over. The Federal Government owns 
property in some of those States and should I think agree with 
the State on what is harmful or not harmful, and if not, deal 
with them, but then work to manage, control or even eliminate 
those species where appropriate, where the Federal jurisdiction 
enters into the State.
    There is also the role for national research like we used 
to have land grant colleges for, and a lot of international and 
import-export responsibilities of the Federal Government that 
can be coordinated with the States overall to help everyone 
meet the private property owners, the Federal landowners, the 
State landowners and the State Governors property rights and 
responsibilities for plants and animals that are under their 
concern, which affect others.
    Senator Crapo. I think that is very helpful. Would you also 
agree that Federal support in the area of education or even 
Federal grants to help the States is appropriate?
    Mr. Beers. Sir, that always sounds good and who can argue 
against education, of course not. And who can argue against 
grants? But we look at the Endangered Species Act, and we see 
where grants under the Endangered Species Act not only have 
changed the way universities look at science, but has changed 
the way a lot of State departments look at the Federal 
Government's jurisdiction expansion regarding those endangered 
species. So that the States become grant applicants the same as 
the universities do, and that affects their perspective on what 
they support, what they say.
    We saw earlier today the sort of ``we can tell that you 
like rainbow trout, so we are not thinking about rainbow 
trout,'' ``we can tell you don't like pike up in Alaska, and 
the Atlantic salmon and of course we are going to be concerned 
there,'' but the test comes with the court taking the words 
that you enact and then having it applied by a judge. That is 
what we have seen with the Endangered Species Act and what we 
are concerned about.
    Senator Crapo. Thank you.
    Mr. Hargrove, in this vein, as you are probably aware, I 
have been a long-time advocate of State sovereignty over water 
management and allocation and use. In fact, I have been 
concerned that there has just been over the last few decades, 
in fact more than that, a gradual creep of Federal jurisdiction 
over State sovereignty in that arena. This is another statute 
where there is a very valid need, but one in which if we do not 
do it correctly could represent or accomplish a further creep 
of Federal control and jurisdiction in areas that traditionally 
have been State responsibilities.
    I would just like you to comment on that generally and tell 
me if you have any ideas about how we can make certain that we 
do not extend Federal sovereignty over matters which 
traditionally are State issues, water quality, water management 
and the like, while we still achieve the objectives that we 
need to achieve to protect ourselves.
    Mr. Hargrove. Chairman Crapo, I would start off by just 
saying that the risks are so grave that we need to weigh those 
against the potential misuse of this bill. I would cite as an 
example that the concerns over irrigation are valid. The Idaho 
Water Users Association came out in support of an invasive 
species bill that Governor Kempthorne had in the State 
legislature this year, so they are very concerned about it.
    I would agree that the more that we can empower the States 
and even at the lower local level to deal with these invasive 
species, the better. With Senator Craig's bill that is in 
Congress for terrestrial weeds, we are seeing the approach 
where we are dealing with cooperative weed management areas at 
a very local level, where local folks who know the issues are 
being empowered by receiving grants that help them fund their 
programs, and really get things done on the ground.
    Senator Crapo. Thank you very much.
    Mr. Hauser and Mr. Weakley, do you have a thought on this?
    Mr. Weakley. Well, sir, there is a good model that I am 
involved with, the Council of Great Lakes Governors, which is 
not addressing the aquatic nuisance species, but the usage of 
waters throughout the Great Lake basin. The Great Lakes 
Commission is a similar forum, but not necessarily respectful 
of the Governors.
    If I may add, it is also an issue not just for the States, 
but for the mayors. I was at a meeting of the mayors from the 
Great Lakes region yesterday, and aquatic nuisance is very much 
on their agenda.
    Senator Crapo. Mr. Hauser?
    Mr. Hauser. There is very little from the Vermont 
perspective in this bill that would threaten our sovereignty as 
a State. If anything, we feel that many of the problems we are 
faced with are problems that arise from things outside of our 
control, and greater Federal leadership in addressing those 
problems would help us greatly on the State end.
    Senator Crapo. Thank you.
    I think I will go to Senator Jeffords now. Senator 
Jeffords, do you have any questions?
    Senator Jeffords. Yes, I do.
    Mr. Hauser, from the State perspective, do you have any 
concerns about the rapid response requirements proposed in the 
bill?
    Mr. Hauser. Not really. We consider rapid response planning 
to be a very critical need, and the provisions of this bill 
would facilitate the development, implementation and 
coordination of rapid response plans at the regional and 
Federal level, and would provide much-needed assistance of both 
technical and funding to the States for doing their own rapid 
response planning.
    I would concur with earlier testimony by Mr. Keeney on the 
previous panel that it would probably be best to de-link it 
from the State management plans as far as the funding goes, 
just to ensure that funding is not delayed to the States for 
rapid response if in fact the State does not have a management 
plan. But we think it is a very important piece of this bill.
    Senator Jeffords. This is perhaps related, but critics of 
this bill complain that it will be very expensive to fund all 
of the programs and initiatives required of the Federal 
agencies. What would be your response to this complaint?
    Mr. Hauser. I think it is much more expensive to not 
properly fund or require proper action on the part of the 
Federal agencies. Inaction costs much more. This is clearly an 
area and an issue where being proactive is much more cost-
effective. For example, you saw an earlier photo of the 
Eurasian water milfoil. Perhaps some time ago, a single action 
on the part of the Federal agency could have prevented the 
introduction of the Eurasian water milfoil through a screening 
process. It did not, so instead in Vermont alone we are 
spending hundreds of thousands of dollars every year to address 
problems with the Eurasian water milfoil.
    We as a Nation clearly need to get ahead of the curve on 
invasive species, and we will not do that unless we invest a 
considerable amount of money up front and resources up front. I 
think the long-term payoffs will be great, however.
    Senator Jeffords. Thank you. I thank all the witnesses. I 
thank the Chairman. I have to go to the floor on the Medicare 
bill, so I just appreciate this hearing. It has been very, very 
helpful to us, and thank you to the witnesses for their 
participation. Thank you.
    Senator Crapo. Thank you very much, Senator Jeffords.
    I am going to just conclude with a line of questioning that 
is similar to what I was discussing with the previous panel, 
and that is, in terms of the nature of the threat that invasive 
species present to our ecosystems. Sometimes I am not sure that 
we generally in the public understand the level of threat that 
certain circumstances present to us. I think that some of the 
testimony today has indicated how serious the threat to our 
ecosystems and to species the introduction, whether it be 
voluntarily or involuntarily, of invasive species can 
represent.
    First of all, let me just ask the panel generally, I am 
sure you heard the testimony earlier that this is second to 
habitat as a threat to the species and to the management of 
ecosystems in our country. Do you agree with that, Mr. Beers?
    Mr. Beers. Not at all, not at all, Senator. Mr. Chairman, 
that is so overblown. That is generated by a bunch of 
bureaucrats that benefit from the endangered species programs, 
and a couple of university professors who also get a lot of 
grants for that stuff. It is absolutely not true. Ecosystems 
have been changing everywhere since time immemorial and will 
continue to do so. We have the wherewithal to make our 
environment beneficial to us and to manage these species, but 
take the salt cedar thing which keeps popping up. Salt cedar is 
an nest tree for the endangered willow flycatcher. They do fine 
in it. But here we can say, let's do away with that tree, when 
we would not do away with it if it was a native tree. Now, does 
that make sense? I do not think so.
    And the purple loosestrife, another one that keeps being 
brought up. I worked on that years ago, and we imported three 
insects from over near Russia that feed on it and help keep it 
under control. It will eventually fade into our environment. It 
makes good honey.
    We could go on and on about they have a lot of bad effects 
and they have some good effects, and things change; it used to 
be worse, and now it is getting worse over here and it is 
getting better over here. That will always be the situation. I 
think it is wrong to think there is some kind of static 
arrangement biologically that depends on when the Asians got 
here or when Columbus got here or some other imaginary date 
that somehow we need to get back to because that was better. It 
was not better, it was only different.
    Senator Crapo. You are not saying, are you, that we should 
have no concern about the introduction of invasive species?
    Mr. Beers. Sure, not at all, not at all. I think we can 
manage that, but we are all so oriented to talking about this 
problem and the Federal Government should have authority and 
educate people and put money to it. In the meantime, you do 
just what happens with endangered species. You have taking 
without compensation problems; you have all kinds of running 
over and stopping of projects and a bunch of things that nobody 
could have foreseen, or if they had foreseen it and said that 
things would be like that, people would say, well, that is 
silly. Nobody intends that. And I think this is going to do 
more of the same.
    Senator Crapo. Thank you.
    Mr. Hargrove?
    Mr. Hargrove. First of all, I would just say that in Idaho, 
we believe that invasive species may pose the No. 1 threat to 
biodiversity in the State.
    Senator Crapo. Are you talking about the Nature 
Conservancy?
    Mr. Hargrove. The Nature Conservancy.
    Senator Crapo. OK.
    Mr. Hargrove. Looking across our plans and priority areas, 
we believe that it may be the No. 1 threat there. If you take 
an example like cheat grass that has altered the whole 
sagebrush steppe ecosystem and led to the decline of sage 
grouse, it has altered the fire regime. We used to have fire 
return intervals of 70 to 100 years. They are now two to 5 
years. That has just impoverished that whole ecosystem, 
millions and millions of acres in Southwest Idaho.
    The other point I would just like to quickly make is that 
in terms of natural resource issues, this is the one issue 
where practically everyone in Idaho agrees and can come 
together. We are not seeing the typical battles and 
polarization of this issue. We are having Federal agencies, 
local agencies, private parties and the State work together on 
these issues, from cooperative weed management areas up to the 
Idaho Weed Coordinating Committee that I work on, and the 
Invasive Species Council. So it is really an issue that has 
brought people together to work across boundaries.
    Senator Crapo. Thank you.
    Mr. Hauser?
    Mr. Hauser. Our situation in Vermont is very similar to 
that described by Mr. Hargrove in Idaho. It is not a polarizing 
issue. We have strong support across all State agencies and 
local groups and lake users and citizens for addressing this 
issue. It is seen as a very big concern. We believe that it is 
very much one of the greatest, if not the greatest threat to 
biodiversity in the State.
    Senator Crapo. Mr. Weakley?
    Mr. Weakley. Senator, being a shipowner, I have to admit 
that I have not studied it from a biological perspective. So 
where to rank-order it, I do not feel qualified, but I will say 
it is a very important issue. If I may be so bold to add, it is 
an inadvertent result of what shipowners do, and certainly the 
Lake Carriers' Association wants to see this halted, and I 
would believe other shipowners as well would like to see this 
problem addressed. What we need is a good Federal solution so 
that we can move forward in the process.
    Senator Crapo. Thank you very much, Mr. Weakley.
    I appreciate the entire panel and the perspectives that you 
bring. Obviously, we have a serious problem, and the proposed 
solution to that problem could bring with it a set of its own 
problems, and that is the kind of thing, whether it be intended 
or unintended consequences, that we must try to make ourselves 
aware of here as we craft solutions to this legislation.
    I think that the issues on all sides have been pretty 
squarely brought forward today, both concerns about the bill as 
it is drafted, concerns about what the issues need to be and 
what we need to address, and concerns about the consequences 
that could come to State sovereignty and to water management 
and to private property rights and the like if we do not 
address it properly.
    So it is very clear that we have an issue that we need to 
address. It is also very clear that we have our work cut out 
for us in terms of making sure that we parse the issues well 
enough that we do not create consequences that are unintended, 
either jurisdictionally or in terms of the environment. I 
encourage you to give us your continued input and support on 
this issue as the committee moves forward.
    Without anything further, then, we will excuse this panel 
and adjourn the hearing. We thank you all for your attendance 
today.
    [Whereupon, at 12:01 p.m. the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]

   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma

    As global trade increases, so do the number of ships entering 
United States' ports. However, these ships not only carry freight, they 
come with unintended cargo, aquatic invasive species. The number of 
damaging aquatic invasive species has increased in tandem with 
globalization having a negative impact on the United States 
economically as well as environmentally.
    The introduction of such aquatic invasive species as the zebra 
mussel has had devastating repercussions. In the Great Lakes alone, it 
has cost millions annually to mitigate the problem of clogged intake 
valves. Since their introduction from the ballast water of ships, zebra 
mussels have spread to more than 20 States. I know my colleague and 
Great Lakes congressional Member, Sen. Voinovich, has been working on 
this issue for Ohio for quite some time, and I look forward to my 
continued work with him to reauthorize the National Invasive Species 
Act.
    When Congress passed the Nonindigenous Aquatic Nuisance Prevention 
and Control Act (NANPCA) of 1990, the legislation focused on problems 
specific to the Great Lakes and encouraged increased cooperation 
between Federal and State agencies. The reauthorization of this law, 
the National Invasive Species Act, took this effort one step further 
and expanded ballast water guidelines to the rest of the Nation. 
However, though these laws laid the foundation for mitigating the 
problem of aquatic invasive species, they failed to adequately address 
a number of issues that we hope to remedy with the upcoming 
reauthorization.
    One of the difficulties of trying to limit the impact of these 
destructive exotics is that they do not recognize political boundaries. 
Therefore, cooperation and partnerships among not only the Federal 
agencies, but the States as well, is critical to minimizing the effects 
of harmful aquatic invasive species. The National Invasive Species 
Council has strengthened the partnerships and increased communication 
between the Federal agencies, but, as cited in the October 2001 GAO 
study, the Federal Government lacks a coordinated, comprehensive long-
term plan.
    Though I support the reauthorization of NANPCA, I have a number of 
concerns regarding some of the language in S. 525. It is my hope that 
today's hearing will provide much needed insight into how the 
reauthorization should proceed. It is important that we tread carefully 
if we decide upon comprehensive reform. States play an integral part in 
controlling invasive species, and it is critical that they are given 
adequate flexibility to address problems affecting their region. I look 
forward to hearing from the witnesses to provide insight into how best 
to approach this complicated issue and also to highlight their concerns 
with the proposed legislation.

                               __________
  Statement of Hon. James M. Jeffords, U.S. Senator from the State of 
                                Vermont

    Good morning. And let me welcome all of our witnesses this morning. 
In particular, I would like to welcome Senator Levin, who has been a 
long-time champion on the issue of invasive species, and all issues 
that will keep those Great Lakes as beautiful as Vermont's Lake 
Champlain.
    I would also like to welcome Michael Hauser from Montpelier, 
Vermont, who will be speaking on one of the later panels.
    The waters of the United States continue to face threats from 
aquatic invasive species. Invasive species take both an economic and an 
environmental toll. The United States and Canada are spending $14 
million a year just to try to control sea lamprey, a species that has 
invaded Lake Champlain and the Great Lakes.
    The environmental costs are also staggering. Invasive species 
usually have high reproductive rates, they disperse easily, and can 
tolerate a wide range of environmental conditions, making them very 
difficult to eradicate. They often lack predators in their new 
environment and out-compete native species for prey and breeding sites.
    S. 525, the ``National Aquatic Invasive Species Act of 2003'', 
builds on existing programs and would establish a mandatory National 
Ballast Water Management Program and minimum requirements for all ships 
operating in the U.S. waters. Ballast water is considered the major 
pathway for invasive species introduction.
    S. 525 would also address potential introduction of aquatic 
invasive species by other pathways, including the pet trade. The 
discovery last year of ``snakehead fish'' in nearby Maryland likely 
came from the release of aquarium fish.
    While this legislation deals with aquatic invasive species and 
calls for guidelines to determine whether importing a live organism 
should be allowed, the recent outbreak of monkeypox, which has been 
traced to the importation of African rodents, is further evidence that 
we must be vigilant when permitting imports than can harm not only the 
environment, but human health.
    The legislation also increases funding for dispersal barrier 
projects and research to prevent the interbasin transfer of organisms. 
This is of particular importance in my State of Vermont. We, along with 
New York, are home to one of this country's most beautiful lakes--Lake 
Champlain. However, zebra mussels, Eurasian water milfoil, water 
chestnuts and sea lamprey have invaded Lake Champlain and are having a 
devastating impact.
    Like most who visit Lake Champlain, these species want to call it 
home, but we cannot compromise the health of the lake.
    Examining the feasibility and effectiveness of a dispersal barrier 
in the Lake Champlain Canal to control invasive species in the lake is 
another way to prevent further destructive dispersal of these species.
    Thank you, Senator Crapo, for holding this hearing today and I look 
forward to hearing from our witnesses.

                               __________
 Statement of Hon. Carl Levin, U.S. Senator from the State of Michigan

    I want to thank Chairman Crapo and Ranking Member Graham for 
holding today's hearing on S. 525, the National Aquatic Invasive 
Species Act, that Senator Collins and I as well as 16 other Senators 
introduced in the Senate and Representatives Gilchrest and Ehlers 
introduced in the House. The purpose of this bill is to reauthorize the 
Nonindigenous Aquatic Nuisance Prevention and Control Act and to take a 
more comprehensive approach toward addressing aquatic nuisance species 
to protect the nation's waters. This bill deals with the prevention of 
new introductions, the screening of new aquatic organisms coming into 
the country, the rapid response to new invasions, and the research to 
implement the provisions of this bill.
    The problem of aquatic invasive species is a very real one to 
coastal and inland waterways. More than 6,500 non-indigenous invasive 
species have been introduced into the United States and have become 
established, self-sustaining populations since the days of 
colonization. These species microorganisms, pathogens, plants, fish and 
animals typically encounter few, if any, natural enemies in their new 
environments. The result are often ecologically and economically 
disastrous.
    Some of my colleagues may remember that back in the late eighties, 
the zebra mussel was released into the Great Lakes through ballast 
water. The Great Lakes still have zebra mussels, and now, 20 States as 
far West as Idaho are fighting to control them. Zebra mussels have 
changed the dynamics of the Great Lakes. They have decimated native 
mussels, allowed toxins to reenter into the food chain, and may be 
responsible for creating hypoxic conditions or a ``Dead Zone'' in Lake 
Erie. Many of our beaches are littered by zebra mussel shells, and it 
is estimated that electrical generation, water treatment, and 
industrial facilities spend tens of millions of dollars every year 
combating the zebra mussel.
    The legislation before you is needed now. It's needed to provide 
direction to the U.S. negotiators at the International Maritime 
Organization, to create a national ballast water standard rather than 
the patchwork of State efforts, and most importantly to move a ballast 
water management program forward.
    The best effort that we have against invasive species is 
prevention. While the U.S. Coast Guard has the authority under existing 
law to significantly increase the nation's efforts to prevent the 
introduction of aquatic invasive species through the largest pathway of 
introduction ballast water there has been very little progress to move 
toward technology that is as effective as ballast water exchange. By 
requiring the Coast Guard and EPA to set interim and final ballast 
water management standards, this legislation allows ballast water 
technology to develop to a known standard. This bill requires the Coast 
Guard to set an interim standard that would require ships entering a 
U.S. port from outside the Exclusive Economic Zone to either use 
ballast water exchange or use technology that reduces the number of 
living organisms in ballast tanks by 95 percent.
    This interim standard in this bill is not intended to be 
implemented for the long run, and it is not perfect. However, a final 
standard is difficult to set today or in the near future because of the 
limited research that has been conducted on how clean or sterile 
ballast water discharge should be and what is the best expression of a 
standard. Rather than wait many more years before taking action to stop 
new introductions, I believe that an imperfect but clear and achievable 
interim standard for treatment technology is the right approach. This 
interim standard will lead to the use of ballast treatments that are 
more protective of our waters than the default method of ballast water 
exchange provides, and it can be implemented in the very near future. 
Further, the bill provides the Coast Guard with the flexibility to 
promulgate the interim standard using a size-based standard or by 
whatever parameters the Coast Guard determines appropriate.
    There are many other important provisions of the bill designed to 
prevent and respond to invasive species. All in all, the bill would 
cost between $160 million and $170 million each year. This is a lot of 
money, but it is a critical investment. However, compared to the 
estimated $137 billion annual cost of invasive species, the cost of 
this bill is minimal. As those of us facing the havoc caused by 
invasive species know, the ecological and economic damage that invasive 
species can cause is high.

                               __________
  Statement of Hon. Susan M. Collins, U.S. Senator from the State of 
                                 Maine

    From Pickerel Pond to Lake Auburn, from Sebago Lake to Bryant Pond, 
lakes and ponds in Maine are under attack. Aquatic invasive species 
threaten Maine's drinking water systems, recreation, wildlife habitat, 
lakefront real estate, and fisheries. Plants, such as Variable Leaf 
Milfoil, are crowding out native species. Invasive Asian shore crabs 
are taking over Southern New England's tidal pools, and just last year, 
began their advance into Maine to the potential detriment of Maine's 
lobster and clam industries.
    Maine and many other States are attempting to fight back against 
these invasions. Unfortunately, their efforts have frequently been of 
limited success. As with national security, protecting the integrity of 
our lakes, streams, and coastlines from invading species cannot be 
accomplished by individual States alone. We need a uniform, nationwide 
approach to deal effectively with invasive species. For this reason, 
Senator Levin and I have introduced the National Aquatic Invasive 
Species Act (NAISA) of 2003 to reauthorize the Nonindigenous Aquatic 
Nuisance Prevention and Control Act. This bipartisan legislation would 
create a comprehensive nationwide approach to combating alien species 
that invade our shores.
    I want to thank Chairman Crapo and Ranking Member Graham for 
holding a hearing on this issue of national importance.
    The stakes are high when invasive species are unintentionally 
introduced into our nation's waters. Invasive species endanger 
ecosystems, reduce biodiversity, and threaten native species. They 
disrupt people's lives and livelihoods by lowering property values, 
impairing commercial fishing and aquaculture, degrading recreational 
experiences, and damaging public water supplies.
    In the 1950's, European Green Crabs swarmed the Maine coast and 
literally ate the bottom out of Maine's soft-shell clam industry by the 
1980's. Many clam diggers were forced to go after other fisheries or 
find new vocations. In just one decade, this invader reduced the number 
of clam diggers in Maine from nearly 5,000 in the 1940's to fewer than 
1500 in the 1950's. European green crabs currently cost an estimated 
$44 million a year in damage and control efforts in the United States.
    Past invasions forewarn of the long-term consequences to our 
environment and communities unless we take steps to prevent new 
invasions. It is too late to stop European green crabs from taking hold 
on the East Coast, but we still have the opportunity to prevent many 
other species from taking hold in Maine and the United States.
    Six months ago, in the Town of Limerick, Maine, one of North 
America's most aggressive invasive species hydrilla was found in 
Pickerel Pond. Hydrilla can quickly dominate its new ecosystem already 
hydrilla covers 60 percent of the bottom of Pickerel Pond from the 
shoreline out to six feet deep. Never before detected in Maine, this 
stubborn and fast-growing aquatic plant threatens Pickerel Pond's 
recreational use for swimmers and boaters, and could spread to nearby 
lakes and ponds. Research in Vermont shows that invasive plants can 
cost shoreline owners over $12,000 each in lost property values on 
infested lakes. Unfortunately, eradication of hydrilla is nearly 
impossible, so we must now work to prevent further infestation in the 
State.
    The National Aquatic Invasive Species Act of 2003 is the most 
comprehensive effort ever to address the threat of invasive species. By 
authorizing $836 million over 6 years, this legislation would open 
numerous new fronts in our war against invasive species. The bill 
directs the Coast Guard to develop regulations that will end the easy 
cruise of invasive species into US waters through the ballast water of 
international ships, and would provide the Coast Guard with $6 million 
per year to develop and implement these regulations.
    The bill also would provide $30 million per year for a grant 
program to assist State efforts to prevent the spread of invasive 
species. It would provide $12 million per year for the Army Corps of 
Engineers and Fish and Wildlife Service to contain and control invasive 
species. Finally, the Levin-Collins bill would authorize $30 million 
annually for research, education, and outreach.
    The most effective means of stopping invading species is to attack 
them before they attack us. We need an early alert, rapid response 
system to combat invading species before they have a chance to take 
hold. For the first time, this bill would establish a national 
monitoring network to detect newly introduced species, while providing 
$25 million to the Secretary of the Interior to create a rapid response 
fund to help States and regions respond quickly once invasive species 
have been detected. This bill is our best effort at preventing the next 
wave of invasive species from taking hold and decimating industries and 
destroying waterways in Maine and throughout the country.
    One of the leading pathways for the introduction of aquatic 
organisms to U.S. waters from abroad is through transoceanic vessels. 
Commercial vessels fill and release ballast tanks with seawater as a 
means of stabilization. The ballast water contains live organisms from 
plankton to adult fish that are transported and released through this 
pathway. NAISA would establish a framework to prevent the introduction 
of aquatic invasive species by ships. Since the last reauthorization of 
this legislation in 1996, there has been growing consensus about the 
value of a mandatory national program to prevent movement of organisms 
by ships. NAISA will require all ships to prepare Aquatic Invasive 
Management Plans, carry out Best Management Practices, and document all 
ballast operations and management activities related to this 
legislation. The legislation establishes interim standards for Ballast 
Water Exchange and Ballast Water Treatment, which will apply to 2010 at 
the latest, and requires that a final standard be implemented by 2011. 
These measures will ensure that the United States is taking the most 
effective actions possible to protect our waters, ecosystems and 
industries.
    While introduction of aquatic invasive species through ballast 
water poses the greatest threat to our waters, non-native species 
imported for live food, aquaculture, or the pet trade can escape and 
become invasive. The snakehead fish that invaded a Maryland pond last 
summer is one example. Currently, there is no uniform, systematic 
process for screening or regulating the proposed importation of live 
organisms to prevent the introduction of harmful invasive species. The 
NAISA legislation creates a screening process for planned introductions 
of non-indigenous species not already in trade. The legislation would 
prohibit the importation of species that are determined to pose a high 
risk of becoming invasive or species with insufficient information to 
determine the risk.
    Prevention is key, but when it fails, we must respond rapidly to 
detect invasive species and stop their spread. This legislation will 
help States and regional organizations detect and respond to future 
invasions through early detection and rapid response. The bill provides 
funding to support ecological surveys to rapidly detect recently 
established aquatic invasive species and to develop and implement rapid 
response plans to eradicate or control aquatic invasive species. This 
provision would support efforts, such as those being undertaken by the 
New England Invasive Plant Group, to compile an invasive plant atlas 
for the region and create an early warning system to alert States to 
invasive plants.
    The legislation also takes precautions to ensure that the methods 
we use to manage and control invasive species do not adversely affect 
health, public safety, or the environment. Ensuring the environmental 
soundness of our response is critical if we are to avoid unintended 
consequences. In the 1990's, biologists in Maine found DDT and other 
pesticides in the mudflats of Maine. In an attempt to eradicate the 
green crab, the State and individuals had applied pesticides to the 
flats about 50 years earlier. We must be careful that our current 
attempts to remove invasive species do not cause even more serious 
problems.
    Information and education are essential mechanisms to inhibit the 
spread of aquatic invasive species. The bill provides funding for 
education and information programs to prevent the spread of invasive 
species through boating and other activities. This funding will augment 
aggressive State efforts to stop the invasion of aquatic species. For 
example, Maine has passed two laws to prevent the spread of invasive 
species and ban the sale or introduction of 11 invasive aquatic plants 
into the State. In October 2002, Maine also adopted an action plan for 
managing invasive aquatic species. Educating the public about the 
introduction and spread of species is a primary goal of the State's 
program. NAISA will support Federal, State and local efforts to raise 
public awareness about invasive aquatic species and teach how 
individuals can help prevent or stop the spread of these species.
    Underpinning this bill is research. The legislation supports 
research into the prevention, control and eradication of aquatic 
invasive species. Finding effective methods to combat aquatic invasive 
species depends on good science. The legislation would provide funds 
for research on ecological surveys to assess the rate and patterns of 
introductions; pathway surveys to analyze how non-native species may be 
introduced into aquatic ecosystems and determine practices that 
contribute to the introduction of these species; and technology 
development into environmentally sound methods and treatments to 
detect, prevent, control and eradicate aquatic invasive species.
    Each year, invasive species cost the United States $138 billion. 
Nonindigenous species infest and degrade U.S. waterways and coastal 
areas in virtually every region of the United States. We are losing the 
fight to protect the nation's waters from expensive and environmentally 
damaging invasions by aquatic nuisance species. Every day that passes 
without protections to prevent new invasions increases the threat that 
another exotic species will establish itself, altering the ecosystem in 
our great waters.
    The NAISA legislation provides the framework for a comprehensive 
and coordinated response at the Federal, State and local levels to 
prevent the spread of aquatic invasive species. I urge my colleagues to 
cosponsor this legislation and work to move the bill swiftly through 
the Senate.

                               __________
  Statement of Barry Hill, Director, Office of Natural Resources and 
                 Environment, General Accounting Office

    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss the difficult issue of managing invasive species 
as you deliberate Senate Bill 525,\1\ which would reauthorize the 
Nonindigenous Aquatic Nuisance Prevention and Control Act of 1990.\2\ 
Invasive species harmful, nonnative plants, animals, and microorganisms 
are found throughout the United States and cause damage to crops, 
rangelands, waterways, and other ecosystems that is estimated in the 
billions of dollars annually. In addition to their economic costs, 
invasive species can have a devastating effect on natural areas, where 
they have strangled native plants, taken over wetland habitats, crowded 
out native species, and deprived waterfowl and other species of food 
sources. Conservation biologists rank invasive species as the second 
most serious threat to endangered species after habitat destruction. 
Overall, scientists, academicians, and industry leaders are recognizing 
invasive species as one of the most serious environmental threats of 
the 21st century. In October 2002, we issued a report on the Federal 
Government's National Management Plan for managing invasive species, 
ballast water management, and other issues.\3\,\4\
---------------------------------------------------------------------------
     \1\S. 525, 108th Cong. (2003).
     \2\Pub. L. No. 101-646, 104 Stat. 4761 (1990) (codified as amended 
at 16 U.S.C. Sec. Sec. 4701-4751).
     \3\U.S. General Accounting Office, Invasive Species: Clearer Focus 
and Greater Commitment Needed to Effectively Manage the Problem, GAO-
03-1 (Washington, DC: Oct. 2002).
     \4\Executive Order 13112 created a National Invasive Species 
Council, now composed of 11 Federal departments and agencies, to 
provide national leadership on addressing invasive species and to 
develop a plan for managing them.
---------------------------------------------------------------------------
    My testimony today is based on our October 2002 report as well as 
new work that you requested. Specifically, I will discuss the findings 
and recommendations of our October 2002 report that address (1) 
progress made by Federal agencies implementing the National Management 
Plan and (2) the current state of ballast water management as a pathway 
for invasive species. I will also discuss some of the results of new 
work we conducted to obtain State perspectives on (1) the gaps in, or 
problems with, existing legislation and barriers to addressing 
terrestrial and aquatic invasive species and (2) the Federal leadership 
structure for addressing invasive species and integration of Federal 
legislation on terrestrial invasive species with legislation on aquatic 
invasives. To obtain State perspectives, we surveyed the State agencies 
typically most involved with invasive species State agencies 
responsible for agriculture and natural resources or fish and wildlife 
sending surveys to at least two agencies within each of the 50 States. 
We received 68 responses from a total of 45 States. We also surveyed 
the members of the Invasive Species Advisory Committee, a Federal 
advisory committee established to help the Federal Government develop 
and implement its National Management Plan; we received responses from 
about two-thirds of the 24 Committee members. We also interviewed 
officials in a few States chosen because of their well-established 
invasive species programs or the large number of invasive species 
present. We conducted our work in accordance with generally accepted 
government auditing standards. We will provide to you the full results 
of our survey in a separate product.
Summary
    As we reported in October 2002, the National Management Plan for 
addressing invasive species lacks a clear long-term desired outcome and 
quantifiable measures of performance. While the actions called for in 
the plan are likely to contribute to controlling invasive species in a 
general sense, it is unclear how implementing them will move the United 
States toward a specific outcome, such as reducing new invasive species 
by a specific number or reducing the spread of established species by a 
specified amount. Federal officials recognize that the plan has 
deficiencies and are working on improvements. Currently, the only 
performance measure that can be assessed is the percentage of planned 
actions that have been completed. By this measure, implementation has 
been slow. As of September 2002, Federal agencies had completed less 
than 20 percent of the actions that the plan called for by that date, 
although they had begun work on others. Reasons for the slow progress 
included delays in establishing teams to be responsible for guiding 
implementation of the planned actions, the low priority given to 
implementation by the National Invasive Species Council and Federal 
agencies, and the lack of funding and staff responsible for doing the 
work. Some stakeholders expressed the view that the low priority given 
to implementing the plan and associated limited progress may be due to 
the fact that the Council and plan were created by executive order and 
thus do not receive the same priority as programs that are 
legislatively mandated. We made several recommendations to the Council 
intended to clarify goals and objectives in the National Management 
Plan and to improve reporting on the progress of its implementation; 
Council agencies generally agreed with our recommendations.
    We also reported in October 2002 that current Federal efforts are 
not adequate to prevent the introduction of invasive species into the 
Great Lakes via the ballast water of ships. Despite Federal regulations 
requiring ships that enter the lakes from more than 200 nautical miles 
off the U.S. coast to exchange their ballast water in the open ocean 
(that is, in waters deeper than 2,000 meters and farther than 200 
nautical miles from the U.S. coast); retain the ballast water on board; 
or use an alternative, environmentally sound, method of ballast water 
management, aquatic invasive species are still entering the Great Lakes 
and establishing themselves in the ecosystem. According to the experts 
we consulted, at least two factors contribute to the failure of the 
existing regulations to prevent introductions. First, about 70 percent 
of the ships that enter the Great Lakes are classified by the Coast 
Guard as having no ballast on board and, are therefore, exempt from 
open-ocean exchange requirements. However, these ships may in fact 
carry thousands of gallons of residual ballast water and sediment in 
their drained tanks, and this water and sediment may contain 
potentially invasive organisms that may be mixed with water later taken 
from, and then discharged into, the Great Lakes. Second, the open-ocean 
exchange conducted by ships that have ballast does not effectively 
remove or kill all organisms in the ballast tanks. Although Federal 
officials believe more should be done to protect the Great Lakes from 
ballast water discharges, their plans for doing so depend on the 
development of standards and technologies that will take many years. In 
the meantime, the continued introduction of invasive species could have 
major economic and ecological consequences.
    According to our new work, State officials identified a number of 
legislative gaps or problems, and other barriers related to addressing 
invasive species. A key gap noted in both aquatic and terrestrial 
legislation is the lack of legal requirements for controlling invasive 
species that are already established or widespread. State officials 
said that if there is no Federal requirement, there is often little 
money available to combat a species and that a legal requirement would 
raise the priority for responding to it. For example, one State 
official complained about the lack of authority to control Eurasian 
ruffe, an invasive fish that has spread through several Great Lakes and 
causes great harm to native fisheries. He compared this to the 
authorities available to control the sea lamprey, which has a mandated 
control program that is funded by the U.S. and Canada.\5\ In addition, 
many State officials frequently cited, as ineffective, the current 
Federal standards for ballast water, which only impose requirements on 
ships entering the Great Lakes and not other U.S. waters. State 
officials also identified the lack of Federal funding for State 
invasive species efforts as another barrier they face. In particular, 
States were concerned about not having sufficient funds to create 
management plans for addressing invasive species, and to conduct 
monitoring and detection, inspection and enforcement, and research 
activities. Finally, State officials were also concerned with the lack 
of cost-effective control measures and insufficient public education 
and outreach efforts.
---------------------------------------------------------------------------
     \5\Convention on Great Lakes Fisheries, Sept. 10, 1954, U.S.-Can., 
6 U.S.T. 2836.
---------------------------------------------------------------------------
    State officials' opinions on effective Federal leadership 
structures for addressing invasive species varied. A National Invasive 
Species Council specifically authorized in legislation was most often 
identified as an effective leadership structure for managing invasive 
species, although many officials also thought that continuing with the 
Council as established by executive order would also be effective. 
Several Federal agency officials thought that giving the Council 
authority in legislation would make it easier for them to implement the 
National Management Plan. Regarding the form legislation on invasive 
species should take, most State officials were in favor of integrating 
legislation on terrestrial invasive species with legislation on aquatic 
invasive species, but the margin was relatively small. Many State 
officials indicated that the possible benefits of integrated 
legislative authority would be increased coordination between Federal 
agencies and States and an increased focus on invasive species 
pathways, as opposed to specific species. The possible drawbacks 
identified included concerns that a single piece of legislation would 
not be able to address all possible situations dealing with invasive 
species and may result in reduced State flexibility in addressing 
invasives.

Background
    As we have reported in the past, the impact of invasive species in 
the United States is widespread, and their consequences for the economy 
and the environment are profound.\6\ Invasive species affect people's 
livelihoods and pose a significant risk to industries such as 
agriculture, ranching, and fisheries. The cost to control invasive 
species and the cost of damages they inflict, or could inflict, on 
property and natural resources are estimated in the billions of dollars 
annually. For example, according to the U.S. Department of Agriculture 
(USDA), each year the Formosan termite causes at least $1 billion in 
damages and control costs in 11 States; USDA also estimates that, if 
not managed, fruit flies could cause more than $1.8 billion in damage 
each year.\7\ Invasive species continue to be introduced in new 
locations, with recent examples including the northern snakehead fish 
in Maryland, the emerald ash borer in Michigan, and the monkeypox virus 
in the Midwest.
---------------------------------------------------------------------------
     \6\U.S. General Accounting Office, Invasive Species: Federal and 
Selected State Funding to Address Harmful Nonnative Species, GAO/RCED-
00-219 (Washington, DC.: Aug. 24, 2000).
     \7\Estimates are in 2001 dollars.
---------------------------------------------------------------------------
    Invasive species may arrive unintentionally as contaminants of bulk 
commodities, such as food, and in packing materials, shipping 
containers, and ships' ballast water. Ballast water is considered a 
major pathway for the transfer of aquatic invasive species. Ballast is 
essential to the safe operation of ships because it enables them to 
maintain their stability and control how high or low they ride in the 
water. Ships take on or discharge ballast water over the course of a 
voyage to counteract the effects of loading or unloading cargo, and in 
response to sea conditions. The ballast that ships pump aboard in ports 
and harbors may be fresh, brackish, or salt water. These waters could 
potentially contain various organisms that could then be carried to 
other ports around the world where they might be discharged, survive, 
and become invasive. Other invasive species may be introduced 
intentionally; kudzu, for example a rapidly growing invasive vine that 
thrives in the southeastern United States was intentionally introduced 
from Japan as an ornamental plant and was used by USDA in the 1930's to 
control soil erosion.
    Federal agencies implement a variety of invasive species-related 
programs and activities pursuant to their specific missions and 
responsibilities. USDA, for example, spends significant resources on 
prevention and control activities for invasive species that harm 
agricultural and forest products. USDA is also responsible for 
preventing infectious diseases, some of which are considered invasive, 
from spreading among livestock. States also play a major role in 
addressing invasive species, either through their own programs or 
through collaboration with or funding from Federal programs. Such 
programs and the amount of resources expended on them vary considerably 
among the States.
    In response to concerns that we were losing the battle against 
invasive species, President Clinton signed Executive Order 13112 in 
February 1999 to prevent the introduction of invasive species; provide 
for their control; and minimize their economic, environmental, and 
human health impacts. The executive order established the National 
Invasive Species Council, which is now composed of the heads of 11 
Federal departments and agencies, to provide national leadership on 
invasive species and to ensure that Federal efforts are coordinated and 
effective, among other things. The executive order also required the 
Secretary of the Interior to establish a Federal advisory committee to 
provide information and advice to the Council. To achieve the goals of 
the executive order, the Council was to develop a national management 
plan that would serve as the blueprint for Federal action on invasive 
species. S. 525, if enacted, would call on the Council to carry out 
several other activities such as implementing a strategy to share 
information collected under the proposed legislation and to develop a 
program for educating the public about certain pathways for invasive 
species; it would also authorize funds for the Council to carry out 
these activities.

NATIONAL MANAGEMENT PLAN LACKS MEASURABLE GOALS, AND ITS IMPLEMENTATION 
                             HAS BEEN SLOW

    The National Invasive Species Council's management plan, Meeting 
the Invasive Species Challenge, issued in January 2001, calls for 
actions that are likely to help control invasive species, such as 
issuing additional regulations to further reduce the risk of species 
introductions via solid wood packing material, developing methods to 
determine rapid response measures that are most appropriate for 
specific situations, and devoting additional resources to strengthening 
inspection services at ports of entry. However, as we observed in our 
October 2002 report, the plan lacks a clear long-term goal and 
quantifiable performance criteria against which to evaluate its overall 
success. For example, the plan does not contain performance-oriented 
goals and objectives, such as reducing the introduction of new species 
by a certain percentage or reducing the spread of established species 
by a specified amount. Instead, the plan contains an extensive list of 
actions that, while likely to contribute to preventing and controlling 
invasive species, are not clearly part of a comprehensive strategy. 
Similarly, many of the actions in the plan call for Federal agencies to 
take certain steps rather than to achieve specific results and do not 
have measurable outcomes. For example, the plan calls for the Council 
to work with relevant organizations to ``expand opportunities to share 
information, technologies, and technical capacity on the control and 
management of invasive species with other countries.'' The plan also 
calls for the Council to support international conferences and 
seminars. These types of actions are more process-oriented than 
outcome-oriented; taken individually, the actions may be useful, but 
judging whether they are successful and have contributed to an overall 
goal, will be difficult.
    Federal officials involved in developing the plan told us that they 
recognize that it has deficiencies and are working on improvements. The 
Council acknowledged in the plan itself that many of the details of the 
actions called for would require further development in the 
implementation phase. The executive director of the Council staff told 
us that, in her opinion, given the scope of this first-time effort, it 
would have been unrealistic and difficult to agree on specific 
measurable goals. She also said that, in many areas, the Federal 
Government does not have the data on invasive species conditions needed 
to set long-term goals and develop better performance measures. She 
said that many of the actions called for in the management plan are 
designed to help develop needed data but pointed out that doing so for 
some aspects of invasive species management will be difficult given the 
comprehensive data needed.
    The management plan also called for the Council to establish a 
transparent oversight mechanism by April 2001 to report on 
implementation of the plan and compliance with the executive order. 
This mechanism, however, is just now being set in place. Without this 
mechanism, the only available measure that could have be used to assess 
overall progress in implementing the plan was the percentage of planned 
actions that were completed by the dates set in the plan. By this 
measure, implementation has been slow. Specifically, Federal agencies 
had completed less than 20 percent of the 65 actions that were called 
for by September 2002. Council agencies had started work on over 60 
percent of the remaining planned actions, however, including some that 
have a due date beyond September 2002. Several actions in the plan that 
were completed on time related to the development of the Council's Web 
site, which is found at www.invasivespecies.gov. In addition, the 
National Oceanic and Atmospheric Administration, the Coast Guard, the 
Department of the Interior, and the Environmental Protection Agency 
(EPA) had sponsored research related to ballast water management. 
Nevertheless, a vast majority of the members of the Invasive Species 
Advisory Committee, which we surveyed for our October 2002 report, said 
that the Council was making inadequate or very inadequate progress.
    We found several reasons for the slow progress in implementing the 
plan. First, delays occurred in establishing the teams of Federal and 
nonFederal stakeholders that were intended to guide implementation of 
various parts of the plan. Second, our review of agencies' performance 
plans (prepared pursuant to the Government Performance and Results Act) 
indicated that while some agencies' plans described efforts taken to 
address invasive species under their own specific programs, none of the 
plans specifically identified implementing actions called for by the 
plan as a performance measure. Some stakeholders expressed the view 
that the low priority given to implementing the plan and associated 
limited progress may be due to the fact that the Council and plan were 
created by executive order, and thus do not receive the same priority 
as programs that are legislatively mandated. Finally, we also noted a 
lack of funding and staff specifically devoted to implementing the 
plan.
    To address these shortcomings, we recommended that the Council co-
chairs (the Secretaries of Agriculture, Commerce, and the Interior)
    <bullet>  ensure that the updated management plan contains 
performance-oriented goals and objectives and specific measures of 
success and
    <bullet>  give high priority to establishing a transparent 
oversight mechanism for use by Federal agencies complying with the 
executive order and reporting on implementation of the management plan.
    We also recommended that all member agencies of the National 
Invasive Species Council with assigned actions in the current 
management plan recognize their responsibilities in either their 
departmental or agency-level annual performance plans. The agencies 
generally agreed with our recommendations.
    Since we issued our report, the Council made significant progress 
on its first crosscutting budget one of the planned actions in the 
management plan that should help to develop performance measures and 
promote better coordination of actions among agencies. The Office of 
Management and Budget is currently reviewing the Council's proposal for 
the fiscal year 2004 budget cycle. In addition, according to Council 
staff, the oversight mechanism should be finalized in July 2003, and 
the first revision to the management plan should be finalized later 
this summer.
    Current Regulations Concerning Ballast Water Management Are Not 
Keeping Invasive Species out of the Great Lakes
    According to experts and agency officials we consulted, current 
efforts by the United States are not adequate to prevent the 
introduction of aquatic invasive species into the Great Lakes via 
ballast water of ships, and they need to be improved. Since 1993, 
Federal regulations have required vessels entering the Great Lakes from 
outside the Exclusive Economic Zone a zone extending 200 nautical miles 
from the shore to exchange their ballast water in the open ocean (that 
is, water deeper than 2,000 meters) before entering the zone. 
Exchanging ballast water before arriving in the Great Lakes is intended 
to serve two purposes: to flush aquatic species taken on in foreign 
ports from the ballast tanks and to kill with salt water any remaining 
organisms that happen to require fresh or brackish water. If a ship 
bound for the Great Lakes has not exchanged its ballast water in the 
open ocean it must hold the ballast in its tanks for the duration of 
the voyage through the lakes or conduct an exchange in a different 
approved location. Data from the Coast Guard show that the percentage 
of ships entering the Great Lakes after exchanging their ballast water 
has steadily increased since the regulations took effect in 1993 and 
averaged over 93 percent from 1998 through 2001. Despite this, numerous 
aquatic invasive species have entered the Great Lakes via ballast water 
and have established populations since the regulations were 
promulgated.
    Experts have cited several reasons for the continued introductions 
of aquatic invasive species into the Great Lakes despite the ballast 
water regulations. In particular, the Coast Guard's ballast water 
exchange regulations do not apply to ships with little or no pumpable 
ballast water in their tanks, which account for approximately 70 
percent of ships entering the Great Lakes from 1999 through 2001. These 
ships, however, may still have thousands of gallons of residual ballast 
and sediment in their tanks that could harbor potentially invasive 
organisms from previous ports of call and then be discharged to the 
Great Lakes during subsequent ballast discharges. There are also 
concerns that open-ocean ballast water exchange is not an effective 
method of removing all potentially invasive organisms from a ship's 
ballast tank.
    Federal officials believe that they should do more to develop 
treatment standards and technologies to protect the Great Lakes from 
ballast water discharges. The Coast Guard is now working to develop new 
regulations that would include a performance standard for ballast water 
that is, a measurement of how ``clean'' ballast water should be before 
discharge within U.S. waters. The Coast Guard is expecting to have a 
final rule ready for interdepartmental review by the fall of 2004 that 
will contain ballast water treatment goals and a standard that would 
apply not only to ships entering the Great Lakes but to all ships 
entering U.S. ports from outside the Exclusive Economic Zone. Once the 
Coast Guard sets a performance standard, firms and other entities will 
be able to use this as a goal as they develop ballast water treatment 
technologies. While several technologies are being investigated, such 
as filtration and using physical biocides such as ultraviolet radiation 
and heat treatment, a major hurdle to be overcome in developing 
technological solutions is how to treat large volumes of water being 
pumped at very high flow rates. In addition, small container vessels 
and cruise ships, which carry a smaller volume of ballast water, may 
require different technologies than larger container vessels. As a 
result, it is likely that no single technology will address the problem 
adequately. Consequently, it could be many years before the world's 
commercial fleet is equipped with effective treatment technologies. 
Without more effective ballast water standards, the continued 
introduction of aquatic invasive species into the Great Lakes and other 
aquatic systems around the country is likely to cause potentially 
significant economic and ecological impacts.
    We reported in October 2002 that the Coast Guard and the Department 
of Transportation's Maritime Administration are developing programs to 
facilitate technology development. In addition, the National Oceanic 
and Atmospheric Administration and the U.S. Fish and Wildlife Service 
have funded 20 ballast water technology demonstration projects at a 
total cost of $3.5 million since 1998 under a research program 
authorized under the National Invasive Species Act. Other programs also 
support research, and the Maritime Administration expects to make 
available several ships of its Ready Reserve Force Fleet to act as test 
platforms for ballast water technology demonstration projects. Once 
effective technologies are developed, another hurdle will be installing 
the technologies on the world fleet.\8\ New ships can be designed to 
incorporate a treatment system, but existing ships were not designed to 
carry ballast water technologies and may have to go through an 
expensive retrofitting process. With each passing year without an 
effective technology, every new ship put into service is one more that 
may need to be retrofitted in the future.
---------------------------------------------------------------------------
     \8\A recent study analyzing the market for future treatment 
technologies reported that there are over 47,000 vessels in the world 
fleet for which ballast water treatment technologies could be 
applicable.
---------------------------------------------------------------------------
    Public and private interests in the Great Lakes have expressed 
dissatisfaction with the progress in developing a solution to the 
problem of aquatic invasive species introduced through ballast water. 
An industry representative told us that she and other stakeholders were 
frustrated with the slow progress being made by the Coast Guard in 
developing a treatment standard. More broadly, in the absence of 
stricter Federal standards for ballast water, several Great Lakes 
States have considered adopting legislation that would be more 
stringent than current Federal regulations. In addition, in a July 6, 
2001, letter to the U.S. Secretary of State and the Canadian Minster of 
Foreign Affairs, the International Joint Commission and the Great Lakes 
Fishery Commission stated their belief that the two governments were 
not adequately protecting the Great Lakes from further introductions of 
aquatic invasive species.\9\ They also noted a growing sense of 
frustration within all levels of government, the public, academia, 
industry, and environmental groups throughout the Great Lakes basin and 
a consensus that the ballast water issue must be addressed now. The two 
commissions believe that the reauthorization of the National Invasive 
Species Act is a clear opportunity to provide funding for research 
aimed at developing binational ballast water standards.
---------------------------------------------------------------------------
     \9\The Boundary Waters Treaty of 1909 established the 
International Joint Commission to, among other things, advise the U.S. 
and Canadian governments concerning transboundary water quality issues. 
The Commission has six members: three appointed by the President of the 
United States, with the advice and approval of the Senate, and three 
appointed by the Governor in Council of Canada, on the advice of the 
Prime Minister. The Great Lakes Fishery Commission was created in 1955 
by a convention on Great Lakes fisheries between the U.S. and Canada.
---------------------------------------------------------------------------
    S. 525 sets forth a more aggressive program against the 
introduction of aquatic invasive species through ballast water and 
related pathways. In particular, it would require ballast water 
standards for ships in all waters of the U.S., instead of the current 
voluntary program for waters outside of the Great Lakes. It also 
specifically authorizes significantly more funding in the form of 
grants to States, and Federal funding and grants for research, 
including research on pathways, likely aquatic invaders, and 
development of cost-effective control methods.
    Now let me turn to our most recent work gathering State 
perspectives on invasive species legislation and management.

State Officials Cited Several Gaps in Existing Federal Legislation and 
        Identified Other Barriers to Addressing Invasive Species

    State officials who responded to our survey identified several gaps 
in, or problems with, existing Federal legislation on aquatic and 
terrestrial invasive species, as well as other barriers to their 
efforts to manage invasive species.
Perceived Gaps in or Problems with Existing Legislation
    According to our new work, the lack of legal requirements for 
controlling already-established or widespread invasive species was the 
gap in existing legislation on aquatic and terrestrial species most 
frequently identified by State officials. Specifically, they said that 
this is a problem for species that do not affect a specific commodity 
or when a species is not on a Federal list of recognized invasives. 
Officials noted that if there is no Federal requirement, there is often 
little money available to combat a species and that a legal requirement 
would raise the priority for responding to it. For example, one State 
official complained about the lack of authority to control Eurasian 
ruffe, an invasive fish that has spread through several Great Lakes and 
causes great harm to native fisheries. He compared this to the 
authorities available to control the sea lamprey, which has a mandated 
control program that is funded by the U.S. and Canada. In addition, 
some State officials said that in the absence of Federal requirements, 
differences among State laws and priorities also pose problems for 
addressing established species, for example, when one State may 
regulate or take actions to control a species and an adjacent State 
does not. Some State officials noted that they have little authority to 
control or monitor some species and that getting laws or regulations 
for specific species, such as those for the sea lamprey, takes time.
    Many State officials also identified ineffective Federal standards 
for ballast water as a problem for addressing invasive species. 
Specifically, some State officials complained that standards and 
treatment technologies, regulations, compliance with reporting 
requirements, and penalties for noncompliance are lacking and say that 
research and legislation are needed to address the problem. As we 
reported in October 2002, Federal regulations for ballast water are not 
effective at preventing invasive species from entering our waters and 
are only required for ships entering the Great Lakes. Some State 
officials also said that Federal leadership is essential to fund 
efforts in these areas and to provide coordination among States. As I 
have already noted, S. 525 would authorize a more aggressive program 
for developing standards and technologies for regulating ballast water. 
Although some State officials believe solving the ballast water problem 
is possible, some officials pointed to difficulties in doing so with 
some methods. Specifically, these officials noted that some 
environmentalists are opposed to chemical treatments, while industry 
groups have objected to the cost of some technologies. S. 525 would 
revise the definition of ``environmentally sound'' (as in 
environmentally sound control measures) to delete the emphasis on 
nonchemical measures.

Other Barriers to Addressing Invasive Species
    State officials reported that inadequate Federal funding for State 
efforts was the key barrier to addressing invasive species both aquatic 
and terrestrial. In particular, State officials were concerned about 
having sufficient funds to create management plans for addressing 
invasive species, particularly as more States begin to develop plans, 
and for inspection and enforcement activities. State officials also 
identified the need for additional funds to conduct monitoring and 
detection programs, research, and staffing. In particular, some State 
officials noted that uncertainty in obtaining grant funds from year to 
year makes it difficult to manage programs, especially when funding 
staff positions relies on grants. S. 525 would specifically authorize 
significantly more funding in grants to address invasive species than 
is specifically authorized under the current legislation.
    Many State officials also identified a lack of public education and 
outreach as a barrier to managing terrestrial invasive species. Public 
education and outreach activities are important components of the 
battle against invasive species, as many invasives have been introduced 
through the activities of individuals, such as recreational boating, 
and the pet, live seafood, and plant and horticultural trades. For 
example, the outbreak of the monkeypox virus that has sickened at least 
80 people in the Midwest is thought to have spread from a Gambian rat 
imported from Africa to be sold as a pet. S. 525 includes efforts 
intended to provide better outreach and education to industry, 
including the horticulture, aquarium, aquaculture, and pet trades, and 
to recreational boaters and marina operators, about invasive species 
and steps to take to reduce their spread.
    State officials identified a lack of cost-effective control 
measures as a key barrier to addressing aquatic invasive species. Some 
officials commented that there is a need for more species-specific 
research to identify effective measures. For example, one successful 
control effort the sea lamprey control program costs about $15 million 
per year. However, similar control programs for all invasive species 
would be problematic and officials told us that targeted research on 
control methods is needed, particularly for aquatic invasive species. 
S. 525 would authorize a grant program for research, development, 
demonstration, and verification of environmentally sound, cost-
effective technologies and methods to control and eradicate aquatic 
invasive species.

State Officials' Opinions Varied on Effective Leadership Structures for 
        Managing Invasive Species and Whether to Integrate Legislative 
        Authority on Invasive Species
    State officials' opinions varied on the preferred leadership 
structure for managing invasive species and whether to integrate 
legislative authority on invasive species. Many State officials 
indicated that specifically authorizing the National Invasive Species 
Council would be an effective management option and favored integrated 
authority, but in both cases, the margins were relatively small.

Federal Leadership Structure for Invasive Species
    Currently, no single agency oversees the Federal invasive species 
effort. Instead, the National Invasive Species Council, which was 
created by executive order and is composed of the heads of 11 Federal 
departments and agencies, is intended to coordinate Federal actions 
addressing the problem. State officials most often identified 
specifically authorizing the Council in legislation as an effective 
leadership structure for managing invasive species. Almost all of the 
Invasive Species Advisory Committee members that responded to our 
survey agreed with this approach. During our work for our October 2002 
report, the executive director of the Council noted that legislative 
authority for the Council, depending on how it was structured, could be 
useful in implementing the national management plan for invasive 
species by giving the Council more authority and, presumably, 
authorizing more resources. Officials from USDA, the Department of 
Defense, and EPA also told us that legislative authority, if properly 
written, would make it easier for Council agencies to implement the 
management plan, as implementing actions under the executive order are 
perceived to be lower in priority than are programs that have been 
legislatively mandated. Many State officials, however, also believed 
that keeping the current Council authority as established by executive 
order is an effective option.

Integration of Federal Laws Addressing Invasive Species
    As you know, Federal authorities for addressing invasive species 
are scattered across a patchwork of laws under which aquatic and 
terrestrial species are treated separately. Questions have been raised 
about whether this is the most effective and efficient approach and 
whether the Federal Government's ability to manage invasive species 
would be strengthened if integrated legal authority addressed both 
types of invasives. Some believe such an approach would provide for 
more flexibility in addressing invasive species; others are concerned 
that such an approach would disrupt existing programs that are working 
well.
    On the basis of the responses from State officials, no clear 
consensus exists on whether legislative authority for addressing 
aquatic and terrestrial invasive species should be integrated. Overall, 
State officials were in favor of integrating legislative authority, but 
the margin was relatively small. Differences were more distinct, 
however, when we considered the State officials' expertise. 
Specifically, we asked officials whether they considered themselves 
experts or knowledgeable in aquatic invasive species, terrestrials, or 
both. A large majority of the State officials who identified themselves 
as having expertise solely in aquatic invasive species were against 
integrating aquatic and terrestrial authority. The terrestrial experts 
were also against integrated authority, but with a smaller majority. 
These positions contrast with those of the State officials who said 
they were experts or knowledgeable in both aquatic and terrestrial 
invasives; these officials favored integrated authority by a large 
majority. About twice as many members of the Invasive Species Advisory 
Committee who responded to our survey favored integrating legislation 
on aquatic and terrestrial invasive species compared to those who did 
not.
    Regarding the drawbacks of integrating authority for aquatic and 
terrestrial invasive species, many State officials said that it could 
be difficult to address all possible situations with invasive species 
and some species or pathways may get overlooked, and were concerned 
that it may reduce State flexibility implementing invasive species 
programs. Some State officials said that the two types of invasives 
should be handled separately, since the ecological complexities of 
aquatics and terrestrials are very different different pathways of 
entry and spread, and different requirements for control methods and 
expertise. In addition, some officials stated that combining 
legislative authority would result in competition among various 
invasive species programs for scarce resources. In particular, one 
official referred to the ``issue of the moment'' phenomenon, where a 
specific invasive species becomes the focus of great public attention 
and receives a large share of resources, while many other species may 
get very few resources.
    On the other hand, many State officials saw an increased focus on 
pathways for invasive species as opposed to on specific species as a 
possible benefit of integrating authority for aquatic and terrestrial 
invasive species. Such an approach could facilitate more effective and 
efficient efforts to address invasive species. Many State officials 
also believed that integration of legislative authority could result in 
increased coordination between Federal agencies and States. Some State 
officials described the efforts needed to address invasives as 
requiring broad, interdisciplinary coordination and characterized the 
current Federal effort as fragmented and ineffective. In addition, some 
State officials said that the classification of species into aquatic or 
terrestrial types might not be clear-cut and that the current 
separation between them is ``an artificial Federal construct,'' citing, 
for example, the difficulty of classifying amphibians.

                 GAO CONTACTS AND STAFF ACKNOWLEDGMENTS

    For further information about this testimony, please contact me at 
(202) 512-3841. Mark Bondo, Mark Braza, Kate Cardamone, Curtis Groves, 
Trish McClure, Judy Pagano, Ilga Semeiks, and Amy Webbink also made key 
contributions to this statement.

                                 ______
                                 
   Responses of Barry T. Hill to an Additional Question from Senator 
                                 Allard

    Question 1. The legislation proposes that the Coast Guard will 
promulgate the regulations for an interim standard, while the EPA will 
develop the final standard. The Coast Guard supports a single standard 
that is scientifically sound and enforceable, and EPA has concerns that 
they should be the ones in charge, as well as issues of rule 
promulgation sharing. Some before this committee believe that the 
responsibility to develop and promulgate a ballast water discharge 
standard should remain with one agency. How should this be addressed? 
Who is the right agency?
    Response. GAO does not have a view regarding which is the ``right'' 
agency to develop and promulgate a ballast water discharge standard. 
GAO believes that the rulemaking process for ballast water management 
should be a cooperative one involving, to some degree, the Federal 
agencies with related expertise or a stake in the outcome such as the 
Coast Guard, U.S. Maritime Administration, Environmental Protection 
Agency (EPA), National Oceanic and Atmospheric Administration, and 
Department of the Interior. We have not analyzed whether the Coast 
Guard or EPA is the more appropriate lead agency for this effort 
although there are reasons why each might be considered the better 
choice. For example, the Coast Guard has been dealing with ballast 
water for many years and has valuable experience with the shipping 
industry. The EPA, on the other hand, has extensive experience in 
developing and promulgating environmental standards, such as those 
issued under the authority of the Clean Water Act. We are concerned 
about switching agency responsibility for developing a standard 
midstream-with the Coast Guard starting the process and EPA finishing 
it-because the experience and expertise developed in the first part of 
the process would need to be transferred during the transition, 
possibly delaying the process. Several precedents exist for two 
agencies jointly issuing regulations; in other cases, the Congress has 
directed an agency to consult with others when developing specific 
regulations. These approaches could be considered for ballast water 
regulations. In addition, regardless of which agency-or agencies-
actually promulgates a final standard, it is likely that other agencies 
will be responsible for implementing and/or enforcing the standard. In 
our view, the critical success factors for issuing ballast water 
regulations is ensuring effective coordination among the agencies that 
are stakeholders to the outcome and/or have relevant expertise, and 
adequate resources to develop and promulgate a standard expeditiously.

                                 ______
                                 
    Responses of Barry T. Hill to Additional Questions from Senator 
                               Voinovich

    Question 1. Does S. 525 provide clear lines of authority and 
accountability to enable State and Federal agencies to work together?
    Response. GAO did not conduct a comprehensive legal analysis of S. 
525 to determine the sufficiency of the lines of authority and 
accountability between Federal agencies and States. Federal and State 
cooperation in efforts to deal with invasive species is extremely 
important, as the States have a key role in managing invasive species 
within their borders. Executive Order 13112 and the national management 
plan for invasive species recognize the importance of Federal/State 
cooperation; S. 525 continues that theme. However, the bill addresses 
only aquatic nuisance species so its potential impact on Federal/State 
authority is limited in this way.
    GAO has reported generally on different approaches for balancing 
Federal and State responsibilities for standard setting and 
implementation, and on how the Federal/State relationship differs among 
these approaches. For example, regulations that set forth minimum 
Federal standards, thereby allowing States to impose stricter 
standards, may include a mix of Federal and State implementation as 
well as provisions to hold States accountable to Federal requirements. 
Standards that are developed jointly by Federal agencies and States, 
however, may result in significant State autonomy regarding how and 
what is implemented, with accountability stopping at the State level. 
See Regulatory Programs: Balancing Federal and State Responsibilities 
for Standard Setting and Implementation, GAO-02-495 (Washington, DC: 
Mar. 20, 2002), for more details.

    Question 2. As you mentioned in your testimony, the GAO reported 
last year that implementation of the national invasive species 
management plan developed by the Council is possibly being hampered by 
the fact that the Council does not have a congressional mandate. Please 
provide comments on S. 536.
    Response. Some of the Federal officials that GAO interviewed for 
the report said that legislative authority, if properly written, would 
make it easier for Council departments to implement the management 
plan. In addition, the Council recognized in the management plan that 
without significant additional resources for existing and new programs 
it would not be possible to accomplish the goals of the plan within the 
specific timeframes. If passed, S. 536 would legislatively establish 
the National Invasive Species Council and authorize funding for the 
purposes outlined in the bill. It would also establish a process for 
monitoring progress implementing the plan that would include reporting 
requirements to the Congress. The components of S. 536 appear very 
similar to those of the executive order. However, while the language in 
the executive order addressing Federal responsibilities for avoiding 
the introduction and spread of invasive species is similar to that in 
S. 536, the level of effort necessary to carry out these 
responsibilities may change if it becomes a legislative requirement.\1\
---------------------------------------------------------------------------
     \1\For example, under the executive order each Federal agency 
whose actions may affect the status of invasive species, to the extent 
practicable and permitted by law, is not to ``authorize, fund, or carry 
out actions that it believes are likely to cause or promote the 
introduction or spread of invasive species . . . unless . . . the 
agency as determined and made public its determination that the 
benefits of such actions clearly outweigh the potential harm caused by 
invasive species; and that all feasible and prudent measures to 
minimize risk of harm will be taken in conjunction with the actions.'' 
S. 536 includes a similarly worded provision but without the ``to the 
extent practicable and permitted by law'' caveat.

    Question 3. What do you think is the best way to focus research 
dollars on aquatic invasive species in general, and more specifically, 
the ballast water standard issue?
    Response. GAO has not done specific work on research needs for 
aquatic invasive species or ballast water standards. Clearly, the 
development of a ballast water standard and related technology will 
require scientific support from research. Regarding addressing invasive 
species in general, overall, the consensus appears to be that 
prevention is the most cost-effective method. Identifying successful 
preventive measures will require conducting research to identify the 
most important pathways for species as well as the species that are 
most likely to enter the United States.

    Question 3a. You stated in your testimony that State officials 
identified ``the lack of legal requirements for controlling invasive 
species'' as a legislative gap in dealing with invasive species. First, 
can you explain how we fill that gap without imposing an unfunded 
mandate on States and localities while providing them with flexibility 
to deal with their specific problems?
    Response. We reported in our testimony that the lack of legal 
requirements for controlling already-established or widespread species 
was the gap in existing legislation on invasive species most frequently 
identified by State officials. Specifically, State officials said that 
this was a problem for species that do not affect a specific commodity 
or are not on a Federal list of recognized invasives. State officials 
noted that if there is no Federal requirement to control such species, 
there is often little money available to do so. These officials believe 
that a legal requirement would raise the priority for addressing these 
species. State officials also identified inadequate Federal funding for 
State efforts as the key barrier to addressing invasive species. 
Therefore, while States indicated a need for additional requirements 
for addressing invasives, there was also a clear call for additional 
funds to carry out needed programs to tackle this difficult problem. 
Additional legal requirements for control, however, would not 
necessarily be directed solely at States as Federal agencies implement 
a wide variety of invasive species control programs and could be given 
additional responsibilities.
    Regarding States' flexibility, in Regulatory Programs: Balancing 
Federal and State Responsibilities for Standard Setting and 
Implementation, GAO-02-495, we discuss different approaches to 
developing and implementing Federal regulations and the amount of 
flexibility these approaches provide to States.

    Question 3b. Does, or how can, S. 525 address this issue?
    Response. GAO did not comprehensively review S. 525. However, there 
are several sections of S. 525 that propose increasing authorizations 
to States to carry out specific programs and activities included in the 
bill.

    Question 4. You stated in your testimony that ``most State 
officials were in favor of integrating legislation on terrestrial 
invasive species with legislation on aquatic invasive species.'' What 
are the advantages and disadvantages of such an approach?
    Response. Regarding the drawbacks of integrating authority for 
aquatic and terrestrial invasive species, many State officials said 
that such an approach could make it difficult to address all possible 
situations with invasive species, with the result that some species or 
pathways could get overlooked. These officials were also concerned that 
integrating legislation could reduce State flexibility in implementing 
invasive species programs. Some State officials also said that the two 
types of invasives should be handled separately because the ecological 
complexities of aquatics and terrestrials are very different-different 
pathways of entry and spread, and different requirements for control 
methods and expertise. In addition, some officials stated that 
combining legislative authority could result in competition among 
various invasive species programs for scarce resources. In particular, 
one official referred to the ``issue of the moment'' phenomenon, where 
a specific invasive species becomes the focus of great public attention 
and receives a large share of resources, while many other species get 
very few resources.
    On the other hand, many State officials saw an increased focus on 
pathways for invasive species-as opposed to focusing on specific 
species-as a possible benefit of integrating authority for aquatic and 
terrestrial invasive species. Such an approach could facilitate more 
effective and efficient efforts to address invasive species. Many State 
officials also believed that integration of legislative authority could 
result in increased coordination between Federal agencies and States. 
Some State officials described the efforts needed to address invasives 
as requiring broad, interdisciplinary coordination and characterized 
the current Federal effort as fragmented and ineffective. In addition, 
some State officials said that classifying species into aquatic or 
terrestrial types might not be clear-cut and that the current 
separation between them is ``an artificial Federal construct,'' citing, 
for example, the difficulty of classifying amphibians.

                                 ______
                                 
    Responses of Barry T. Hill to Additional Questions from Senator 
                               Murkowski

    Question 1. In your testimony, you mention that there is a lack of 
cost-effective control measures for cargo ships and cruise ships to 
address their ballast water discharge. Would setting a specific 
standard for the removal of organisms from ballast water tend to spur 
technological development?
    Response. Technology-forcing standards are designed to induce an 
industry to develop and implement technology that would otherwise not 
be forthcoming, or that would be implemented at a far slower pace. In 
past work, we found that technology equipment manufacturers have little 
incentive to develop new technologies when there is no specific 
environmental standard or requirement (Environmental Protection: Wider 
Use of Advanced Technologies Can Improve Emissions Monitoring, GAO-01-
313 (June 22, 2001)). For example, in the case of technology for 
measuring the emissions of pollutants into the air by industrial 
sources, most air emissions technology improvements had been focused on 
making existing technology more reliable and less expensive because 
there was no regulatory requirement forcing more advanced technologies. 
In these cases, the burden falls on Federal agencies to conduct needed 
research and development on new technologies. However, if a standard or 
requirement is imposed, technology manufacturers and regulators we 
interviewed believed that technology would be developed to meet those 
standards or requirements. As an industry trade association 
representative noted, ``if regulations are imposed, the technology will 
follow.'' However, in some cases, technology development may take 
longer than provided for in regulation. For example, while the Clean 
Air Act required specific automobile emission reductions within 5 
years, the technology was not ready until 6 years after the 
deadline.\2\
---------------------------------------------------------------------------
     \2\Joseph A. Grundfest, The Future of United States Securities 
Regulation: An Essay on Regulation in an Age of Technological 
Uncertainty, Saint John's Law Review, Winter 2001.

    Question 2. What are your thoughts on the introduction of ozone to 
treat ballast water?
    Response. GAO has not conducted an analysis of the treatment 
options for ballast water.

                               __________
   Statement of Lori Williams, Executive Director, National Invasive 
                            Species Council

Introduction
    Thank you for the opportunity to discuss the National Invasive 
Species Council's efforts to deal with the problem of invasive species 
and comment on S. 525, the ``National Aquatic Invasive Species Act of 
2003''. The Council's mission is to enhance coordination and improve 
the effectiveness of Federal efforts, by working cooperatively with 
affected stakeholders, to prevent and reduce the damage caused by 
invasive species to the economy, the environment and in some cases 
animal and human health.
    Today, as requested by the Subcommittee, I will briefly outline the 
role and activities of the Council and present and summarize the views 
and concerns of the Council member departments regarding S. 525, a bill 
to reauthorize the National Aquatic Nuisance Prevention and Control Act 
of 1990.
    Last summer, efforts to eradicate the snakehead fish in Maryland 
put the problem of aquatic invasive species on the front page. The 
threat that this voracious, predator, discovered in a small pond, could 
easily have spread to the Chesapeake Bay if quick action was not taken 
by the State of Maryland and local officials, graphically demonstrated 
the risks of invasive species and their potential destructive capacity. 
The apparent success of Maryland officials in eradicating the snakehead 
and Fish and Wildlife Service moving swiftly to regulate the fish under 
Federal law has unfortunately been, in the past, the exception rather 
than the rule. Too often invasive species have become well-established 
and difficult if not impossible to eradicate or contain by the time 
action is taken.
    The rate of introduction of invasive species has increased 
significantly because of increases in travel, trade, and tourism. 
Invasive species have caused billions of dollars of economic damage. 
Invasive species are the second leading factor in the listing of 
species as endangered or threatened. In some cases they are known to 
degrade ecosystems and harm animal and human health. Invasive species 
do not respect jurisdictional or bureaucratic boundaries. They impact 
Federal land and water resources, States, tribal interests, and private 
landowners, as well as, other nations. Therefore, an effective response 
to these biological invasions must be coordinated, inter-departmental, 
and multi-jurisdictional.
    The Council is charged with coordinating Federal activities 
relating to all invasive species, including aquatic and terrestrial 
species. Although our focus today is on aquatic invasive species, many 
of the issues and proposed solutions are common across all types of 
invasive species. A comprehensive approach including prevention, early 
detection and rapid response, research, control, education and 
outreach, and international cooperation are key elements in any 
strategy to address this complex issue and are included as components 
of the National Invasive Species Management Plan (discussed below).

Overview of the National Invasive species Council (Council)
    The Council was created by executive order in 1999, Executive Order 
13112, (E.O.) not only to address the growing problem of invasive 
species but the need for coordination among Federal programs and the 
lack of a comprehensive Federal plan to deal with the issue. The 
Council is co-chaired by the Secretaries of the Interior, Agriculture, 
and Commerce and includes the Secretaries of the Treasury, State, 
Health and Human Services, Defense, Transportation, and (most recently) 
Homeland Security, as well as, the Administrators of the Environmental 
Protection Agency (EPA) and the US Agency for International 
Development. The E.O. also provides for an Invasive Species Advisory 
Committee (ISAC), which includes a wide variety of nonFederal experts 
and stakeholders to advise the council and provide nonFederal 
perspective and input. The key tasks of the Council, in addition to 
extensive coordination on invasive species programs and budgets are:
    1) drafting and guiding implementation of the National Invasive 
Species Management Plan; (executive summary attached)
    2) working with Department of State to enhance international 
cooperation to prevent and control invasive species;
    3) building partnerships with local, State, and tribal governments;
    4) organizing and providing enhanced public access to invasive 
species information; and
    5) enhancing public education and outreach on invasive species 
issues.
    The Council operates with a small staff--currently four staff with 
plans for seven positions--and depends on the work of departmental 
liaisons, agency staff and detailees. The Council has no separate legal 
and regulatory authority and works through the member departments and 
agencies to address invasive species issues on a cooperative basis with 
significant stakeholder involvement.
    Early in 2001, the Council issues the first edition of the National 
Invasive Species Management Plan. The Plan, which includes 57 action 
items, is a comprehensive blueprint to address invasive species. Recent 
accomplishments include: drafting guidelines for early detection and 
rapid response systems; listing significant pathways for introduction 
of invasive species; establishing (working with USDA's National 
Agricultural Library) an invasive species website that provides 
information about all Federal invasive species programs; enhancing 
international cooperation by co-sponsoring international invasive 
species regional workshops, and beginning work on a North American 
invasive species strategy. In addition, the Council has proposed 
modifications to the Executive Order (now under review) to enhance the 
role of States and tribal interests with the Council. Finally, the 
Council has completed the first, performance-based invasive species 
crosscut budget for fiscal year 2004 in order to leverage Federal 
invasive species programs and resources in three targeted areas, and 
proposes to further strengthen budget coordination in fiscal year 2005.

Relationship between the Council and ANSTF
    While the Council coordinates invasive species issues at the 
departmental level for all types of invasive species, the Aquatic 
Nuisance Species Task Force (ANSTF) provides agency-level coordination 
solely for aquatic species. To avoid any duplication of effort, the 
Council is mandated under E.O. 13112 to coordinate with the ANSTF. 
Currently, NOAA assists this coordination by having Deputy Assistant 
Secretary Tim Keeney serve as their representative to both the Task 
Force and the Council. The Council and ANSTF are considering further 
ways to consolidate and combine similar activities in the area of 
prevention to ensure continued close cooperation and leverage scarce 
resources.

General comments on S. 525
    S. 525 would reauthorize the Non-indigenous Aquatic Nuisance 
Prevention and Control Act of 1990. In my remarks, as requested by the 
Subcommittee, I will provide a brief overview of the Federal agencies 
general comments and concerns regarding the reauthorization bill. 
Following my testimony agency and departmental officials will provide 
additional comments related to their specific concerns.
    We support the reauthorization of aquatic invasive species 
legislation as an important component of addressing aquatic invasive 
(nuisance) species. S. 525 wisely address the full array of aquatic 
pathways (such as hull-fouling, live bait, etc.) in addition to the 
critical problem of ballast water. There is broad support among Council 
members for the bill's comprehensive approach to dealing with aquatic 
invasive species problem that is similar to the approach taken in the 
National Invasive Species Management Plan. In addition to emphasizing 
prevention, it recognizes the need to include a variety of approaches, 
including early detection and rapid response, research and monitoring, 
control, and education. The bill also recognizes the important 
coordination provided by the Aquatic Nuisance Species Task Force for 
solely aquatic issues and the broader level of coordination provided by 
the Council.
    The bill would, for the first time, address planned or intentional 
introductions of invasive species in the aquatic arena by calling for 
the development of a screening process. This process would evaluate 
whether a species being proposed for introduction into the U.S. for the 
first time is likely to become invasive. Screening is also an element 
of the Management Plan and is critical to prevention efforts.
    The bill recognizes and supports important State and regional 
efforts through State aquatic nuisance plans and regional panel 
activities. Partnerships and multi-jurisdictional efforts are essential 
for prevention and control activities. The bill also proposes an 
appropriate role for the Council in providing overall guidance on 
policy (regarding screening), as well as close coordination on policy 
formulation with ANSTF.

Concerns
    Addressing the issue of ballast water, the bill appropriately 
supports Federal efforts to make ballast water standards mandatory. 
Other the provisions of the bill dealing with ballast water are 
problematic in a number of ways that will be addressed in more detail 
by the Coast Guard and other agencies. Most importantly, while 
recognizing the importance of dealing with this issue and the 
frustration with progress to date, it is critical that any treatment 
standard adopted for any ballast water be biologically meaningful, 
based on science and enforceable. It has not been demonstrated that a 
standard based on a kill-rate meets these standards, as is currently 
proposed in S. 525.
    In general, there is concern that some of the provisions of S. 525 
are administratively burdensome and inflexible. DOC notes in their 
testimony that 31 separate deadlines for administrative action within a 
short timeframe (18 months) are included in the bill. In addition, 
numerous reporting requirements raise concerns that scarce resources 
will be taken up filling out reports. Some of the bills provisions (in 
the areas of rapid response and screening for example) are overly 
prescriptive and do not allow the agencies and the Council the 
flexibility needed to develop and test new methods and provide for 
adequate stakeholder input--given the complexity of some of the issues 
and policies involved. Reporting requirements for the States may also 
be burdensome or create possible barriers to rapid action (such as the 
requirement that every State have a rapid response contingency plan in 
place--including a provision dealing with education--before being 
eligible to receive response matching funds).
    The language regarding dissemination of information should be 
clarified. While the Council can and should assist with the 
coordination and dissemination of information, the action agencies 
should remain responsible for dissemination of the information that 
they are charged with collecting. Several agencies involved in this 
effort have particular expertise and infrastructure to disseminate 
information not available to a coordinating body such as the Council.
    Along these lines we note that new spending authorized by S. 525 is 
not currently included in the President's fiscal year 2004 Budget and 
thus the proposal must be considered within existing resources and 
priorities. New requirements included in the bill, such as those for 
education programs, should be integrated into existing efforts.
    As with any comprehensive and complex legislative proposal there 
are areas that need improvement. The other Federal representatives on 
the panel will provide additional detail and discuss their specific 
concerns. The Council is ready to assist the committee with addressing 
these general concerns and additional technical issues to improve the 
legislation.
    I thank the Subcommittee for addressing this important and complex 
issue. Working together is our only means to prevent and mitigate the 
extensive damage caused by invasive aquatic species. Thank you and I 
will be pleased to answer any questions.
                               __________
Statement of Joseph A. Angelo, U.S. Coast Guard, Department of Homeland 
                                Security

    Good morning, Mr. Chairman and distinguished members of the 
Subcommittee. It is a pleasure to appear before you today to provide 
our views on Senate Bill 525 (S. 525), to amend the Nonindigenous 
Aquatic Nuisance Prevention and Control Act of 1990 and to reauthorize 
and improve that Act.
    The Coast Guard is a leader in ensuring America's marine 
environment is protected, and we take great pride in providing valuable 
services to the American people that make our nation cleaner, safer, 
more mobile, and more secure.
    Today, the spread of non-native aquatic species throughout our 
waterways remains a serious and growing national problem. We know all 
too well that once introduced, many of these species are capable of 
disrupting native ecosystems, resulting in lost natural resources, and 
significant mitigation costs. Aquatic nuisance species invasions can 
also cause damage to coastal infrastructure and threaten coastal 
industries.
    In reauthorizing and amending existing Federal aquatic nuisance 
species (ANS) legislation, S. 525 would, among other things, provide 
detailed guidance and requirements for the conduct of a Federal ballast 
water management program and the establishment of a research program to 
support efforts to prevent the introduction of any ANS. We believe this 
bill appropriately identifies significant issues related to improving 
the nation's defense against the introduction of ANS, and that 
reauthorization and amendment of the legislation is necessary to 
effectively address this growing environmental problem. However, we do 
have some specific concerns regarding implementation actions detailed 
in this bill, which we believe should be considered.
    Working under the broad authorities granted by current legislation, 
the Coast Guard's ongoing regulatory efforts are addressing many of the 
ballast water management provisions contained in S. 525. As detailed in 
the transmittal letter accompanying the Secretary of Transportation's 
June 2002 voluntary ballast water management assessment report to 
Congress, mandated by the National Invasive Species Act, the Coast 
Guard is establishing a mandatory national ballast water management 
program. Coast Guard efforts also include: (1) the setting of an 
enforceable and scientifically supportable ballast water treatment 
standard, and (2) establishing a process that will facilitate the 
development, testing and evaluation of promising experimental treatment 
systems. We believe that our current regulatory strategy is both sound 
and aggressive, especially when compared to the current state of 
ballast water management technology, which is very much in its infancy. 
We further believe that the prescriptive requirements and new 
management arrangements contained in S. 525 would unnecessarily 
complicate and inevitably delay the implementation of an effective 
mandatory Federal ballast water management regime.
    We are particularly concerned with the bill's inclusion of a 
proposed interim ballast water treatment standard. However, the interim 
standard that requires the removal of 95 percent of the viable 
organisms taken in by the vessel as specified in the bill, presents 
near insurmountable monitoring and enforcement challenges. In 
consultation with other Federal agencies, the Coast Guard is currently 
assessing various options for biologically protective treatment 
standards, including standards that would be expressed as allowable 
concentrations of organisms in discharged ballast water. In order to 
support the treatment technology evaluation process for a ballast water 
discharge standard, the Coast Guard is working under a cooperative 
arrangement with the Environmental Protection Agency (EPA) and other 
technical experts, to develop verification protocols for ballast water 
treatment technologies. We are also tracking several complementary 
international efforts to develop effective management technologies and 
will use their findings as appropriate in developing our domestic 
program.
    The legislation proposes that the Coast Guard will promulgate the 
regulations for an interim standard, while the EPA will develop the 
final standard. The Coast Guard supports a single standard that is 
scientifically sound and enforceable. The responsibility to develop and 
promulgate a ballast water discharge standard should remain with one 
agency, and we would like the opportunity to work further with the 
Subcommittee in order to clarify specific agency roles.
    Another area of concern is the proposed timelines for implementing 
various aspects of the ballast water management regulatory regime. 
While it is important to promulgate regulations quickly, the timelines 
presented in the proposed legislation may significantly inhibit the 
participation of the stakeholders. Appropriately, existing rulemaking 
procedures provide opportunity for stakeholder input, and accelerating 
the timelines would compromise these processes. The Coast Guard 
receives valuable input from many sectors including the scientific 
community, water treatment technologists, the maritime industry, and 
Federal and State agencies, commenting both on the regulatory aspects 
of our rules, as well as the environmental consequences of these 
rulemakings as agency actions. It is critical to continue to permit 
this information exchange.
    While the Coast Guard is not assigned responsibilities for 
conducting the ecological surveys described in S. 525, the results of 
these surveys will likely be used to evaluate the efficacy of our 
efforts as well as the efforts of other Federal agencies in reducing 
the rate of invasions by aquatic nuisance species. We believe it is 
important to coordinate the development of such surveys with the 
implementing agencies, such as the Coast Guard.
    Thank you for the opportunity to present some of our views on this 
bill today. The Coast Guard looks forward to working with Congress on 
the reauthorization of ANS legislation while we continue our ongoing 
efforts to implement an effective ballast water management regime. I 
will be happy to answer any questions you may have.

                               __________
  Statement of Matt Hogan, Assistant Director, U.S. Fish and Wildlife 
                  Service, Department of the Interior

    Good morning, Mr. Chairman and Members of the Subcommittee. I am 
Matt Hogan, Deputy Director of the U.S. Fish and Wildlife Service (Fish 
and Wildlife Service). The Director of the Fish and Wildlife Service 
serves as a co-chair of the Aquatic Nuisance Species Task Force (ANS 
Task Force) and I thank you, on both his and the Department of the 
Interior's (Department) behalf, for the opportunity to comment on S. 
525, the ``National Aquatic Invasive Species Act.'' The Department, 
working primarily through the Fish and Wildlife Service and the U.S. 
Geological Survey (USGS), has a long history of aggressively working on 
issues related to aquatic invasive species.
    There is no question that the introduction and establishment of 
aquatic invasive species have significantly impacted our natural areas. 
We have only to look at a history of invasions, from the sea lamprey to 
the zebra mussel to the snakehead fish last summer, to understand the 
broad scope of the problem. The United States continues to see a number 
of aquatic species, which may become invasive, crossing our borders, 
and we expect this trend to continue. The Department supports the 
overall direction of this bill and is encouraged by the leadership and 
foresight shown by Congress in addressing this difficult issue. 
However, we have some concerns with the bill, and offer to work with 
the Subcommittee on specific program details. We also note that new 
spending authorized by these bills is not currently included in the 
President's Budget and, as such, these actions must be considered 
within existing priorities.
    We agree with the continued focus on partnerships and cooperative 
efforts to address this nationally significant problem. One of the 
purposes of the original law, the Nonindigenous Aquatic Nuisance 
Prevention and Control Act of 1990, was to encourage Federal and State 
agencies to work with partners to enhance our collective efforts. We 
believe that the partnerships and cooperative entities established 
through the ANS Task Force and the National Invasive Species Council 
(Council) have been instrumental in making significant progress to 
prevent and control aquatic invasive species.
    We support inclusion of research agencies, such as the USGS and the 
Smithsonian Institution, as participants in the Task Force to encourage 
strong links between research and the management of non-indigenous 
aquatic species. The ANS Task Force, authorized by the original Act, 
met recently in New Orleans, Louisiana to discuss the aquatic invasive 
species issues specific to the Gulf of Mexico region. Over the last 12 
years, the Task Force has held meetings throughout the country to 
better understand regional invasive species issues, increase awareness, 
and enhance coordination efforts with local and regional entities.
    The Task Force has been successful in establishing additional 
Regional Aquatic Nuisance Species Panels, bringing together 
governmental and private entities to coordinate aquatic invasive 
species activities at a regional level. The 1990 Act authorized the 
Great Lakes Panel, and the National Invasive Species Act of 1996 (NISA) 
authorized the establishment of a Western Regional Panel. NISA also 
recommended that the ANS Task Force establish additional panels. Three 
additional panels have been established since 1997, the Gulf of Mexico 
Panel in 1999, the Northeast ANS Panel in 2001, and the Mississippi 
River Basin Panel in 2002. The ANS Task Force is also encouraging the 
establishment of a Mid-Atlantic Panel and a Pacific Islands Panel. The 
ANS Task Force is proud of many of the accomplishments made over the 
last decade including enhancement of regional coordination on aquatic 
invasive species issues. While invasive aquatic species continue to be 
a significant threat to our natural resources, we believe our efforts 
to prevent and control aquatic invasive species have resulted in fewer 
species introduced and reduced impacts from those that have become 
established.

In General
    Let me begin by saying that, while we have some concerns with the 
bill, we support reauthorization and want to work with you and your 
staff to address some technical details. As this bill is very 
comprehensive, we will limit our comments today to several general 
areas. One general area of concern relates to the number of reports and 
proposed deadlines required by
    S. 525. We hope to have the opportunity to work with you and your 
staff to try to consolidate some of these reporting requirements to 
ensure that we can implement the activities outlined in the Act 
aggressively, but also that the timeframes established are meaningful 
and manageable.

Ballast Water
    We believe that substantial progress has been made regarding the 
management of ballast water; however, much remains to be done. Through 
NISA, Congress required that the Coast Guard develop voluntary 
guidelines for ballast water management, and that those guidelines be 
made mandatory if the industry did not comply with the guidelines or 
did not adequately report on compliance. In 1996, as required by NISA, 
the ANS Task Force provided the Coast Guard with a report outlining the 
criteria for determining the adequacy and effectiveness of the 
voluntary guidelines. The Coast Guard utilized the input from the ANS 
Task Force and submitted their report to Congress on the Voluntary 
Guidelines for Ballast Water Management, which outlined a process to 
transition to a mandatory program. The Department supports the Coast 
Guard's ongoing efforts to transition from the voluntary national 
program to a mandatory program, as well as efforts to establish a 
standard to serve as the benchmark for ballast water management 
options, and we urge a continuation and emphasis for research on 
ballast water management to assure that the resulting standards are 
effective and environmentally sound.

Pathways
    While ballast water has been acknowledged as one of the leading 
vectors of introduction, we are encouraged to see that additional 
emphasis is being placed on other aquatic pathways. Some of these other 
pathways include bait fish, the aquarium and pet trade, horticulture, 
and live food. This additional emphasis will encourage the development 
of management actions, which may minimize the threats from new aquatic 
invasive species that have the potential to impact our fish and 
wildlife populations and associated habitats. We support interagency 
priority pathway research and management efforts to identify high risk 
pathways and develop management strategies to address them. In 
developing its strategic plan last year, the ANS Task Force also 
identified the management of pathways by which invasive species are 
introduced as a vital action to prevent future establishment of aquatic 
invasive species. A number of the actions called for in this bill are 
similar to those included in the ``Prevention'' section of the 
Council's National Invasive Species Management Plan (Plan). A copy of 
that plan is available at the following web address: http://
www.invasivespecies.gov/council/nmp.shtml

Screening of Planned Importations
    The Department has recognized the need for the development of a 
screening process for planned importations of live aquatic organisms. 
Having the opportunity to evaluate new non-native species that are 
proposed to be imported into the United States is an invaluable tool to 
ensure that we are proactive in preventing the introduction of new 
aquatic invasive species into United States waters. An example of the 
need for such a tool is the discovery last summer of a population of 
snakehead fish in a pond in Maryland.
    Snakehead fish are an aquatic invasive species that are sold live 
for food or as aquarium pets. Snakeheads are top predators that 
multiply quickly and have several special features that enhance their 
ability to survive in wild. In addition to the population found in 
Maryland, another population was found a year ago in Florida. After the 
discovery in Florida during the summer of 2001, the Fish and Wildlife 
Service and the USGS initiated a risk assessment to gather scientific 
information to determine the injurious nature, and potential impacts, 
of snakeheads. Data from this risk assessment indicated that the 
snakeheads were indeed detrimental and the Fish and Wildlife Service 
began the process of listing snakeheads as injurious wildlife. That 
process was completed when a final rule was published on October 4, 
2002. That rulemakes it illegal under the Lacey Act to import into the 
United States or transport across State lines all members of the 
Channidae family, including the 28 currently recognized species and any 
species that may be classified under the Channidae family in the 
future.
    While the Injurious Wildlife provisions of the Lacey Act give the 
Fish and Wildlife Service the ability to evaluate and list species as 
injurious, the nature of the law makes our efforts more reactive than 
proactive. The screening process outlined in the proposed legislation 
is an example of a more proactive and effective approach to preventing 
introductions of aquatic invasive species.
    Having recognized the need for improved screening, the Council's 
Plan, which I previously mentioned, also calls for working with key 
stakeholders to develop and test a screening process for intentionally 
introduced species. Preliminary work to develop this system has begun 
in conjunction with the ANS Task Force. We also recommend the 
development of risk assessment methods to evaluate the potential threat 
of species that have not yet been introduced. This will be critical in 
making our screening efforts effective. The Department, the Council, 
and the ANS
    Task Force would like to work with the Subcommittee to consider 
whether the specifics of this proposal should be revised during the 
legislative process.
    We are concerned about the provisions in section 105 (b) that 
delegate authority to screen species for use in aquaculture only to the 
U.S. Department of Agriculture. Because of the risk to native fish and 
wildlife, we believe that both the Fish and Wildlife Service and the 
National Oceanic and Atmospheric Administration (NOAA), in the 
Department of Commerce, should also have a role in screening species 
imported to be used in aquaculture.
    In addition to evaluating potentially invasive species through the 
screening process, the Fish and Wildlife Service would also be 
responsible for enforcement of the resulting regulations. Currently, 
the Fish and Wildlife Service has 92 uniformed Wildlife Inspectors at 
32 staffed ports. In 2002, there were 121,171 wildlife shipments that 
were imported or exported through the United States. Of those, 27,218 
or 22.5 percent were physically inspected. The added workload 
associated with developing the guidelines and regulations, conducting 
the evaluations, and ensuring effective compliance will be substantial. 
Given the comprehensive nature of this provision, it will be necessary 
to work cooperatively with other agencies that may also have 
responsibility for aquatic invasive species. We embrace the opportunity 
to work with these other agencies to develop an effective and efficient 
screening process that is protective of both the human and natural 
environment.

State ANS Plans
    The State ANS Management Plan provisions have been very successful 
and we are happy to see that the program is continued. The ANS Task 
Force developed guidelines to help States develop ANS plans, and made 
those guidelines available to the States in 2000. As outlined in the 
bill, the ANS Task Force will update and enhance those guidelines to 
address additional components related to early detection and rapid 
response, aquatic plant control and screening of planned importations. 
We look forward to continuing collaborative work with the States on 
their efforts to more effectively address invasive species issues. The 
ANS Task Force provides us with an excellent venue to pursue these 
collaborative partnerships. In fact, the ANS Task Force and its 
Regional Panels have encouraged the continued development of State and 
Interstate ANS Management Plans. There are currently 13 State and 
Interstate Plans approved by the ANS Task Force and a number of other 
States are in the process of developing plans. The Fish and Wildlife 
Service provided cost-share grants to 15 States and tribes to implement 
those approved plans in Fiscal Year 2003. Several additional States are 
expected to submit their plans to the ANS Task Force for approval in 
2004.

Cooperative Control/Management Plans
    The ANS Task Force also has a long history of developing and 
implementing cooperative control and management plans. For example, 
plans for brown tree snake and Eurasian ruffe were developed in the 
mid-1990's, and the ANS Task Force is currently developing management/
control plans for the Chinese mitten crab and Caulerpa taxifolia, a 
marine algae. The objectives of these plans are to outline strategies 
and actions to control or manage aquatic invasive species. These plans 
are developed and implemented cooperatively by Federal, State, and 
regional entities where appropriate.

Early Detection and Monitoring
    We support the objectives addressed in Section 301. An early 
detection network based on the best available science is important to 
reducing the impacts of invasive aquatic species.

Information, Education and Outreach
    Education and outreach continue to be critical elements to the 
success of invasive species prevention and control. Within the 
Department, the Fish and Wildlife Service has been actively working for 
many years on a 100th Meridian Initiative to stop the westward spread 
of zebra mussels and other aquatic invasive species. The bill proposes 
to enhance these efforts through increased and targeted outreach and 
education efforts. The ANS Task Force and the Fish and Wildlife Service 
have established a public awareness campaign known as Stop Aquatic 
Hitchhikers! that targets aquatic recreation users and promotes 
voluntary guidelines to ensure that aquatic invasive species are not 
spread through recreational activities. Stop Aquatic Hitchhikers! 
complements the 100th Meridian Initiative and was designed to unify the 
conservation community to inform recreation users about the issue and 
encourage them to become part of the solution to prevent the spread of 
aquatic invasive species.
    The National Park Service also provides information to millions of 
visitors every year regarding conservation of natural and cultural 
resources. The Act, as amended, recognizes the vital role that the 
National Park Service has in education and outreach on resource 
conservation and, more specifically, during the commemoration of the 
Lewis and Clark Bicentennial Expedition. Invasive species education and 
information, integrated within ongoing educational efforts, will 
provide critical context to increase understanding of the impacts of 
invasive species on natural resources.
    Again, we applaud the legislation's multi-agency approach to 
education and outreach as there are already significant efforts to 
coordinate the dissemination of information. One example is the 
National Biological Information Infrastructure (NBII), an extensive 
information network already in wide public use, which can be utilized 
as a means to facilitate public access to survey, monitoring, and risk 
assessment information.

Aquatic Invasive Species Research
    We are encouraged by the increased emphasis on research and 
monitoring efforts in the bill. In its strategic planning effort, the 
Task Force determined that additional actions were needed and 
restructured its committees to better address these problems. Key areas 
addressed in the legislation, including pathways, ballast water 
management, early detection and monitoring and control, can only be 
successful if they are based on sound research.
    We recognize the need for methods for rapid assessment of newly 
detected aquatic species, and recommend that adequate resources for 
conducting such assessments be included as an integral component of 
coordinated planning for rapid responses. We recommend that particular 
attention be given to expanding and coordinating existing data bases, 
such as the USGS's National Non-indigenous Aquatic Species Data base, 
which provides basic scientific information for addressing invasive 
species threats. Finally, we recommend that the legislation ensure 
better coordination among the agencies and organizations that collect 
and store invasive aquatic species information, and we offer our 
assistance to the Subcommittee in this regard.

Conclusion
    In closing, I want to thank you for providing the Department with 
an opportunity to comment on this legislation. As I stated earlier, we 
are happy to work with you and your staff on programmatic and other 
technical issues.
    Mr. Chairman, this concludes my prepared remarks. I am happy to 
respond to any questions you or the other Committee members may have.

                               __________
    Statement of Timothy R.E. Keeney, Deputy Assistant Secretary of 
 Commerce for Oceans and Atmosphere, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

    Good morning, Chairman Crapo and Members of the Subcommittee. I am 
Timothy Keeney, Deputy Assistant Secretary of Commerce for Oceans and 
Atmosphere and the National Oceanic and Atmospheric Administration 
(NOAA) co-chair of the Aquatic Nuisance Species Task Force. I 
appreciate the opportunity to present NOAA views on S. 525, which would 
reauthorize the Nonindigenous Aquatic Nuisance Prevention and Control 
Act as amended by the National Invasive Species Act of 1996.
    I begin my testimony with some observations on the evolution of the 
Act which mirrors our current state of understanding of aquatic 
invasive species. I will then comment on some general concerns with the 
legislation as currently drafted, and finally I will touch on some 
specific provisions of the bill.
    When the Act was first passed, the focus was on a single species 
the zebra mussel, a single region the Great Lakes, and a single pathway 
ballast water. It subsequently became obvious that the problems caused 
by invasive species generally, and aquatic invasive species 
specifically, are broader than originally envisioned and this was 
reflected in the 1996 amendments. This recognition is further reflected 
in S. 525, and the bill would constitute a major rewrite of the 
existing law if it is enacted.
    Last year, the Aquatic Nuisance Species Task Force adopted a 5-year 
strategic plan in which we assessed current activities and looked at 
areas requiring additional attention. In several areas, the Task 
Force's conclusions are similar to issues addressed in this 
legislation. S. 525 addresses some gaps in our existing programs.
    Even though ballast water continues to be the most significant 
pathway for new introductions into coastal waters, there is a need to 
systematically assess other pathways to determine how best to interdict 
them as well as prevent invasions from occurring. Finally, the Task 
Force recognized that education and research are important supporting 
elements for all invasive species activities. The importance of these 
activities is emphasized in the pending legislation.
    There is a need to develop an early detection and rapid response 
mechanism in order to detect invasions while they are still localized 
and to control them before they spread. Recognizing this, the Task 
Force already has asked its Regional Panels to prepare rapid response 
contingency plans. The first of these plans, prepared by the Western 
Regional Panel, was approved by the Task Force in November. The 
Northeast Regional Panel began to work on its plan at a meeting last 
month, and the Great Lakes Panel will work on its plan at a meeting 
next week.
    NOAA is acutely aware of both the economic and environmental 
impacts of aquatic invasives and strongly supports the existing 
program. We also support reauthorization of the program. Nevertheless, 
we have significant concerns about both general and specific provisions 
of the pending legislation.
    Our first general concern is that the bill requires 31 separate 
actions each with deadlines that must be completed by members of the 
Aquatic Nuisance Species Task Force within 18 months of passage. It 
will be difficult to simultaneously give all of these actions the level 
of attention they deserve in the time allowed. In some instances, the 
Task Force has already initiated action and the deadlines are 
reasonable. In other cases, it will be necessary to develop capacity to 
implement the activities. We recommend that the Committee assess the 
priority level of each of these actions and allow for additional time 
for lower level priority activities. We would be happy to work with the 
Committees on such an assessment.
    Similarly there is a multiplicity of reporting requirements. Each 
report will require a significant commitment of resources that could 
actually inhibit implementation activities. NOAA recommends that there 
be a single reporting requirement and that the Committee identify 
elements to be included in the report.
    Title IV of the legislation contains several elements that are 
duplicated in other sections of the legislation. In at least one 
instance, different agencies are identified to implement the same 
activity. Areas that are duplicated include ecological surveys and 
developing protocols for those surveys, pathway analysis, performance 
tests for ballast water exchange, and dispersal barriers.
    In addition to these general concerns, NOAA has concerns with a 
number of specific proposals.
    Even though progress has been made, ballast water still remains the 
most significant pathway for new introductions of nonindigenous species 
into coastal waters. Title I of the legislation recognizes that we 
still have work to do in this area. Nevertheless, NOAA believes that 
some of the elements in Title I need to be revised.
    During the last re-authorization in 1996, the need to develop more 
effective ballast water management was recognized. As the Coast Guard's 
report to the Congress last June pointed out, compliance with the 
voluntary guidelines, even to the extent of reporting, has not been 
satisfactory. Since 1996, we have continued to see the introduction of 
non-native species into coastal areas, and the situation has been 
serious enough that west coast States have acted independently to 
require ballast water management measures. The Federal Government 
should develop a coordinated nationwide response to ensure that the 
shipping industry is not burdened by a variety of standards in 
different geographic locations. Such action is possible under existing 
law, and the Coast Guard, in its report to Congress on compliance with 
voluntary guidelines, has indicated that it would take steps to issue 
national standards. We support the Coast Guard's efforts to establish 
mandatory guidelines and appreciate the Committees' support of such 
efforts.
    The bill requires that rapid response measures be included in a 
ship's invasive species management plan. As I indicated earlier, NOAA 
supports additional efforts on rapid response. We cannot envision, 
however, that all ships would be aware of each State's rapid response 
contingency plan. Since such plans are likely to vary among the States, 
preparation for compliance with such provisions by the shipping 
companies may be unnecessarily problematic. The primary purpose behind 
a ballast water management plan should be to reduce the risk that a 
ship will be the source of new inoculations. The major responsibility 
for a ship during a rapid response is likely to be either not entering 
an area where a rapid response action is occurring, not loading ballast 
water which could contribute to the spread of an invasive species, or 
not discharging water known to have originated from a rapid response 
area. Rather than require a rapid response plan for unknown organisms 
in a multiplicity of areas, the better approach would be to require 
that a ship cooperate with State governments during a rapid response 
effort.
    NOAA is aware of the frustration in developing a standard for new 
ballast water treatment technologies. We believe that ultimately there 
needs to be a discharge standard based on sound science that is 
biologically meaningful and enforceable. NOAA is concerned about a 
``kill rate'' being used as a standard. Although a 95 percent kill rate 
may reduce the risk of new invasions, there may be difficulties posed 
with verification and enforcement. In addition to verification and 
enforcement difficulties, there is no scientific evidence that a 95 
percent ``kill rate'' reduces the risk of new invasions. Verification 
of kill rates may also be impractical because in order to prove such a 
kill rate both the departure point and the discharge point must be 
sampled. There also could be a significant gap in coverage by this 
standard. What is killed can be as important, if not more so, then what 
percentage is killed (e.g., the phytoplankton that cause harmful algal 
blooms). Some algal blooms in other countries have been attributed to 
ballast water introductions. Concentrations of up to 10 million cells 
per liter have been documented during some blooms. For such species, 
the normal maximum for shellfish safety is 5,000 cells per liter. A 
technology could successfully kill 95 percent of the organisms and 
still be at an order of magnitude above what is safe for human health. 
The Coast Guard, in cooperation with other Federal Agencies, is 
currently assessing various options for the standards, including 
standards based on allowable concentrations of organisms. This process 
should be allowed to continue in order to ensure that the standards are 
biologically meaningful and technologically feasible.
    NOAA fully supports the provision in Sec. 1101(b)(4) which would 
allow approval of experimental technologies for ballast treatment, but 
we wonder if it was really the intent of the Congress that such 
authority expire after 18 months. NOAA believes that a provision for 
onboard testing of promising technologies should remain in place until 
final standards become effective, and we suggest that it may be useful 
to allow testing of experimental technologies on board ships even after 
the standard is in place.
    In Title II Section 1105(e)(2), the Congress may intend that there 
be a permitting requirement for exceptions to a prohibition on 
importation, but NOAA suggests that such a procedure be made explicit. 
A formal permitting process would enable the Federal agency of 
jurisdiction to place restrictions on handling of organisms after they 
are imported. As examples, subsequent transfer of organisms to third 
parties could be prohibited, or instructions for proper disposal could 
be included. NOAA also suggests that, with a formal permitting 
requirement, the exception could be expanded to include entities such 
as commercial aquaria which might want to develop educational displays 
on invasive species.
    NOAA is also concerned about the provision that grants the 
Department of Agriculture the sole authority to screen species proposed 
for aquaculture use. NOAA believes that the end use of an importation 
is irrelevant to whether or not a species is invasive. We are concerned 
because, in the case of aquaculture, what is most often cultured are 
wild species normally under the jurisdiction of either NOAA or the U.S. 
Fish and Wildlife Service. In addition, aquaculture is not limited to 
closed systems. Often species such as oysters and clams are released 
into natural ecosystems. We would also point out that much of the 
scientific expertise for making determinations on aquatic imports is in 
the management agencies. In order to make such determinations, 
information on life history and impacts on natural ecosystems and 
native species is necessary. Finally, if end use helps to determine 
whether a species should be prohibited, we could end up with 
contradictory decisions. The recent case of the northern snakehead is 
illustrative. The fish released into the local pond were imported for 
human consumption and would presumably be under the authority of the 
U.S. Fish and Wildlife Service. The same species has been cultured in 
Hawaii and a determination of invasiveness would presumably be made by 
the Department of Agriculture.
    As I indicated above, NOAA recognizes that an additional effort 
needs to be made on rapid response. We also recognize rapid response 
activities must involve State and Local governments. Finally, as co-
chair of the Aquatic Nuisance Species Task Force, we are more than 
willing to add a rapid response contingency plan as one of the 
components of State Management Plans. We do not believe, however, that 
having such a plan in place should be a prerequisite for receiving 
matching funds for rapid response to serious invaders. If an invader 
presents a serious enough threat to warrant a rapid response action, 
the response should be made whether a State has developed a contingency 
plan or not.
    Similarly, while any activities to improve early detection should 
be encouraged, NOAA does not believe that an early detection strategy 
should be a prerequisite for a rapid response plan. Recently, 
considerable attention has been given to the economic difficulties 
facing State governments, and the monitoring necessary for an effective 
early detection strategy can be quite costly. Such a provision actually 
may discourage States from developing rapid response plans. As 
indicated above, we could be in the incongruous situation of being 
unable to respond to a serious invasion because a State does not have a 
monitoring program set up.
    Finally, while education and outreach is an essential part of 
prevention and control activities and could be an important element of 
a response and is already included in the guidelines for State 
Management Plans, a rapid response is essentially an emergency response 
and requirements to have education and outreach provisions in place for 
addressing pathways and industries which may introduce species is not 
an appropriate requirement for a response strategy.
    The Aquatic Nuisance Species Task Force is already working with its 
Regional Panels to develop regional rapid response plans, and NOAA is 
providing funding during the current fiscal year to help the Panels 
develop such plans. The first plan, developed by the Western Regional 
Panel, has been completed and approved by the Task Force. As currently 
written, the Task Force would be responsible for encouraging 
development of such plans, but the Coast Guard would be responsible for 
formal approval. NOAA suggests that the Task Force, which includes the 
Coast Guard, is the appropriate entity for approval of such plans. It 
is important that management agencies are included in this process 
which would be accomplished by giving the Task Force responsibility for 
formal approval.
    NOAA supports the increasing emphasis on research in Title IV and 
elsewhere in the bill. The science involved with aquatic invasives is 
much less advanced than the science dealing with terrestrial invasives 
particularly as they relate to livestock and crops. While some of our 
colleagues in the Department of Agriculture have been dealing with weed 
and insect problems for most of the last century, the science of 
biological invasions in aquatic ecosystems is still very young. The 
Aquatic Nuisance Species Task Force has recognized that virtually every 
activity from prevention to control to restoration needs to have a 
scientific underpinning. Over the last decade, considerable progress 
has been made much of which has been the result of the competitive 
grant program administered by the National Sea Grant Program under 
Sec. 1202(f), but there are still areas in which our knowledge is 
seriously deficient.
    I would like to discuss two areas as an illustration of our current 
challenges.
    First, there is inadequate monitoring in aquatic systems. In many 
instances, we do not even have baselines so that we know when a serious 
new invader has been introduced. This also hampers efforts to 
characterize invasion rates, and without monitoring activities, early 
detection and rapid response occur only by chance. It should be noted 
that there are exceptions, but they are limited to specific geographic 
areas. As an example, the Aquatic Nuisance Species Task Force sponsored 
study of San Francisco Bay by Cohen and Carlton is outstanding in 
documenting nonindigenous species occurrence in that ecosystem and is 
often cited even in terrestrial studies. A similar study of Chesapeake 
Bay sponsored by U.S. Fish and Wildlife Service and performed by the 
Smithsonian Environmental Research Center provides a very good baseline 
for Chesapeake Bay. Both the Aquatic Nuisance Species Task Force and 
NOAA recognize this shortcoming and have taken first steps to correct 
the deficiency in monitoring. The U.S. Fish and Wildlife Service 
sponsored a workshop on developing protocols and requirements for an 
effective monitoring program in aquatic ecosystems, and earlier this 
year, NOAA's National Ocean Service conducted a similar workshop for 
monitoring within the National Estuarine Research Reserve System. Title 
IV of the bill would take steps to address this gap by requiring the 
development of protocols and setting up a monitoring system.
    Second, our scientific knowledge of control methods in aquatic 
environments is still in its infancy, and control in aquatic ecosystems 
present unique problems. Because water is a medium which will move 
chemicals from one place to another, it is much more difficult to 
localize biocide applications. In addition, there is special concern 
that available chemicals are not species specific. Last summer when the 
State of Maryland used rotenone to eradicate the northern snakehead 
from a pond near Washington DC, it should be noted that the application 
was in a small body of water and that all other fish species were also 
killed. Obviously, there are only limited circumstances when such a 
method can be used. There are even taxonomic groups for which there is 
no scientific knowledge of control methods. NOAA confronted this issue 
two summers ago when there was a bloom of spotted jellyfish in the Gulf 
of Mexico. We recognized that the species was having a major impact in 
localized areas and was affecting commercial fisheries, but we were in 
a situation where nobody had ever tried to control jellyfish in the 
past.
    With the exception of aquatic weeds, where the Army Corps of 
Engineers and the Agriculture Research Service have had some notable 
successes, we also have just begun to look at biocontrol agents. We do 
have some promising results, though, with a pathogen that could be used 
for zebra mussel control. In a project funded by NOAA Sea Grant and the 
U.S. Fish and Wildlife Service, a researcher has found that a 
pseudomonas bacterium causes extremely high mortality in zebra mussels 
and preliminary results indicate that it may be species specific. To 
show the difficulty in finding an acceptable biocontrol agent, it 
should be noted that the researcher looked at over 600 different 
pathogens. In addition, once such a pathogen is found, it is necessary 
to make sure that the biocontrol agent will not affect native species. 
This is particularly important in this case because many of our native 
bivalves are already listed as threatened and endangered.
    Chairman Crapo and Members of the Subcommittee, the legislation 
before you builds on the previous Act and addresses some gaps that have 
already been identified by the Aquatic Nuisance Species Task Force. S. 
525 would be major rewrite of existing law, and as with any complicated 
piece of legislation, there are some technical difficulties, and we 
would be happy to work with the Subcommittee to address them. Among 
these issues, we note that new spending authorized by this bill is not 
currently included in the President's Budget, and as such, these 
actions must be considered within existing priorities. As one of the 
trustees for marine and coastal resources, NOAA has been aware of the 
problems caused by aquatic invasive species and recognized that we have 
a responsibility to help prevent these invasions and reduce the impact 
if such invasions occur. NOAA also recognizes that we cannot be 
successful without partnerships with other Federal agencies, State and 
local governments, and the private sector. We are pleased that the 
proposed legislation places an increasing emphasis on such 
partnerships. Thank you for allowing me the opportunity to present the 
Department of Commerce's views on this topic. This concludes my 
testimony, and I would be happy to answer any questions you may have.

                                 ______
                                 
 Responses of Timothy R.E. Keeney to Additional Questions from Senator 
                                 Allard

    Question 1. This legislation requires that each State have a rapid 
response contingency plan. If the Federal Government requires such a 
plan, how do we ensure that all ships that discharge ballast waters are 
aware of each State's plan?
    Response. As I indicated in my testimony, NOAA is opposed to the 
provision that States that a ship will have a rapid response plan as 
part of its ballast water management plan. It would be problematic to 
develop a plan that would take into account different State contingency 
plans. The major responsibilities for a ship during a rapid response 
are likely to be: (1) not entering an area where a rapid response 
action is occurring, (2) not loading ballast water which could 
contribute to the spread of an invasive species, or (3) not discharging 
ballast water known to have originated from a rapid response area. In 
the case of a rapid response effort, the major requirement for ships 
should be to cooperate rather than to have some sort of rapid response 
plan specific to an individual ship in place. Port authorities 
currently have authority to place conditions on a ship entering its 
port and thus, if necessary, it can place specific conditions on a 
particular ship in the event that it is necessary to facilitate rapid 
response efforts. Therefore, under such conditions, a State specific 
plan may not be necessary.

    Question 2. The legislation proposes that the Coast Guard will 
promulgate the regulations for an interim standard, while the EPA will 
develop the final standard. The Coast Guard supports a singe standard 
that is scientifically sound and enforceable, and EPA has concerns that 
they should be the ones in charge, as well as issues of rule 
promulgation sharing. Some before this committee should believe that 
the responsibility to develop and promulgate a ballast water discharge 
standard should remain with one agency. How should this be addressed? 
Who is the right agency?
    Response. NOAA believes that the Coast Guard is the appropriate 
agency to develop the ballast water discharge (BWD) standard. The Coast 
Guard is well along in the process, having already begun developing the 
Environmental Impact Statement (EIS) required under the National 
Environmental Protection Act (NEPA) for a BWD standard. EPA, NOAA, and 
FWS are cooperating agencies under the Council on Environmental Quality 
(CEQ) regulations.

                                 ______
                                 
Response of Timothy R.E. Keeney to an Additional Question from Senator 
                               Murkowski

    Question 1. As you know, there are other sources of invasions 
besides ballast water. In Alaska, State authorities consider Atlantic 
Salmon a serious threat to Alaska species such as salmon and trout due 
to competition for prey, possible competition for habitat, and 
predation. These fish commonly escape from fish farms in British 
Columbia and Washington and have been recovered in Alaska as far north 
as the Bering Sea. Is it appropriate for a national plan of attack 
against invasive species to address this source? If so, how?
    Response. It is appropriate that the legislation place additional 
emphasis on pathways other than ballast water, and certainly 
aquaculture is a potential pathway. Historically, movement of species 
from one area to another for commercial purposes has been a significant 
source of introductions. To cite just a couple of examples, the 
Japanese oyster drill was introduced with oyster stocks, and net 
profits in areas where the oyster drill is present in the State of 
Washington are reduced by 50 percent. Genetic studies indicate that 
MSX--one of the two diseases that has devastated oysters in the 
Chesapeake Bay--probably was introduced from Asia. It should be noted, 
however, that actions taken by the aquaculture industry have reduced 
the risk of such introductions in the future. As an example, the 
Atlantic States Marine Fisheries Commission has set up a protocol on 
the movement of shellfish from one area to another.
    As a first step in addressing the issue of Atlantic salmon escapes 
on the west coast, NOAA has provided funding to the Pacific States 
Marine Fisheries Commission for a workshop on Marine Aquaculture: 
Effects on the West Coast and Alaska Fishing Industry. The purpose of 
this meeting was to bring together representatives from both the 
commercial fishing industry and the aquaculture industry to determine 
how a series of issues can best be addressed. The meeting was held in 
Seattle on November 17-19, 2003.

                               __________
  Statement of G. Tracy Mehan III, Assistant Administrator for Water, 
                  U.S. Environmental Protection Agency

    Good morning, Mr. Chairman and Members of the Committee. I am Tracy 
Mehan, Assistant Administrator for Water at the U.S. Environmental 
Protection Agency (EPA). I appreciate and welcome this opportunity to 
discuss the provisions of S. 525, and to consider the continuing 
challenges ahead to protect water quality, human health and the 
environment against invasive species.

                              INTRODUCTION

    The Environmental Protection Agency shares the Subcommittee's 
concerns about protecting the Nation's waters against invasive species. 
We commend the Subcommittee and others for bringing attention to the 
problems and threats created by invasive species. As you may know, I 
came to EPA from Michigan, the Great Lakes State, where interactions 
among over 160 known aquatic invaders have severely affected the local 
ecosystem structure. Introductions can create new competition, change 
trophic levels, alter habitat and impact species interaction. Invasive 
species have become one of the greatest threats to U.S. waters and 
ecosystems. In fact, invasive species are regarded by biologists 
worldwide as the second greatest threat to biodiversity, behind habitat 
loss. Invasive species are also a costly economic problem, causing the 
United States billions of dollars worth of damage each year.
    The complexity of the freshwater, estuarine and marine ecosystems, 
combined with the increased rate of unwanted introductions and more 
susceptible environments, contributes to making invasive species a 
major challenge in U.S. waters. Invasive species can successfully 
invade aquatic ecosystems through a wide variety of pathways, including 
but not limited to vessel activities, aquaculture, aquarium trade, fish 
stocking, live bait, and research activities.
    Most recently, vessels have been the major focus for invasive 
species issues. As ballast water is drawn into a ship, living organisms 
are removed from their native water environment and brought on board 
the vessel. Then these organisms may be discharged into a new 
environment. Survival in a new environment is based on a number of 
physical, chemical and biological factors, such as temperature, 
salinity, and the presence of other organisms that might prey upon the 
invaders. Advanced ship technology is also playing a role in invasive 
species survival by allowing ships, and any hitch-hiking organisms, to 
travel faster and farther. It is estimated that more than 10,000 marine 
species (e.g., zebra mussel, Asian clam, green crab) are transported 
each day in ballast water, allowing new invasions to occur regularly in 
coastal waters.
    Other vessel vectors that are of great importance are hull fouling, 
i.e., organisms attached to the hull, and No Ballast on Board or 
(NOBOB) vessels. NOBOB vessels contain sediments and water slurry that 
is unpumpable and may get resuspended and discharged. Studies indicate 
that NOBOB vessels can carry viable organisms in the sediment and 
residual ballast water, creating additional opportunities for the 
establishment of invasive species. Over the past 9 years, approximately 
85 percent of all ships entering the Great Lakes via the St. Lawrence 
Seaway have been NOBOB vessels. The remaining 15 percent of the vessels 
entering the Great lakes were required to perform ballast water 
management. However, the Great Lakes are still being invaded by non-
indigenous species, at an average of one invader every 8 months. 
Approximately 15 new species have invaded the Great Lakes since mid 
oceanic exchange of ballast water was mandated in 1993. This is the 
same number of invasions that occurred during the 1970's and 1980's, 
indicating that current ballast water management efforts are not 
completely effective. Overall, the current rate of invasions in the 
Great Lakes is 66 percent higher than one hundred years ago.
    The impacts of invasive species are immediate and often 
irreversible. If left unchecked, the number, density, and rates of 
species transfers are expected to increase, and along with them, 
impacts on our ecosystem, socio-economic well-being, and human health. 
Prevention, reduction, and eradication are all integral parts of 
dealing with invasive species. Prevention is critical to success, as 
once invasive species have become established, eradication is often not 
an available or successful tool. In order to be most effective, we need 
an integrated national response. We need management programs, including 
regulatory and non-regulatory approaches, rapid response efforts, early 
warning systems, development of control technologies, research, 
monitoring and education. Aggressive efforts are vital, otherwise 
introductions will continue to destroy our native environments and our 
coastal resources.

                             EPA ACTIVITIES

    Faced with the scope and magnitude of this threat, our collective 
efforts to develop policies, conduct research and make programmatic 
decisions, informed by rigorous scientific and technical studies, are 
crucial. The control of invasive species is important to EPA, and we 
look to our partners in the U.S. Coast Guard, other Federal agencies, 
States and Tribes, and the port and shipping industries to move 
expeditiously to help us meet this major challenge to the health of our 
nation's coastal and ocean resources. We look forward to expanding our 
partnerships as we make progress against these invaders.
    EPA continues to work with the Aquatic Nuisance Species Task Force, 
chaired by U.S. National Ocean and Atmospheric Agency (NOAA) and U.S. 
Fish and Wildlife Service (FWS), and the National Invasive Species 
Council on issues ranging from the national and international control 
of ballast water discharges to the regional management and control of 
individual invasive species. As a member of the U.S. delegation on the 
Marine Environment Protection Committee to the International Maritime 
Organization, EPA is helping to negotiate an international ballast 
water treaty and standard to address ballast water discharges from 
ocean-going vessels.
    EPA is also assisting the Coast Guard in the development of 
mandatory ballast water management regulations and in the development 
of standards for ballast water discharge. These regulations are vital 
to our ongoing efforts to prevent invasions from ballast water 
discharges. EPA has helped to prepare the environmental analysis for 
the management rule, and we will be assisting in the development of the 
EIS for the standards rule. This spirit of cooperation is not only 
mutually beneficial to our agencies, it enhances our ability to address 
this difficult problem.
    EPA's Office of Research and Development (ORD), in partnership with 
other agencies and organizations, is involved with numerous invasive 
species research activities, including developing models which could 
help to identify which ecosystems are more susceptible to invasions. 
These models are being developed to identify the multiple stressors on 
a particular ecosystem that could increase its vulnerability.
    The Environmental Technology Verification (ETV) Program is another 
example of our cooperative efforts with Coast Guard and the private 
sector. The Coast Guard is interested in developing testing protocols 
to support its efforts to establish treatment standards and the 
certification of ballast water treatment systems. Such treatment 
systems may allow for safer alternatives to the current practice of 
open ballast exchange. The ETV Program will test new ballast water 
treatment and management technologies as they become available in the 
market. This EPA program was created as a means to accelerate the 
acceptance of new environmental technologies in the marketplace through 
the independent verification of vendor performance claims of any 
treatment system for any discharge of concern.
    EPA also has developed partnerships for continued research and 
action regarding invasive species. The partnerships involve State and 
local resource management agencies, non-profits, the National Estuary 
Program (NEP), and universities. The NEPs, in particular, have numerous 
activities that play a key role in targeting many of the challenges 
from invasive species. NEPs have established partnerships in education 
and outreach, and have contributed to the development of rapid 
assessments and baseline inventories for invasive species. NEPs also 
have played an integral role in developing model monitoring and rapid 
response programs for invasive species. EPA has used Clean Water Act 
Funding for these and other activities that address invasive species. 
We believe this is consistent with Section 101 (a) of that Act, which 
states, ``The objective of this chapter is to restore and maintain the 
chemical, physical, and biological integrity of the Nation's waters.''
    Partnerships and collaborative efforts are key to combating 
invasive species. I am encouraged by the multi-faceted opportunities 
for partnerships that we have within EPA, among Federal agencies, with 
the States and Tribes, and with multiple industry and community 
representatives.

                                 S. 525

    The bill under consideration by this Subcommittee introduces many 
actions intended to help address the issue of invasive species. For 
example, the bill addresses the risk of invasion through vectors other 
than ballast water. The bill also acknowledges EPA's expertise and 
involvement in responding to the challenge.
    The goals and concepts behind the actions set forth in S. 525 are 
beneficial to combating invasive species. However, the time lines and 
authorizations provided are of significant concern. An average rule can 
take 4 to 7 years to complete and that does not take into account the 
complexity of the invasive species issue. The bill introduces many 
actions in addition to the new regulations. If possible, the actions 
should be prioritized to appropriately use the authorized funding in 
the bill. As the bill stands now, it will be difficult to complete all 
of the actions, without at least full appropriation of the authorized 
funding.
    The bill appears to identify many of the same actions for a number 
of different agencies. Although agencies need to work together to 
combat the issues of invasive species, different agencies should have 
different responsibilities so as not to duplicate work efforts. In 
addition to the duplicative work efforts, it is difficult to determine 
which agency has the primary role in some of the actions.
    The bill provides for sediment management in transoceanic vessels 
to be included as a best management practice. The bill also recognizes 
the importance of addressing potential introductions of invasive 
species from no-ballast-on-board (NOBOB) vessels, particularly in light 
of the volume of such vessels in the Great Lakes.
    The bill also addresses the issues of ballast water standards. 
Specifically, it sets an interim standard of 95 percent removal, which 
we believe raises a number of technical issues. Removal relies on 
laboratory testing which raises technology maintenance and durability 
issues. Percent removal also does not adequately address large volume 
discharges, because discharging 5 percent of a tanker ship's volume 
could still release millions of organisms per liter. We believe that 
the standards should be based on concentration and size of organism, 
similar to discussions with the international community. Having an 
interim and a final standard could have the unintended effects of 
stalling development of a final standard or misdirecting technology 
development away from more environmentally protective approaches. EPA 
is also concerned that the Bill identifies and designates both EPA and 
the Coast Guard as regulating authorities, one for each standard. EPA 
and the Coast Guard would like the opportunity to work further with the 
Subcommittee in order to clarify specific agency roles, and define a 
more appropriate schedule, and discuss the need for an interim 
standard. We would also be happy to provide further technical 
assistance on this bill. We also note that new spending authorized by 
this bill that is not currently included in the President's Budget, and 
as such, these actions must be considered within existing priorities.

                               CONCLUSION

    Tremendous progress has been made by EPA and our many Federal, 
State, Tribal, local, and private partners in cleaning up our waters 
over the last decade. EPA's experience in addressing difficult issues 
regarding the health of our environment can help us protect them from 
these harmful invaders. We at EPA appreciate your support and 
commitment to these vital goals, and look forward to continuing a 
collaborative effort to protect and restore our Nation's waters.
    This concludes my prepared remarks. I would be happy to address any 
questions you may have at this time.

                               __________
  Statement of James M. Beers, Science Advisor, American Land Rights 
                              Association

    Thank you Mr. Chairman for inviting me to testify at your hearing 
today.
    I represent the American Land Rights Association, an organization 
of small property owners in all 50 States.
    I worked for the US Fish and Wildlife Service for 30 years in four 
States and Washington, DC as a wildlife biologist, special agent, and 
refuge manager. I have enforced Injurious Wildlife regulations and 
investigated Endangered Species cases both here and in Europe. I have 
worked on Invasive Species control programs for nutria and purple 
loosestrife. I have attended U.N. Wildlife Conferences and represented 
State wildlife agencies fighting a threatened European fur embargo. I 
currently write and speak extensively about both Endangered and 
Invasive Species.
    The National Aquatic Invasive Species Act of 2003, S. 525 is based 
on erroneous assumptions. Briefly, it is wrong:
    1. To characterize all recently arrived plants and animals as 
having only exaggerated bad effects and ``reducing biodiversity'' (Sec. 
2 Findings 1-10). This striped bass is an ``Invasive Species'' in 
numerous lakes, rivers and reservoirs across the Nation as well as in 
west coast estuaries. This rainbow trout is another ``Invasive 
Species'' in lakes, rivers, and reservoirs throughout the United 
States. Fishing license money, State fishery management staffs, charter 
boat revenues, boat and boating equipment sales, fishing tackle sales, 
tourist revenues, annual Sport Fish Restoration dollars in the 
millions, taxidermy business, as well as millions of hours of family 
recreation and many fine meals will all be reduced under this 
legislation. These fish are typical of many desirable ``Invasive'' 
plants and animals that increase ``biodiversity'' while benefiting us 
all.
    2. To infer a Federal concern for plants and animals ``outside the 
historic range of the species of which the organism is a member'' (Sec. 
1003 (15)). This applies directly to these two fish that have been 
widely and purposely introduced for the many direct and indirect 
benefits to citizens and aquatic habitats that they create. What does 
``historic range'' mean? When Asians arrived 10,000 years ago? When 
Columbus arrived? When the Constitution was signed? Camels, horses, and 
elephants once thrived here, are they native or ``Invasive Species''?
    3. To define Federal aquatic authority as including ``estuarine'' 
and ``inland waters and wetlands'' (Sec. 1003 (2)). These waters are 
nearly all under State jurisdiction. Given the current court case 
involving the decade-long dumping of toxic sludge by the US Army Corps 
of Engineers through a National Park under an EPA permit reviewed by 
the National Marine Fisheries Service and the US Fish and Wildlife 
Service on the spawning grounds of Endangered shortnose sturgeon in the 
Potomac River as it passes Washington, DC, it does not appear prudent 
to expand Federal authority in this manner.
    4. To infer Federal jurisdiction over ``invasive species'' and 
``non-indigenous species'' that ``may cause harm'' (Sec. 1003 (17)) so 
broadly defined as to permit any biological competition or increase in 
biodiversity to be declared harmful. These two fish for instance eat 
other fish and compete with yet others for space and food.
    5. To claim authority over ``any fundamental category of taxonomic 
classification below a genus or subgenus'' (Sec. 1003 (28)). This 
enshrines the unwritten Endangered Species Act principle that 
authorizes all manner of Federal intervention to the smallest flock, 
school, or stand of any species. This has caused increasing friction 
with property owners and many others as the level of Federal concern 
descended below that of species to races, varieties, distinct 
populations, and even beyond.
    Using the need for the Federal Government to regulate ballast 
water, a penumbra of Federal authorities and tasks are being created to 
mimic the Endangered Species Act. That Act has caused havoc with much 
more than property rights and has gone unauthorized for 15 years while 
it's reach and annual appropriations continue to grow.
    The authority to manage, control, and eradicate plants and animals 
is one of those ``powers'' ``reserved to the States'' in the 10th 
Amendment. The Federal Government is responsible for the management of 
the import, export, interstate, and foreign aspects of these matters. 
It is proper that the Federal Government assures clean ballast water 
discharges, manages imports and exports, and cooperates with State 
governments in the management, control, and eradication of harmful 
plants and animals regardless of their origins or arrival dates.
    11The American Land Rights Association joins with all citizens 
concerned about the loss of not only land property rights but also the 
rights of fish owners, aquarium hobbyists, florists, gardeners, 
landscapers, boaters, horseback riders, pet owners, hikers, trappers, 
duck hunters, fishermen and scores of others whose property rights, 
outdoor activities, property rights held in trust by State governments, 
and public land access are directly threatened by this proposed 
expansion of Federal authority and diminishment of State authority over 
aquatic habitats. The task being proposed (encouragement of ``native 
species'') is not desirable, not beneficial, not achievable, not 
measurable, never-ending, and a public expense beyond comprehension.
    Please consider a revised bill that controls ballast water 
discharge, controls harmful aquatic plants and animals on the Federal 
estate, and cooperates with the States to fulfill the fish, wildlife, 
and plant responsibilities assigned them in the Constitution. 
Otherwise, S. 525 will, like the Endangered Species Act, radically 
modify our basic freedoms while enriching only Federal bureaucracies, 
Universities, and the agendas of environmental and animal rights 
organizations.
    One last observation: The bill's proposed ``whitelist approach'' 
(Sec. 1105 et al) for controlling imports is fraught with pitfalls. It 
is causing problems in Australia and had it been in effect here 200 
years ago we would not have brown trout, tulips, Holsteins, or even 
house cats here today. Five minutes is not enough time for me to 
explain this, but I would offer to point out there is a better approach 
that does not impair the trade and freedoms we cherish while minimizing 
future, harmful U.N. controls which are likely with Invasive Species as 
they have been with Endangered Species under CITES.
    Further explanation of these issues may be found on the American 
Land Rights Association website, www.landrights.org.
    Thank you and I am ready to answer any questions you might have.

                                 ______
                                 
Responses of James Beers to Additional Questions from Senator Murkowski

    Question 1. ``Mr. Beers, your testimony suggests that the Federal 
Government should not attempt to exert control over State waters, but 
has an appropriate role for ballast water. Many States are struggling 
with budget issues that may affect their ability to implement their own 
invasive species plans. What role, if any, do you suggest for the 
Federal Government in such circumstances?"
    Response. Exerting Federal authority over ballast water discharge, 
like regulation of interstate commerce, neither involves nor requires 
Federal control over State waters or lands. Just as the prevention of 
smuggling or terrorism necessitates Federal regulations and Federal 
agents while creating Federal requirements and enforcement regimes on 
and over State lands and waters without controlling the State lands and 
waters; ballast water discharge and the prevention of harmful plant or 
animal introduction requires no Federal taking of State authorities.
    Any truly Harmful plant, animal, or infectious organism should be 
designated by the Federal Government and prevented from entering the 
country. Proof of such demonstrable harm should demonstrate significant 
potential damage to human health, agriculture, or certain plants or 
animals important to American citizens. Such biological entities should 
be (and are) prevented from entering the country as much as is humanly 
possible. Where and when they breach these safeguards they should be 
(and are) pursued and eradicated as quickly as possible by Federal and 
State authorities. State waters along the coasts or Great Lakes, like 
State lands bordering Canada or Mexico are the busy battlegrounds in 
these legitimate and necessary Federal efforts.
    The current ``Injurious Wildlife List'' provides a proven approach. 
When a species like mongoose is proven (demonstrably and definitively) 
to be a danger and seriously harmful it is listed; regulations direct 
Federal import regulators to exclude it; and if it breaches the 
controls, lethal controls and Federal/State animal specialists 
eradicate it immediately. The fact of ``nativeness'' has nothing to do 
with it. The fact that it is not established and that it would not 
require draconian government controls and billions of dollars to 
ultimately not eradicate it has everything to do with it. Applying this 
principle to say goldfish or carp (two well established ``non-native'' 
fish that could be painted by any number of aquatic biologists as 
environmentally disruptive) would be incredibly expensive, ultimately 
ineffective, and further erode the State authority over plants and 
animals while growing Federal authorities and the tax burden--to no 
good purpose.
    Regarding the issue of States ``struggling with budget issues that 
may affect their ability to implement their own invasive species 
plans.'' If the Federal Government stepped in and took State authority 
every time States were ``struggling with budget issues'' over the past 
century; we would have long since ceased being a Republic and become a 
centrally ruled nation like France, Australia, or Indonesia.
    States Were given and should maintain authority over all plants and 
animals within their jurisdiction. Current Invasive Species desires in 
many States are simply wishes expressed because of the rumors of 
imminent Federal funding availability and their continuing (and 
currently acute) desire for more tax money from any source. Many States 
will gladly abdicate their Constitutional authorities in this regard 
since they are unwilling to protect the rights of their residents from 
other Federal intrusions from which they obtain Federal funding. An 
example of this would be Endangered Species takings of private property 
under the guise of Critical Habitat declarations by Federal bureaucrats 
who also approve grants and monetary assistance to State bureaucrats 
and University professors in the same States. Another example is the 
forced closure of heavily used State highways in National Parks by 
Transportation bureaucrats who dispense highway funding to States. 
Invasive Species funding is likewise seductive to these same Federal 
and State bureaucrats, University professors, and environmental 
activists who together testified so overwhelmingly before your 
Subcommittee in favor of new Invasive Species legislation. They aim to 
create new Federal authorities and begin an annually increasing flow of 
Federal dollars for invented problems that will put Endangered Species 
abuses and lawsuits to shame.
    The role I suggest for the Federal Government in this matter is no 
different than the one clearly envisioned when the final Constitutional 
Amendment in the Bill of Rights (10th Amendment) was ratified. Federal 
authority over interstate and foreign commerce provides all the Federal 
authority needed to prevent the introduction of harmful and non-present 
plants, animals, or microbes. This entails research on potential 
threats; techniques for detecting, preventing, and eradicating harmful 
entities; and maintaining regulations and employees to enforce the 
Federal legislation to do these things. Invasive Species authority 
should remain ``reserved to the States respectively, or to the 
people.''
    In addition, because the Federal Government owns more lands in the 
United States than any other landowner, Federal lands (with the 
exception of those few lands where Exclusive [of State authority] 
Jurisdiction prevails like the Washington Mall and Yellowstone Park) 
should be exemplary units managed in accord with State laws and the 
standards of the communities wherein they occur. Federal managers 
should manage and eradicate harmful plants like knapweed and yellow 
starthistle on Federal properties and refrain from imposing urban 
standards like the elimination of grazing or hunting in rural areas by 
imposing new Federal authorities. Invasive Species authority will 
certainly encourage such attempts.
    Federal advocates of further involvement in the matter of Harmful 
Species (i.e. ``Injurious'') might consider Land Grant University 
research on controls for species such as fire ants and kudzu. If the 
Environmental Protection Agency can be convinced to permit lethal 
control methods and agents, perhaps States would cooperate with each 
other and at least reduce the density and distribution of such species. 
Eradication is problematic in today's world where agencies, laws, 
powerful environmental/animal rights organizations, and regulations 
discourage lethal controls generally and problem species once purposely 
eradicated, like wolves, are forcibly reintroduced over State 
objections by Federal edicts.
    State governments can, and do, enforce the plant and animal 
standards and distributions desired by their residents. Whether such 
species have been in place for 12 months, 12 years, or 500 years; 
whether the species were introduced for agriculture, animal husbandry, 
hunting, fishing, gardens, or as pets; whether urban residents despise 
them or rural people love them, the numbers, distribution, use, 
management of, and all decisions involving plants and animals should 
remain a primary State responsibility.

    Question 2. ``You've suggested that rainbow trout and striped bass, 
both popular recreational fish, could be considered invasive species in 
some of their present range. Does that represent concern that this 
legislation may encourage lawsuits similar to those involving various 
ESA and NEPA issues? If so please elaborate.''
    Response. Rainbow trout and striped bass greeted the first European 
explorers. The striped bass occupied coastal waters and coastal streams 
along the Atlantic seaboard and rainbow trout were ubiquitous in clear, 
coldwater streams mainly in mountains and northern (US) waters. They 
were found to be very desirable due to their commercial abundance, 
their tasty flesh, and for the fishing enjoyment they provided 
individual fishermen seeking a sporting challenge and a good meal. As a 
result they have been ``introduced'' (i.e. transplanted) all over the 
US. Striped bass have been placed in reservoirs, Pacific streams in 
California, and in streams where they were formerly unknown. Even 
greater transplanting took place with rainbow trout that are now found 
throughout the Nation in streams, ponds, reservoirs, the Great Lakes, 
and even cold tailwaters below southern desert dams.
    There is no way to distinguish these transplanted fish from brown 
trout (bought from Europe) or goldfish (brought from China) or walking 
catfish released from an aquarium and imported from Thailand. All are 
``Invasive'', ``non-native'', and ``non-indigenous'' in most of the 
waters in which they occur today. Any attempt to refine the 
``Invasive'' definition (1492, 1776, etc.) highlights the total lack of 
data for such an assertion and the foolishness of judging what should 
be on ``that mountain slope'' or in ``those waters'' based on past 
circumstances.
    There is no doubt that however you define ``Invasive'' in any 
Federal legislation, these and similar species that have been moved 
about for commercial purposes, sport purposes, or as the result of 
water projects like the diversion of the Chicago River or reservoir 
construction on the Missouri River will be targeted for extinction over 
the majority of their current ranges. Just as court decisions, Federal 
regulations, and Universities were manipulated by environmentalists and 
animal rights activists using Endangered Species legislative language 
and funding; so too will these same entities be further utilized by the 
same people using Federal Invasive Species authority.
    Endangered Species legislative and regulatory language has been the 
tool used to stop public works projects, logging, public land access, 
fishing, and many other legitimate American freedoms and needed 
improvements. One example of fishing reduction is the unjustified 
listing of the bull trout under the Endangered Species Act to justify 
the eradication of rainbow trout in hundreds of miles of streams. 
Universities are influenced by the possibility of obtaining Federal 
grants for study. The ``experts'' on say bats or darters are rewarded 
with funds and attention (graduate students, tenure, and recognition) 
if their biology asserts vague differences in races or populations as 
significant or habitat ``requirements'' as needing more study because 
of overblown environmental interactions.
    Invasive Species legislation will provoke the same groups to 
utilize courts, bureaucrats, and professors in the same way. 
Meaningless competition between west coast striped bass and some other 
predator will be pictured as very serious by a biology professor. 
Courts, bureaucrats, professors (and sad to say, even State agencies 
eligible for Federal grants) will be prodded by groups opposed to sport 
fishing, commercial fishing, boating, gas engines, shoreline 
development, etc. to eradicate the striped bass and replace them with 
far less desirable or less utilizable species. This will all be 
presented as ``restoring the balance of nature'' and this scenario will 
be repeated nationwide until there is no more private shoreline 
property, no sport fishing, no commercial fishing, and no boating. 
Anyone doubting these intended results need only look at the extreme 
agendas and radical activities of environmental and animal rights 
groups over the past 20 years. Historical facts speak for themselves.
    For the sake of all the things Americans hold dear, from sport 
fishing to private property to making a living from the sustainable 
harvest of renewable natural resources, please leave authority over 
plants and animals at the State level where the Founding Fathers wisely 
placed it.

                               __________
 Statement of Sebastian Hargrove, Government Relations Associate, The 
                      Nature Conservancy of Idaho

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify today in support of S. 525, the National Aquatic 
Invasive Species Act or NAISA. I am appearing here today on behalf of 
The Nature Conservancy. I will cover three major points in my comments 
today:
    1) the threat aquatic invasive species pose to the nation's economy 
and environment, including the inland West;
    2) use of NAISA as an effective tool for addressing this threat; 
and
    3) improvements that can be made to the bill through a few 
technical and substantive amendments.

I. Introduction
    The Nature Conservancy is dedicated to preserving the plants, 
animals and natural communities that represent the diversity of life on 
earth by protecting the land and water they need to survive. The 
Conservancy has more than 1 million individual members and over 1,900 
corporate associates. We currently have programs in all 50 States and 
in 30 nations. To date our organization has protected more than 12 
million acres in the United States and abroad, and has helped local 
partner organizations preserve millions of acres in other nations. The 
Conservancy itself owns a network of more than 1,400 preserves in the 
United States the largest private system of nature sanctuaries in the 
world. Our conservation work is grounded on sound science, strong 
partnerships with other landowners, and tangible results at local 
places.
    The Conservancy determines where and how to do its work through a 
planning process that identifies areas in the country containing the 
most viable and important examples of plant and animal communities. 
This process further identifies the principal threats to the integrity 
of the sites such as land conversion, non-point source runoff, or 
repression of natural fire regimes. An overwhelming 94 percent of our 
sites have identified invasive species as the most significant threat 
to the integrity of biodiversity.

II. The Threat of Aquatic Invasive Species
    Non-native, invasive species cause significant economic and 
ecological damage throughout North America. Recent estimates state that 
invasive species cost the U.S. approximately $130 billion per year and 
that 42 percent of the species on the Threatened and Endangered Species 
Lists are at risk primarily because of invasive species. Once 
established, invasive species displace native species, impede municipal 
and industrial water systems, degrade ecosystems, reduce recreational 
and commercial fishing opportunities, and cause public health problems.
    Aquatic invasive species are a particular problem because they 
readily spread through interconnected waterways and are difficult to 
treat safely. Hundreds of exotic species arrive in U.S. waters every 
day through a variety of pathways such as ballast water, boat hulls, 
aquaculture and others. Our interest is to prevent these new arrivals, 
or to rapidly detect and eradicate if prevention is not possible.
    To illustrate the immediacy of the threat of aquatic invasive 
species, I would like to recount what happened in Spokane, Washington 2 
years ago yesterday on June 16, 2001. On that mild June day, a 
trailered 40-foot sailboat pulled into the State of Washington port of 
entry on Interstate 90, just a few miles west of the Idaho border. 
State inspectors, alerted to the danger of aquatic invasive species, 
examined the boat closely and found live zebra mussels (Dreissena 
polymorpha) encrusted on the rudder flaps, screens, and engine cooling 
system. Zebra mussels are a scourge of the Great Lakes and many eastern 
watersheds, where they have severely disrupted native ecosystems and 
caused hundreds of millions of dollars in damage and control costs. 
Officials quarantined and cleaned the boat before allowing it to enter 
Washington waters.
    This story illustrates two key points. First, aquatic invasive 
species are not only a problem for the coastal and Great Lakes States; 
the waters in the inland West are at risk from zebra mussels and a host 
of other aquatic invasive species. Second, the modest investment that 
Washington State made in training its employees to prevent aquatic 
invasive species paid big dividends. But Washington's prevention 
program is the exception rather than the rule. We can only assume that 
no inspectors in other States found these zebra mussels as the sailboat 
traveled west across the northern tier of the U.S. If the boat had put 
into Lake Coeur d'Alene or Payette Lake in Idaho, we could have zebra 
mussels established in the upper Columbia River Basin, with potentially 
devastating impacts on recreation, hydropower, and irrigation.
    This story is not an isolated example of the risks posed by aquatic 
invaders. Idaho communities already spend a quarter of a million 
dollars annually to control Eurasian water milfoil (Myriophyllum 
spicatum) in some of Idaho's most important recreational waters, 
including Payette and Hayden lakes. This fast-growing weed is choking 
our shorelines and spreading fast.
    You might also be surprised to learn that the first known 
infestation of New Zealand mudsnails (Potamopyrgus antipodarum) in the 
United States occurred not in one of our major port cities, but 
hundreds of miles inland on the Snake River, near Hagerman, Idaho. 
These invasive mollusks grow in dense mats and have now spread up the 
Snake and into the Madison River in Yellowstone National Park, with 
unknown consequences for native fish populations. The danger is clear. 
We need to get prepared, and NAISA is an essential step in that 
direction.

III. S. 525--The National Aquatic Invasive Species Act
    The National Aquatic Invasive Species Act of 2003 will dramatically 
upgrade our nation's invasive species program in two very important 
ways.
    First, NAISA will create new tools to protect and manage inland 
waters. Efforts to date have been targeted at severe problems in the 
Great Lakes and on the coast. However, aquatic invasive species such as 
giant salvinia, purple loosestrife, and zebra mussels threaten inland 
waters as well. NAISA will provide tools and coordination to manage 
these threats in a broader geographic area.
    Second, NAISA will implement the framework recommended by the 
National Invasive Species Council for an effective invasive species 
management program. This framework calls for a program--coordinated 
between all levels of government and with the private sector--that 
includes:

    <bullet>  Prevention,
    <bullet>  Public Outreach and Education,
    <bullet>  Early Detection and Rapid Response,
    <bullet>  Research and Risk Analysis, and
    <bullet>  Control and Management.

    S. 525 will provide critical tools for States like Idaho and their 
partners in the battle to manage aquatic invasive species. It is 
particularly noteworthy that NAISA adopts the most cost-effective 
approach by focusing on three areas where we all need to improve: 
prevention, early detection, and rapid response. The bill will cover 
all waters of the U.S., including inland lakes and streams. Critical 
elements of the bill include:
    <bullet>  Grants for State Management Plans--Section 501 provides 
for State level planning for aquatic nuisance species and authorizes 
Federal grants for development and implementation of those plans;
    <bullet>  Prevention of Introductions by Vessels--Section 101 will 
expand and strengthen existing programs governing ballast water 
management the Conservancy supports including a role for the U.S.E.P.A. 
in establishing standards;
    <bullet>  Priority Pathway Management--Section 201 will establish a 
system to help more effectively target prevention efforts by 
identifying high-risk pathways for aquatic invasive species 
introductions;
    <bullet>  Pre-screening of Intentional Introductions--Section 202 
establishes a system for pre-screening species newly in trade to limit 
importation of high-risk species and help better target prevention 
efforts;
    <bullet>  Early Detection and Monitoring--Section 301 directs the 
existing Aquatic Nuisance Species Task force to coordinate with States, 
local, and tribal governments to establish an early detection 
monitoring network;
    <bullet>  Rapid Response--Section 302 establishes a critical $30 
million rapid response fund for States, establishes regional 
interagency rapid response teams at the Federal level to provide 
assistance upon request to States in implementing rapid response 
strategies;
    <bullet>  Information, Education, and Outreach--Section 306 
establishes public and industry outreach programs to identify high-risk 
pathways for introduction (such as marinas), information on techniques 
to check and clean recreational vessels, information on how to properly 
dispose of live, non-native aquatic organisms in trade, and directs 
outreach to maritime, horticultural, aquarium, aquaculture, and pet 
trade industries to promote cooperation to prevent new introductions; 
and,
    <bullet>  Research Title 4 establishes a competitive, peer-reviewed 
research program to support prevention, early detection and rapid 
response efforts, and evaluate effectiveness of existing programs. This 
section also supports research on control and eradication methods and 
technology to support effective stewardship on the ground.

    We support NISA reauthorization, and feel that this bill is an 
excellent starting point. It embodies many principles that will move 
the Nation forward in a constructive manner and set a standard 
globally.

IV. Recommendations
    The Conservancy has recommended a few technical and substantive 
changes to the bill to better facilitate work on the ground. We would 
be happy to work with the Committee on these amendments. In short, we 
recommend the Committee consider the following suggestions:
    The legislation should recognize and clarify that treatments should 
have a long term, net-positive effect on an ecosystem. We should not 
rule out some rapid response or other control, management, or 
restoration efforts because they may have discrete, short-term adverse 
impacts to nontarget species, if that risk is balanced against the 
ability to prevent greater harm in the long term. The Conservancy is 
committed to working to develop effective, benign methods for treating 
aquatic invasions. But, as we have seen in the effort to control an 
invasion of Spartina anglica in North Puget Sound in Washington--large 
populations of spartina are at present only effectively controlled by a 
combination of mechanical treatment and herbicide application. The 
Conservancy is working with partners to test mechanical control 
techniques on smaller patches.
    With regard to the cost-sharing provisions for grants, the 
Conservancy recommends that the Committee expand upon the current 
language to allow any match required for activities under the Act to be 
met with in-kind activities. In addition, the legislation should be 
clarified to State that the Federal share of grants to fund rapid 
response contingency strategies should be at least 50 percent or 75 
percent--depending on the nature of the activity.
    Passage of NAISA will provide important financial and technical 
help to States such as Idaho that are just beginning to address aquatic 
invaders. Idaho, like many States, has established an invasive species 
council that will address all invaders, including New Zealand 
mudsnails, Eurasian water milfoil, and zebra mussels, but we need 
strengthened leadership, better coordination, and more resources. NAISA 
goes a long way toward providing the States the tools they need to 
tackle aquatic invaders. The Conservancy would be pleased to work with 
the Committee to strengthen the provisions dealing with inland States.
    Thank you for the opportunity to comment on this important 
legislation. I would be happy to answer any questions.

                               __________
   Statement of Michael Hauser, Agency of Natural Resources, Vermont 
                Department of Environmental Conservation

    Thank you Mr. Chairman and Committee members for the opportunity to 
provide testimony on Senate Bill 525. I consider myself fortunate to 
live and work in Vermont, a small State, but with a tremendous 
reputation for its natural beauty, environmental integrity, and 
recreational opportunities. Unfortunately, these qualities are 
threatened by a large and very real threat--the introduction and spread 
of aquatic invasive species. Nearly sixty species of aquatic non-native 
plants and animals are known to have taken up residence in Vermont. 
While not all of these species have become invasive, those that have, 
such as zebra mussels, water chestnut, Eurasian water milfoil and 
purple loosestrife, have significant negative economic and ecological 
impacts. More than $2 million of local, State and Federal funds are 
spent annually in Vermont to manage and prevent the spread of these 
species. Approximately one quarter of this goes to managing water 
chestnut in southern Lake Champlain alone. These totals do not include 
the costs associated with the degradation of the environment; reduction 
of lakeshore property values; or the protection of boats, water intake 
systems and other infrastructure. Currently within the Department of 
Environmental Conservation there are four staff positions dedicated to 
the management of aquatic invasive species, and it is fair to say we 
cannot keep up. These invaders continue to displace native species; 
impede boating, fishing and swimming; and strain State and local 
budgets.
    Despite these problems, Vermont, and the other northeastern States, 
are relatively fortunate to have had only a fraction of the nonnative 
species introductions experienced in other parts of the country. This 
is not to say Vermont doesn't have major problems from invasive 
species, we do, but these problems are likely to increase significantly 
if we do not seize this opportunity to prevent more invasive aquatic 
species from coming our way. And they are coming, the round goby, the 
Asian carp, the Eurasian ruffe, the quagga mussel, the spiny water 
flea. Nonnative species that have all proven to be extremely invasive 
in other regions of this country are poised to enter water systems of 
the Northeast. It is imperative that we prevent this from happening, 
and the National Aquatic Invasive Species Act can help us do it.
    As you well know, invasive species do not recognize political 
boundaries. We in Vermont can't expect a species to stop at our border. 
Experience tells us that we also can't wait for an invasive species to 
cross into the State before we take action--by then it is too late. We 
must work with other States throughout the region to build a unified 
defense. The National Invasive Species Act is helping us to do this. In 
2001 the Northeast Aquatic Nuisance Species Panel was formed under 
authority of the Federal Aquatic Nuisance Species Task Force. The 
Panel, with funding assistance from the Task Force, has developed a 
dedicated network of representatives from all six New England States, 
New York, and Canada. We meet regularly to share ideas and concerns, 
and to coordinate the use of our limited resources. For example, the 
Panel is printing a card to assist boaters, resource managers and other 
individuals throughout the Northeast in the identification of the 
extremely invasive plant, hydrilla. Populations of hydrilla have 
recently been found in a few lakes in Connecticut, Massachusetts and 
Maine. As a further example of regional coordination, the Panel 
recently held a workshop to develop a model aquatic nuisance species 
rapid response plan for the Northeast. When completed, the plan will 
establish a coordinated region-wide early detection and warning system. 
It will also facilitate the development of State aquatic invasive 
species rapid response plans that are consistent and coordinated 
throughout the region.
    Additionally, the Northeast Aquatic Nuisance Species Panel and each 
of the other four regional panels developed under the National Invasive 
Species Act give the respective regions a strong, unified voice on the 
national stage helping to level the playing field. The regional panels, 
via the Aquatic Nuisance Species Task Force, enable small States like 
Vermont to have their aquatic nuisance species concerns fairly 
presented to the Federal agencies distributing funds and making 
critical management decisions in this area.
    Provisions of Senate Bill 525 that would lead to effective 
practices to prevent new introductions of potentially invasive species 
to this country will have perhaps the greatest long-term benefit for 
Vermont. For example, although Vermont does not have significant issues 
directly related to ballast water, it is vulnerable to nonnative 
species introduced to the Great Lakes via ballast water dumping. Lake 
Champlain, along Vermont's western border, is directly connected to the 
Great Lakes by the Champlain Barge Canal, Erie Canal and Saint Lawrence 
Seaway systems. The zebra mussel used these routes to enter Lake 
Champlain from the Great Lakes in 1993. Of direct relevance, provisions 
in Senate Bill 525 would facilitate the transfer of knowledge gained 
from the dispersal barrier deployed on the Chicago Ship and Sanitary 
Canal to other canal systems throughout the country. This specifically 
includes the Champlain Barge Canal which connects the south end of Lake 
Champlain to the Erie Canal system and has been implicated in the 
introduction of numerous invasive species to Lake Champlain.
    The National Invasive Species Act has played a direct role in 
helping to address aquatic invasive species issues throughout the Lake 
Champlain Basin of Vermont and New York. Authorized under the National 
Invasive Species Act, the Lake Champlain Basin Aquatic Nuisance Species 
Management Plan was developed and subsequently approved by the Federal 
Aquatic Nuisance Species Task Force in 2000. Since then the Task Force 
has provided $370,000 for the Plan's implementation. While this 
represents a relatively small percentage of the total aquatic nuisance 
species program costs in the Basin, the funds have enabled many 
significant accomplishments that would have otherwise been 
unattainable. Specifically, Task Force funding has assisted with the 
establishment of an Aquatic Nuisance Species Coordinator position for 
the Lake Champlain Basin, has enabled dedicated enforcement of Vermont 
aquatic nuisance species laws, has contributed to the Lake Champlain 
Water Chestnut Management program, has funded the printing of outreach/
spread prevention literature, and is helping with the development of an 
aquatic invasive species rapid response plan for the Lake Champlain 
Basin.
    Senate Bill 525 would significantly raise the authorized funding 
levels for State and interstate aquatic nuisance species management 
plans. While the continued development and approval of State management 
plans is a positive contribution to the nation-wide effort needed to 
address invasive species, funding levels for such plans have not grown 
for the last several years. This has resulted in a smaller share for 
each State with an approved plan. To be effective, the funding for 
State and interstate plans must grow proportionate to the number of 
approved plans, not get sliced into smaller and smaller portions. This 
bill provides the funding authorization to enable this to happen.
    Passage of Senate Bill 525 will greatly assist Vermont, and I 
believe the Nation as a whole, in continuing to build on the 
substantial gains made under the Nonindigenous Aquatic Nuisance Species 
Prevention and Control Act of 1990. I encourage you to support this 
bill and thank you again for the opportunity to speak with you this 
afternoon. Time permitting, I will be happy to entertain questions.

                                 ______
                                 
   Response of Michael Hauser to an Additional Question from Senator 
                                 Allard

    Question. This legislation requires that each State have a rapid 
response contingency plan. If the Federal Government requires such a 
plan, how do we ensure that all ships that discharge ballast waters are 
aware of each State's plan?
    Response. The bill provisions require that portions of State rapid 
response contingency strategies involving actions by vessels conform to 
guidelines established by the Coast Guard (Secretary of the department 
in which the Coast Guard is operating). I assume procedures for due 
notification of vessels would be part of those requirements.

                               __________
 Statement of James H.I. Weakley, President, Lake Carriers' Association

    Thank you for the opportunity to testify on this legislation that 
is so crucial to both the maritime industry and the marine environment. 
It is Lake Carriers' Association's concern that this bill be crafted 
such that both are well served. We are generally supportive of S. 525.
    LCA is a member of the Ballast Water Coalition. Although I do not 
testify today on behalf of the Coalition, I will focus on the concerns 
of the shipping industry.
    Lake Carriers' Association represents 11 American corporations 
operating 57 U.S.-flag vessels exclusively on the Great Lakes. Foreign-
flag operators move cargo into the region from across the oceans. We do 
not. Our vessels typically move more than 100 million tons of cargo 
each year. Those commodities include iron ore for the steel industry, 
coal for power generation, and limestone for the construction industry. 
As you can see, tens of thousands of family sustaining jobs depend on 
the efficient movement of cargo on the Great Lakes. We not only earn 
our wages here, we recreate along the shores and drink from the world's 
largest supply of fresh water. It is a place we call home.
    Lake Carriers' Association has been leading efforts to find an 
invasive species solution for more than a decade. In partnership with 
Government agencies, non-governmental agencies, and shippers, we've 
invested more than $4 million researching this complex problem. Our 
projects evaluated several ballast water treatment methodologies and 
engineering solutions using a barge specifically designed for this 
purpose, as well as operational ships and land-based facilities.
    Lake Carriers' Association is committed to finding solutions to the 
worldwide problem of ballast water transport of nonindigenous species. 
Upon learning of the discovery of the ruffe in Duluth/Superior Harbor 
in the late 1980's, LCA produced the Voluntary Ballast Water Management 
Program. Deemed the ``cutting edge of technology'' by the U.S. Fish & 
Wildlife Service, our voluntary efforts have largely contained the 
ruffe. In addition, we have instituted other voluntary practices to 
reduce the threat of transferring other aquatic nuisance species within 
the Great Lakes. These practices represent our industry's commitment to 
slowing what is inevitable the migration of newly arrived exotics.
    For example, the ruffe is migrating along the southern shore of 
Lake Superior of its own volition. Therefore, we must focus our 
energies on prevention of new exotics into the Lakes and all U.S. 
waters. The Lakes, like many waterways, are naturally connected; so 
absent a natural predator, any fish, insect, or plant introduced into 
one Great Lake can and will migrate to the others. Like it or not, the 
ruffe, the zebra mussel, and the sea lamprey, to mention a few, are 
here to stay.
    I must emphasize that this issue is not limited to the Great Lakes 
Basin. The West Coast of the United States and the Chesapeake Bay have 
been significantly threatened and remain vulnerable to new invasions. 
Vessels engaged on international voyages and foreign-flag vessels 
sailing between U.S. ports also pose a risk.
    Internationally, the topic is being debated at the International 
Maritime Organization. Australia struggles with the same issues and 
continues to deal with invasive species. Since the United States is the 
world's largest trading partner, what we do impacts the world shipping 
community in ways that no other country can. Much of the debate in the 
international community seems to be focusing on what the standard will 
be and how to implement it. An alternative to the percent based 
standard in S. 525, a standard based on the number of organisms living 
above a certain size in the treated ballast water has been proposed at 
IMO.
    It is my sense that this alternative standard is growing in support 
at IMO and in the international community. I think that standard does 
have merit as an alternative and it seems to be where the debate is 
moving to, for the following reasons:

    a) It is more clearly defined and, from an engineering perspective, 
easier to design to engineers like tight design definitions.
    b) From a testing and verification perspective, it may also be 
easier to measure and enforce.
    c) Also, it may be more practical for manufacturers to build to 
that standard.

    The primary problem with the 95 percent approach is its vagueness. 
Ninety-five percent of what? Even the biologists and scientists may 
have a hard time agreeing. With all of the biological differences in 
various water samples across a wide spectrum of sizes from different 
ecosystems, engineers would find it difficult to develop a system to 
meet the requirement.
    It also may be byzantine to design a testing protocol to evaluate 
equipment based on the 95 percent standard.
    At IMO, I think there is a good chance that the standard may be 
changed from that of a percent approach to one of an organisms alive 
above a size in a standard volume of water. It makes sense for the U.S. 
standard to be compatible with the international standard. I also 
believe we will act on this long before IMO reaches consensus and 
enacts anything. If we lead, others will follow.
    From a risk perspective, the question is: Is there a greater risk 
by allowing 5 percent of all the biota to remain alive or some unknown 
amount below a certain size and a specific number of organisms above 
that size to enter the ecosystem? Either methodology does a better job 
of protecting the ecosystem than what we have now, and both focus on 
prevention.
    In addition to prevention, there are several other themes for 
addressing this issue: a clearly defined and practical treatment 
standard; a Federal solution with worldwide application, robust data 
collection and technological research systems; and the grandfathering 
of treatment systems and vessels. I believe that the above approach 
will lead to a variety of solutions. From a shipboard perspective, the 
critical variables include: the volume of ballast water; pumping rate; 
length of voyage; time in port; trade pattern; and vessel design. The 
complexity of these variables makes a single solution difficult, if not 
impossible.
    Although we respect the role of State Governments, an appropriate 
Federal solution would not only adequately address the problem, it 
would save the States' enforcement dollars. This is exactly the type of 
problem that requires a regional and, therefore, Federal solution. Can 
you imagine the complexities of trying to comply with different 
regulations promulgated by the eight States that share the Lakes?
    I want to thank the Committee for your commitment to finding 
solutions to this problem and conclude by saying we must recognize 
those exotics that have established themselves in the Great Lakes are 
now citizens in all but name. Even the very successful and 
sophisticated efforts of the Great Lakes Fishery Commission have 
resulted in the control of but not the elimination of the sea lamprey. 
Therefore, our goal MUST BE the prevention of additional introductions 
via the ballast water on ocean-going vessels.
    Thank you.

                                 ______
                                 
 Responses of James H.I. Weakley to Additional Questions from Senator 
                                 Allard

    Question 1. This legislation requires that each State have a Rapid 
Response Contingency Plan. If the Federal Government requires such a 
plan, how do we ensure that all ships that discharge ballast waters are 
aware of each State's plan?
    Response. It would be difficult to ensure that all ships 
discharging ballast are aware of each individual State's response plan. 
That is why we favor a Federal solution based on international 
agreements and protocols. The Oil Pollution Act of 1990 implemented a 
response approach that clearly designated the Federal Government as the 
response leader while allowing for State and Local input into the 
response plan and execution. I believe that the structure for 
responding to invasive species should follow the same pattern. That 
approach would ensure that all involved parties understood their role, 
responsibility, and authority.

    Question 2. The legislation proposes that the Coast Guard will 
promulgate the regulations for an interim standard, while the EPA will 
develop the final standard. The Coast Guard supports a single standard 
that is scientifically sound and enforceable, and the EPA has concerns 
that they should be the ones in charge, as well as issues of rule 
promulgation and sharing. Some before this Committee believe that the 
responsibility to develop and promulgate a ballast water discharge 
standard should remain with one agency. How should this be addressed? 
Who is the right agency?
    Response. LCA strongly agrees that the responsibility to develop 
and promulgate a ballast water discharge standard should lie with one 
agency and, further, that the U.S. Coast Guard is best suited to be 
that agency. If more than one agency is involved, the potential for 
conflicts and contradictions rises dramatically. I mean no disrespect 
to other Federal agencies, but regulations that govern ballast water 
procedures must be developed by individuals who are highly 
knowledgeable of the marine environment and vessel operations. If 
ballast tanks are filled or emptied too quickly or in the wrong 
sequence, the resulting stresses can crack or even break the hull, a 
result that puts both lives and the environment at risk. We strongly 
urge that the U.S. Coast Guard be the sole agency responsible for 
development and implementation of a ballast water discharge standard.
                                 ______
                                 
 Responses of James H.I. Weakley to Additional Questions from Senator 
                               Voinovich

    Question. It is my understanding that there is an ongoing lawsuit 
between several groups and the EPA on whether the agency should 
regulate ballast water under the Clean Water Act. What effect would 
regulation of this kind have on the shipping industry?
    Response. Regulation of ballast water by the EPA under the Clean 
Water Act could have a devastating effect on the marine industry. 
Operationally, the process for applying for permits, certifying and 
testing effluent, and the permutations of ballasting operations could 
significantly impact the industry. Our ability to move cargo demands a 
regulatory scheme that is streamlined and efficient. Introducing the 
EPA into the process would be counter to both of those goals. The U.S. 
Coast Guard, steeped in maritime history and knowledge, serves the best 
interest of marine transportation without compromising the best 
interest of our Nation. The industry could easily be issued 
contradictory requirements by the U.S. Coast Guard and the EPA, 
effectively catching the ship and the vessel operator in a bureaucratic 
tug-of-war for control. The sheer number of ballasting operations could 
overwhelm the EPA and divert attention from their current duties and 
responsibilities. The resulting regulatory gridlock would negatively 
impact the environment and the economy. The U.S. Coast Guard, from both 
a domestic and international perspective, remains the most qualified 
and effective agency for addressing the ballast water issue.

    Question 2. What have you learned from your Association's process 
of trying to find a solution to the ballast water problem? Please 
describe some of your research.
    Response. Through our research, we gained a greater appreciation of 
the complexity of the problem. We have also been able to focus in on 
some of the key variables and concluded that there likely will not be a 
single solution or technology that works for every vessel. Volume of 
ballast water and rate of flow appear to be the key engineering 
variables for treatment systems. Vessel design and trade pattern also 
play a role in determining the need for ballast water treatment and the 
success of that treatment. More research must be done to understand the 
problem before solutions are found.
    In the end, there will probably be different solutions for 
treatment, depending on the application. There may also be systems 
employing a series of treatment at the water intake, water discharge 
and during transit or a technological breakthrough may result in a 
single system with multiple applications. One thing is clear, there 
remains much work to do.
    To date, we have evaluated filtration systems, cyclonic separator 
systems, and ultra-violet light. We have even evaluated filtrations 
systems in combination with ultra-violet light. Our testing 
environments have included a Canadian laker trading between the St. 
Lawrence Seaway and the Lakes; an American barge moored in Duluth 
(Minnesota) Harbor; and an ocean-going tanker.

    Question 3. It is my understanding that attendees at the recent 
International Conference on Aquatic Invasive Species held in Windsor, 
Ontario, thought it would be a good idea to dedicate a test ship to 
full-scale, on-board ballast water technologies and treatment. Is this 
something the government can do to promote research and help find a 
solution to the ballast water problem?
    Response. At some point, ballast water treatment and equipment 
evaluation must be done aboard ship. However, it may not be the best 
use of government money to provide a ship dedicated to this purpose. 
With research in its infancy, more needs to be done to develop possible 
solutions in the laboratory before testing shipboard implementation. 
Rather than a single ship dedicated to testing different applications 
at different times, a better approach may be to fund specific tests on 
multiple ships at the same time. That approach would result in a larger 
body of research in a shorter timeframe. The vessel operator, not the 
government, would then pay the fixed costs of operating the ship. The 
government would only be funding the marginal costs of the ballast 
water research. Operational tests could also be done on barges 
specifically designed for the test or modified at significantly less 
cost for the same information. The government should stimulate research 
by funding as much testing as possible with the limited money 
available.

                               __________
        Statement of Thomas W. Sherman, President, Aquacide LLC

    Thank you, Chairman Inhofe and Members of the Committee, for the 
opportunity to present Aquacide's views on certain aspects of the Bill, 
especially as they pertain to Ballast Water Management.
    Aquacide is a ballast water engineering firm consisting of 
engineers and scientists with expertise in thermodynamics, fluid/gas 
handling, metallurgy, marine biology, naval architecture, marine 
engineering, biochemistry, toxicity, waste water treatment, marine law, 
patents and licensing. We have been involved in the invasive species 
problem for more than 10 years, and participated in the preparation of 
Sen. Glenn's Bill, the National Invasive Species Act of 1996.
    The invasion of our waters has been going on for years. Congress 
took note of it and passed, in 1990, the Nonindigenous Aquatic Nuisance 
Prevention and Control Act (NANPCA). During the intervening years, 
scientists have been driving the Invasive Species train, and while this 
has resulted in the accumulation of much needed data, little has 
actually been accomplished to stem the tide of invaders. I should add 
here that my use of the term ``stem the tide'' is not original. 
``Stemming the Tide'' is the title of a book published in 1996 by the 
National Research council, which is considered to be the ``bible'' for 
those involved in this business.
    The International Maritime Organization (IMO) has been addressing 
the issue with numerous international meetings, exchanges of papers, 
etc. Also, for years, the Coast Guard has been publishing for comment 
proposals for regulating ballast water. The ``community'' of 
scientists, shipowners, regulators and others have actively 
participated, and the volumes of paperwork accumulated in this process 
are a matter of public record.
    There is no shortage of data.
    But in 13 years, nothing concrete has been achieved. So every day, 
thousands of tons of unregulated ballast water containing invasive 
species and disease causing pathogens are being discharged into our 
waters. Action is clearly required, and that is the thrust of my 
remarks today.
    Other than voluntary ballast water exchange (BWE), there are no 
controls over ballast water being discharged into U.S. waters. We 
believe that it is time, as Congress addresses the present legislation, 
to move forward and establish mandatory requirements which will 
actually begin to stem the tide. In the process of moving forward, 
decisions will have to be made, some of which may be painful, but these 
decisions must be made. We view the legislation before you as a 
crossroads a golden opportunity to transition the process from being 
problem oriented to solution oriented.
    The scientists and the regulators have had their day in court 
(thirteen years of them), and it is now time for the owners, the 
builders, the innovators and the engineers to make things happen. While 
they are at work, the scientists will continue their work on the 
evolving threat.
    As Aquacide sees things, the main order of business before this 
Committee, as pertaining to ballast water treatment, and where the 
decisions need to be taken, is the establishment of mandatory standards 
and a timetable for their implementation. This action, which will lead 
to consideration and passage by the Congress, should be completed in a 
timely fashion. When one considers those thousands of tons of 
unregulated ballast water being discharged into our waters, the need 
for prompt action is apparent
    Only after Congress has set the standards and the timetable can the 
owners commit resources needed to get the engineers and builders to 
configure the ships to meet the standards. Proper ``grandfathering'' 
must be built into the process to protect the owners' investments, 
which will involve billions of dollars.
    The stated goal of Congress is to eliminate the risk of 
introduction of non-native species, and plant, animal, or human 
pathogens by vessels. This is often called zero discharge. To our 
knowledge, Aquacide's thermal pasteurization process is the only 
existing technology able to approach this theoretical limit. But 
whatever standards are adapted should not limit research which might 
lead to alternative treatment methods which, given the evolving threat, 
may be required. At this point it is appropriate to point out that the 
invasive species threat has already evolved into a public health 
threat, given that pathogens are now recognized as part of the 
invasion. I note that some of the members of this Committee are also 
members of the Committee on Health, Education, Labor and Pensions. The 
public health policy aspects of invasive species require decisionmakers 
to lean toward the worst-case scenarios. The public, as they become 
more informed about the issue, will demand action rather than inaction.
    The first required step of the process is to establish Interim 
Standards and we urge the Committee to act promptly to get these 
established as soon as possible. At this point, I'm going to borrow an 
example from the aerospace world to help view Interim Standards in the 
proper perspective.
    When, say, the Air Force procures a new aircraft, it doesn't go 
immediately into full-scale production. It starts with a prototype, 
which is everybody's best estimate as to what the final product will 
be. When the prototype is fielded for test, many things show up that 
nobody had thought about. The Law of Unintended Consequences plays 
large here, as does Murphy's Law. After the prototype is wrung out and 
fixed, only then is full-scale production begun. Some call this ``fly 
before buy.'' There probably will still be some bugs left, but usually 
they are minor. The main thing is not to get set into concrete too soon 
in the process. I equate Interim Standards to prototypes. With proper 
wording, the bugs in the Interims and there will be some can be worked 
out with a minimum of time and effort. These, in turn, will lead to 
solid, workable Final Standards. As you probably recall, the Draft of 
the Bill before us contains a time line which includes this logical 
approach.
    Given the importance of Interim Standards, I will lay them out in a 
step-by-step format:
    1. They should be viewed as the first step toward the congressional 
goal of zero discharge.
    2. They should be better than Ballast Water Exchange (BWE), or at 
least as effective. This will require an arbitrary decision (and the 
``community'' knows why it must be arbitrary) as to what is meant by 
``as effective as BWE.'' The Coast Guard should, by law, make this 
decision, but if there are legal concerns in that Agency over making 
such a decision, Congress can make it. In any event, this decision must 
be made promptly.
    3. They should be viewed as they are titled: Interim. All concerned 
parties shippers, Coast Guard, scientists, engineers, etc. will learn 
by doing. The prototype analogy.
    4. The measurement protocols must be stated and must use commonly 
accepted yardsticks. Without these protocols, standards are 
meaningless. Physical size (so many microns) is one such measure and 
there are also commonly accepted biological measures, (which we favor) 
used in the field by Agencies like the EPA, such as Biochemical Oxygen 
Demand (BOD) and Oxygen Uptake Rate (OUR). These measures have been 
studied by the Coast Guard and if approved, would be given Type 
Approval, which is in the draft language of the Bill.
    5. They should not be stated in terms subject to interpretation, 
like ``as clean as drinking water.'' There are many legitimate 
definitions of this term. Also, they should not be contingent on future 
activity, i.e., using language like ``to be developed.'' They should be 
based on data in hand now, which exists in abundance. Final Standards 
(including measurement protocols) will be based on lessons learned from 
the Interim Standards. Standards must be established which reduce 
uncertainty to the absolute minimum. Uncertainty puts an unreasonable 
burden on those who must bear the costs of ballast water treatment, the 
shipowners.
    The above specifics apply to Interim Standards in general. The 
Regulatory Agencies appear to be reluctant to accept them as they 
require decisionmaking, enforcement, and schedules on their part. But 
to comply with the stated intent of Congress in 1990, this action must 
be taken. Those who State that the current process is working OK are 
clearly unwilling to take the action, because, as stated earlier, in 
the 13 years that the current process has been operating, the invasion 
continues. There is still nothing on the books.
    Hopefully, this hearing will lead to action which, as a minimum, 
will result in the establishment of Interim Standards and a schedule. 
After all these years, the first steps will have been taken to Stem the 
Tide.
    We appreciate the opportunity to contribute to this important 
legislation.
    Thank you

                               __________
 Statement of Kathy J. Metcalf, Director, Maritime Affairs, Chamber of 
                          Shipping of America

    The Chamber of Shipping of America (CSA) appreciates the 
opportunity to provide written testimony to the Senate Subcommittee on 
Fisheries, Wildlife, and Water to the record of the subcommittee's June 
17, 2003 hearing on the National Aquatic Invasive Species Act of 2003 
(S. 525). Our testimony focuses on potential strategies relative to 
marine vessels entering US waters from outside the exclusive economic 
zone (EEZ).
    CSA represents 23 U.S. based companies that own, operate or charter 
oceangoing tankers, container ships, and other merchant vessels engaged 
in both the domestic and international trades and represents other 
entities that maintain a commercial interest in the operation of such 
oceangoing vessels.
    CSA has been involved in the issue of aquatic invasive species for 
over a decade at the international, national and sub-national (local 
and regional) levels. We have served as an industry advisor to the US 
delegation to the International Maritime Organization's (IMO) Marine 
Environment Protection Committee working closely with the US Coast 
Guard, Environmental Protection Agency and other Federal agencies in 
the development of the US position at the IMO. We have also worked with 
our international maritime trade association colleagues in identifying 
practical and environmentally beneficial solutions to the continuing 
problem of aquatic invasive species transportation in the ballast water 
of marine vessels.
    CSA strongly supports the implementation of a mandatory national 
ballast water management program and believes that S. 525 is an 
excellent framework within which to design such a system with due 
regard to environmental protection, technological feasibility and the 
realities of the marine transportation industry. We do have some 
concerns with specific aspects of the bill and would be pleased to 
discuss these in detail with you at your convenience. However, the 
majority of these specific details fall within the purview of several 
broad categories which we discuss in further detail below. In addition 
to these discussions, we close our comments with responses to 
particular issues raised at the June 17, 2003 hearing. We hope you find 
this information valuable and informative as we all move forward 
together in meeting this environmental challenge.
    CSA has identified four key issues associated with the creation and 
implementation of a mandatory national ballast water management program 
in the United States. The four key issues explained below are seen as 
the most critical elements to a practical and environmentally 
protective national ballast water management program which minimizes 
the disruption to the free flow of maritime commerce.

Technology Performance Standards/Standardized Test Protocols
    For over a decade, the challenges associated with the transport of 
aquatic nuisance species in ballast water have been recognized. During 
this time, a number of technology developers have approached various 
segments of the industry with the ultimate goal of installing these 
technologies aboard vessels for ``real world'' testing. As a result of 
the significant financial investment required for transition from 
concept to laboratory to pilot plant to full shipboard installation 
(conservatively estimated at US $1,000,000 minimum), stakeholders in 
these discussions have asked the obvious question as to whether a 
particular technology could be expected to meet future legal 
requirements. In the absence of any performance standards, industry and 
technology experts have acknowledged the impossibility of answering 
this threshold question, which if answerable in the affirmative could 
justify the expenditure of the significant financial resources 
necessary to take a particular technology from concept to shipboard 
installation.
    Furthermore, in the absence of any standardized test protocols, 
technology developers and some ship owners have borne the cost of 
laboratory and prototype testing which have produced promising results 
but which, unfortunately, are not comparable from one technology to 
another. Standardized test protocols which outline scientifically 
acceptable test methods are necessary to provide the necessary 
comparability among various tested technologies. These standard test 
protocols are currently the subject of a joint public/private effort 
organized by EPA under its environmental technology verification 
program and in which CSA participates.
    While we do not claim any scientific expertise in establishing the 
quantitative aspects of a biological standard (which must necessarily 
balance achievability with environmental protection), we do propose 
that any established standard, whether experimental, interim or final, 
should be achievable based on existing or reasonably expected 
technology and capable of being installed and operated on new and 
existing vessels with a minimum of disruption to ship operations. The 
current bill proposes 95 percent kill, inactivation and/or removal 
interim standard. We believe that a standard based on size of organism 
is far preferable to a format which establishes a particular percentage 
for the following reasons. A size based standard would meet the 
necessary criteria of biological meaningfulness, scientific soundness 
and enforceability. To fully comprehend the necessity of establishing a 
standard meeting these criteria requires a review of the problems 
created if such criteria were not met, as would be the case with the 95 
percent kill, inactivation and/or removal standard proposed.
    First, the 95 percent number was chosen as a surrogate equivalency 
for the 95 percent volumetric efficiency associated with ballast water 
exchange. We do not believe that a direct correlation between 
biological and volumetric efficiency is justifiable, particularly when 
one notes that various studies attempting to quantify the biological 
effectiveness of ballast water exchange have ranged from 29 99 percent, 
with variations attributable to the wide range in biological components 
of the loaded ballast water, methods of exchange (empty/refill, 
dilution) and the criteria organisms which were measured in the loaded 
and then exchanged ballast water. Second, a standard based on percent 
reduction does not adequately take into account the risk introduced 
into the receiving water body. Ballast water loaded from a water body 
rich in native organisms and then treated to a 95 percent kill, 
inactivation and/or removal criteria, presents a far different risk to 
a receiving ecosystem than ballast water loaded in a relatively 
``benign'' water body. Third, enforcement and compliance programs 
utilizing a percent reduction, presuppose that a sample of water taken 
at the load port would then later be analyzed at the discharge port to 
enable the determination that a particular percentage of organisms were 
in fact killed, inactivated or removed. The reliability of such a 
measurement is problematic as the biological composition of the sample 
during transit will naturally change as certain organisms may die off 
during transit, while others may thrive, based on the environment in 
the sample container.
    Creation of a performance standard based on size of organism 
killed, removed or inactivated eliminates these problems. Removal based 
on organism size can be directly related to risk reduction in the 
discharged ballast water. Additionally, compliance is more easily 
verified since the ballast water would only need be analyzed for 
organism size rather than the potentially wide range of organism types 
and their concentrations found in ecosystems worldwide.

Experimental Shipboard Testing Program
    The key to successful implementation of a national (and 
international for that matter) ballast water management program that 
transitions from the use of ballast water exchange to ballast water 
treatment systems requires a program which provides incentives for 
participants to go beyond the status quo (currently exchange) and 
results in the installation of a number of ``in test'' technologies 
aboard ship. Laboratory and shore side prototypes can only go so far. 
It is these shipboard installations operated in the sometime severe 
marine environment on a variety of ship types and with ballast water 
loaded in a wide range of ports worldwide that will provide us with the 
data necessary to establish what is practically achievable and what is 
not. Furthermore, such test programs will provide valuable data to 
invasion biologists relative to what types of organisms from specific 
geographical regions present the greatest threat to US waters. A robust 
incentivized experimental shipboard testing program with appropriate 
agency oversight and reporting requirements is absolutely critical to a 
successful ballast water management program.
    Grandfathering Provisions
    Most international and US regulations pertaining to shipboard 
equipment include grandfathering provisions which provide that 
compliance with a standard in place at the time the vessel is 
constructed (or undergoes major modification) establishes compliance 
for that equipment for the life of the vessel. Such provisions need to 
be considered within the context of ballast water treatment systems 
which carry significant initial costs and present challenges to 
retrofitting new equipment on an already existing vessel. At the very 
minimum, compliance life of the treatment system should be linked to 
expected return on an investment of this significance and the 
(in)ability of an existing vessel to install a new system on an 
existing vessel. Grandfathering provisions will also play a critical 
role in accelerating the move from ballast water exchange to treatment, 
where the outlay for treatment system installation far exceeds the 
operating expenses of maintaining the status quo (ballast water 
exchange).

International/National/Sub-national Consistency
    In the ideal world, requirements established by the International 
Maritime Organization (IMO), the US, States and local/regional 
jurisdictions would mirror one another. Compliance with one would 
constitute compliance with the others and provide assurance that 
vessels, most of which are engaged in international trade, would not be 
subject to different sets of requirements in each port of call. Current 
direction at the IMO suggests that the international standards may not 
be viewed as sufficiently stringent for US waters, although the US 
delegation to IMO is working very hard at achieving that level of 
stringency in treaty text which is expected to be finalized at a 
Diplomatic Conference in early 2004. Recognizing the limited ability 
any one country has to influence the final outcome in international 
treaty negotiations, we turn to the ability to at least create this 
consistency within US waters, noting the large number of vessels which 
call in multiple US ports. Language preempting State programs would be 
the ideal solution to this dilemma. However, recognizing the political 
baggage which accompanies such preemption text, States, at a minimum, 
should be urged to the maximum extent practical, to adopt the national 
program as their respective State programs. Based on discussions with 
representatives of a number of States' environmental agencies, it is 
expected that States' would gladly ``buy in'' to a sufficiently strong 
national program which did not place them in the precarious position of 
choosing environmental protection at the expense of port 
competitiveness.

Recommendations
    <bullet>  Establishment of an achievable and environmentally 
protective ballast water treatment performance standard utilizing 
organism size as the criteria for compliance.
    <bullet>  Establishment of a standardized testing protocol for 
developing technologies which will enable comparability among test 
results for various technologies.
    <bullet>  Development of an incentivized experimental shipboard 
testing program to maximize the number of technology types being tested 
on a wide variety of ship types and over a wide geographic range.
    <bullet>  Develop appropriate grandfathering provisions for 
treatment systems taking into account the significant investment 
required for installation and operation of such systems and (in) 
ability to retrofit new systems aboard existing vessels.
    <bullet>  Maximize consistency among international, national and 
sub-national requirements.

CSA Responses to Issues Raised During the Hearing
    Issue: A number of Members expressed concern about enacting a 
strong Federal program within the context of traditional States' rights 
in control and protection of their waters.
    Response: CSA recognizes and supports the notion of States' rights 
over control of their marine environment. However, CSA also recognizes 
the international nature of marine transportation and the transfer of 
aquatic invasive species which necessarily demands a strong 
international and national template for controls on which the States 
may rely. CSA recommends that Federal preemption language be included 
in the bill limited only to those programs addressing prevention 
namely, Title I, Section 101 which addresses prevention of ANS 
introductions into US waters by vessels. The remaining sections of the 
legislation addressing research, early detection, rapid response, 
control and outreach would not be subject to Federal preemption and 
would be implemented through coordinated Federal/State/private 
partnerships.

    Issue: A number of witnesses expressed concern over the proposed 95 
percent kill, inactivation or removal format for the performance 
standard.
    Response: We agree with the expressed concerns. As indicated above, 
the performance standard must be biologically meaningful, 
scientifically sound and enforceable (readily measurable). A standard 
based on size of organism meets this criteria, while one based on 
percent kill, inactivation or removal does not. In addition, we believe 
the standard should also be technologically achievable and practical 
taking into account the harsh marine environment in which ballast water 
treatment systems must operate.

    Issue: A number of Members and witnesses discussed the relative 
importance of the various aspects of a national program which must 
necessarily include prevention, early detection, response, control, 
eradication and outreach.
    Response: We believe that prevention of invasions is the lodestone 
of a successful program. While appropriate focus should be placed on 
early detection, response, eradication and outreach, primary focus 
should be placed on keeping the invaders out of our waters in the first 
place. History is the unfortunate witness as to the practical 
impossibility of eradicating an already invasive species once 
entrenched in an ecosystem in all but a very few cases where the 
geographic range of the invasion has been limited either through 
natural phenomenon or early human intervention. It is also important to 
note that the need for attention to program components other than 
prevention is necessary due to the fact that the development of 
technologies addressing the various vectors of ANS transmission is in 
its infancy and, while expected to improve substantially over time, is 
not capable of reducing the risk of invasions to zero.

    Issue: Several witnesses noted that the proposed legislation is 
unclear in some portions as to which, if any, Federal agency is the 
``lead'' agency on a particular issue.
    Response: We agree that responsibilities of Federal agencies should 
be clearly and consistently identified. We also recognize the 
complexity of dealing with the aquatic invasive species problem and the 
need for all agencies with expertise in a given area to be involved in 
the decisionmaking which leads to regulations implementing the 
provisions of the bill. It is our understanding that an existing 
interagency review process is well equipped to vet proposed regulations 
among the interested agencies prior to promulgation. With this system 
in place, the responsibilities and roles assigned to the various 
agencies under the bill should be clear, consistent with agencies' 
known expertise and provide for a single agency to take the lead on a 
given initiative. For example, the bill as proposed would require the 
Coast Guard to establish the interim standard with the concurrence of 
the EPA and in consultation with the ANS Task Force. However, the bill 
then proposes that the final standard be established by the EPA with 
the concurrence of the Coast Guard and in consultation with the ANS 
Task Force. Such inconsistency is difficult to fathom since all three 
of these entities (and quite likely other agencies) should be involved 
in the development of standards (whether they be interim or final). CSA 
believes that a single agency be recognized as the lead agency for 
standards development and we assert that agency should be the US Coast 
Guard, but only after due consultation with all Federal agencies with 
expertise in this area.

    Issue: Two witnesses addressed the issue of interim and final 
standards in their written testimony and specifically, questioned 
whether both an interim and final standard is needed (versus 
establishment of a final standard only).
    Response: CSA recognizes the inherent difficulties placed before 
Federal agencies in transitioning from an interim standard to a final 
standard, particularly with regard to what benefits should accrue to a 
proactive shipowner who has early on in the process, invested heavily 
in an experimental shipboard system which proves to exceed the 
effectiveness of ballast water exchange but fails to meet the final 
standard. On the other hand, vendors and shipowners absolutely require 
now some quantitative criteria, a target if you will, which if met, 
qualifies their equipment and the shipboard installation for favorable 
compliance treatment under the experimental shipboard testing program 
and beyond the final standard implementation date, in order to provide 
adequate incentives for early action. Without such incentives, vendors 
cannot justify bench and shore scale testing programs and vessel owners 
cannot justify the significant outlay to move the technology to full 
shipboard installation and testing, a critical step in the development 
of promising and increasingly more effective technologies. With such 
incentives, entities with proactive programs will be appropriately 
rewarded while those who remain in the wings waiting for others to 
incur the shipboard testing costs will be required to meet the final 
standard by the legislatively mandated implementation date. This issue 
has been the subject of much discussion in both international and 
national fora and CSA believes that the issue is one more related to 
semantics than substance, at least from the industry's perspective. If 
the concept of an interim standard is problematic for the enforcement 
of the ballast water management program, then CSA suggests inclusion of 
a performance standard within the body of the experimental shipboard 
testing program. Such inclusion, while not mandatory for participation 
in the shipboard testing program, would provide that vessels which do 
not meet this standard during the course of the testing, would be 
subject to final standard requirements at the implementation date. 
Technologies that do meet this (interim or experimental) performance 
standard prior to or during the course of the experimental shipboard 
testing program would be afforded the benefits of a compliance 
designation beyond the final standard implementation date and for an 
appropriate term to be determined. Based upon the expected life of 
large marine vessel systems, CSA proposes that a 20 year life is an 
appropriate starting point. Providing such an incentive is well 
justified in light of the need to get a number of promising 
technologies installed and under test aboard vessels as such tests will 
not only permit a determination of the capabilities of existing 
technology but will also begin to provide the much needed data relating 
to biological profiles of ballast water loaded at locations around the 
world.
    We thank you for the opportunity to provide these comments and 
would be pleased to address any questions or discuss any other related 
issues in which you have an interest.

                               __________
               UNITED STATES DEPARTMENT OF THE INTERIOR,
                                    U.S. Geological Survey,
                                                     June 20, 2003.
Senator Michael Crapo,
Senate Office Building,
Washington, DC 20510-1204.
Senator: On June 17, Senator Crapo chaired the U.S. Senate Subcommittee 
on Fisheries, Wildlife & Water at hearing on S. 525, a bill ``To amend 
the Nonindigenous Aquatic Nuisance Prevention and Control Act of 1990 
to reauthorize and improve that Act.'' In connection with this 
important topic, I wanted to give you some information and a fact sheet 
on the work done by the U.S. Geological Survey's (USGS) Western 
Fisheries Research Center in Seattle, Washington.
    The Western Fisheries Research Center and its six associated 
laboratories in California, Oregon, Washington and Nevada are involved 
in a number of scientific studies related to the impact of aquatic 
invasive species. We work in partnership with a variety of State and 
local governments, Tribes and land management agencies to assess the 
damage, vulnerabilities and future risks imposed by aquatic invasive 
species. We do this work in coastal ecosystems like Puget Sound, large 
rivers like the Columbia, sensitive inland desert waters, and many 
other estuaries, rivers, wetlands and reservoirs.
    One particular concern is the risks posed by ballast water 
introduction, and the need to develop effective and economical 
treatment methods for ballast water. Zebra mussels, red tide plankton 
and human cholera pathogens are just some of the bio-invasives 
identified in ballast water discharge. The States of California and 
Washington have recently passed laws to regulate discharge of ballast 
water, laws that will require sound science underpinning their 
implementation. USGS' Marrowstone Marine Station in northern Puget 
Sound is actively involved in developing treatment methods, assessing 
species transportation risks and other ballast water research.
    USGS feels that reliable science is essential to predict and assess 
aquatic invasive species risks, and to define and manage problems once 
they occur. We assist our partners in determining why and how aquatic 
invaders are successful, identifying methods to control populations and 
short-stop initial invasions, and in approaches to anticipate new 
threats. Our partners include States, Tribes, local governments, State 
and private universities, and Federal partners such as the U.S. Army 
Corps of Engineers, NOAA and our sister agencies within the Department 
of the Interior the National Park Service, U.S. Fish & Wildlife 
Service, Bureau of Land Management and the Bureau of Reclamation.
    I invite you to contact me to learn more about the USGS invasive 
species science underway in Senator Crapo's District or to visit the 
Western Region Fisheries Center or one of our Laboratories.
    Sincerely,
    Anne Kinsinger
    Regional Executive for Biology
    USGS Western Region
    909 First Avenue, Suite 804
    Seattle, WA 98104
    Non-Indigenous Species Invasions in the Western United States
    More than 6,500 non-indigenous species are now established in the 
United States, causing huge economic losses and disrupting valued 
American ecosystems. Biological invaders pose risks to native species, 
human and wildlife health, and the productivity of agricultural food 
supplies. Losses caused by just 79 of these taxa were conservatively 
estimated in 1993 by the U.S. Office of Technology Assessment to be 
more than $97 billion and increasing. Bio-security protection from 
dangerous biological introductions--is important to Americans.
    The vast mosaic of western U.S. habitats is welcoming to potential 
biological newcomers. The invaders include plants, animals and 
microbial pathogens. Weeds like cheatgrass and medusahead now dominate 
over 3 million acres of public land over 5 western States, fueling many 
of the nation's largest wildfires. More than 230 non-native species 
have colonized San Francisco Bay, completely altering estuarine food 
chains and ecosystem processes. Red tide plankton and human cholera 
pathogens have been identified in ballast water discharges. Once 
established, these invasive species can degrade habitats of critically 
declining native wildlife -- indeed, non-indigenous species are often 
the most critical problem facing western threatened and endangered 
species, particularly on Pacific islands.
    Current USGS research on nonindigenous species cannot fulfill 
information needs expressed by western resource managers in the Bureau 
of Land Management, US Fish and Wildlife Service, National Park 
Service, and numerous tribes, States, and private institutions. Gaps in 
the USGS program exist for many of the vulnerable habitats of the west 
-- many of which are on Federal lands. Risks posed by the invaders are 
frequently unknown, so managers can't act to prevent damage. Knowledge 
regarding how to restore native communities once they are degraded by 
invasive species is largely nonexistent.
    In order to fill these gaps, the USGS needs to enhance science 
activity in the west, working within the bureau's Invasive Species and 
Emerging Diseases Program. The science would be focused through 
partnerships with resource managers and conducted using 
multidisciplinary or integrated approaches depending on the nature of 
the problem. The initiative would include:

Major Thrusts
    Predicting and assessing risks: provide USGS partners with tools 
and models to anticipate problems; help to better define and manage 
problems once they occur.
    Prevention and control: develop strategies and methods to shortstop 
initial introductions and cost-effectively control invaders once 
established, based on research to determine how and why invaders are 
successful.
    Information management: serve data and information to inform all 
aspects of invasive species management; reveal trends through 
monitoring to guide adaptive ecosystem management.

High Priority Topics
    Fresh Water/Aquatic: define risks posed by aquatic invertebrates; 
identify exotic fishes and their effects upon declining natives; 
determine non-native species influences on amphibians; define risks 
posed by wetland and riparian weed invaders.
    Coastal/Marine: determine the vulnerability of estuarine benthic 
communities and planktonic food webs; identify high risk foreign 
species in advance; determine threats to estuarine ecology.
    Ballast Water: research and develop effective ballast water 
treatment methods; assess species transport risks (e.g. by season; 
biogeographic region of origin); predict vulnerability to invasion for 
particular valued habitats, ecosystems, and native species complexes.
    Pacific Islands: develop potential biological controls (e.g. brown 
tree snakes); assess risks to island habitats for particular invaders 
by region of origin; provide recovery science for threatened and 
endangered native species depressed by exotics.
    Arid and Semiarid Rangeland: identify changes to fire regimes 
caused by non-indigenous invasions; develop restoration technologies; 
determine habitat impacts for native wildlife; determine how bio-
invasions interact with human habitat perturbations and climate change.
    Microbial pathogens and parasites: develop genetic tools to 
identify/diagnose novel pathogens; conduct biocontainment laboratory 
disease challenges for novel or incipient pathogens to determine 
virulence and assess risk of epizootics; develop treatment tools and 
methods.
    Process understanding: develop information about the ecological 
processes and mechanisms that foster invasiveness of plants, animals, 
and pathogens; develop science-based control strategies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
